<html>
<title> - THE FUTURE OF SNAP: MOVING PAST THE PANDEMIC</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                       THE FUTURE OF SNAP: MOVING PAST THE 
                                   PANDEMIC

=======================================================================

                                HEARING

                               BEFORE THE

    SUBCOMMITTEE ON NUTRITION, OVERSIGHT, AND DEPARTMENT OPERATIONS

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 26, 2021

                               __________

                            Serial No. 117-7


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov                         
                         
                                 __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-583 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------                            
                       
                        COMMITTEE ON AGRICULTURE

                     DAVID SCOTT, Georgia, Chairman

JIM COSTA, California                GLENN THOMPSON, Pennsylvania, 
JAMES P. McGOVERN, Massachusetts     Ranking Minority Member
FILEMON VELA, Texas                  AUSTIN SCOTT, Georgia
ALMA S. ADAMS, North Carolina, Vice  ERIC A. ``RICK'' CRAWFORD, 
Chair                                Arkansas
ABIGAIL DAVIS SPANBERGER, Virginia   SCOTT DesJARLAIS, Tennessee
JAHANA HAYES, Connecticut            VICKY HARTZLER, Missouri
ANTONIO DELGADO, New York            DOUG LaMALFA, California
BOBBY L. RUSH, Illinois              RODNEY DAVIS, Illinois
CHELLIE PINGREE, Maine               RICK W. ALLEN, Georgia
GREGORIO KILILI CAMACHO SABLAN,      DAVID ROUZER, North Carolina
Northern Mariana Islands             TRENT KELLY, Mississippi
ANN M. KUSTER, New Hampshire         DON BACON, Nebraska
CHERI BUSTOS, Illinois               DUSTY JOHNSON, South Dakota
SEAN PATRICK MALONEY, New York       JAMES R. BAIRD, Indiana
STACEY E. PLASKETT, Virgin Islands   JIM HAGEDORN, Minnesota
TOM O'HALLERAN, Arizona              CHRIS JACOBS, New York
SALUD O. CARBAJAL, California        TROY BALDERSON, Ohio
RO KHANNA, California                MICHAEL CLOUD, Texas
AL LAWSON, Jr., Florida              TRACEY MANN, Kansas
J. LUIS CORREA, California           RANDY FEENSTRA, Iowa
ANGIE CRAIG, Minnesota               MARY E. MILLER, Illinois
JOSH HARDER, California              BARRY MOORE, Alabama
CYNTHIA AXNE, Iowa                   KAT CAMMACK, Florida
KIM SCHRIER, Washington              MICHELLE FISCHBACH, Minnesota
JIMMY PANETTA, California            JULIA LETLOW, Louisiana
ANN KIRKPATRICK, Arizona
SANFORD D. BISHOP, Jr., Georgia

                                 ______

                      Anne Simmons, Staff Director

                 Parish Braden, Minority Staff Director

                                 ______

    Subcommittee on Nutrition, Oversight, and Department Operations

                 JAHANA HAYES, Connecticut, Chairwoman

JAMES P. McGOVERN, Massachusetts     DON BACON, Nebraska,  Ranking 
ALMA S. ADAMS, North Carolina        Minority Member
BOBBY L. RUSH, Illinois              ERIC A. ``RICK'' CRAWFORD, 
GREGORIO KILILI CAMACHO SABLAN,      Arkansas
Northern Mariana Islands             SCOTT DesJARLAIS, Tennessee
SALUD O. CARBAJAL, California        VICKY HARTZLER, Missouri
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
ANN M. KUSTER, New Hampshire         CHRIS JACOBS, New York
JIMMY PANETTA, California            MICHAEL CLOUD, Texas
SEAN PATRICK MALONEY, New York       KAT CAMMACK, Florida
                                     JULIA LETLOW, Louisiana

             Katherine Stewart, Subcommittee Staff Director

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Bacon, Hon. Don, a Representative in Congress from Nebraska, 
  opening statement..............................................     4
    Submitted statement on behalf of Inmar, Inc..................    66
Hayes, Hon. Jahana, a Representative in Congress from 
  Connecticut, opening statement.................................     1
    Prepared statement...........................................     3
    Submitted article............................................    63
    Submitted letter on behalf of Hannah Walker, Vice President, 
      Political Affairs, FMI--The Food Industry Association......    64
Sablan, Hon. Gregorio Kilili Camacho, a Delegate in Congress from 
  Northern Mariana Islands, prepared statement...................     6

                               Witnesses

Bauer, Ph.D., Lauren Lowenstein, Fellow in Economic Studies, The 
  Hamilton Project, Brookings Institution, Washington, D.C.......     7
    Prepared statement...........................................     9
    Submitted questions..........................................    72
Davis, Odessa, Washington, D.C.; on behalf of No Kid Hungry 
  Campaign, Share our Strength...................................    18
    Prepared statement...........................................    19
    Submitted question...........................................    75
Whitford, D.P.T., James, Co-Founder and Executive Director, 
  Watered Gardens Ministries, Joplin, MO.........................    20
    Prepared statement...........................................    22
    Supplementary material.......................................    69
Boynton-Jarrett, M.D., Sc.D., Renee, Associate Professor of 
  Pediatrics, Boston University School of Medicine; Pediatrician, 
  Boston Medical Center; Founder and Executive Director, Vital 
  Village Networks, Boston, MA...................................    25
    Prepared statement...........................................    27
    Submitted questions..........................................    75
Wilson, Rachel, Orlando, FL; on behalf of Second Harvest Food 
  Bank of Central Florida........................................    30
    Prepared statement...........................................    31

 
              THE FUTURE OF SNAP: MOVING PAST THE PANDEMIC

                              ----------                              


                        WEDNESDAY, MAY 26, 2021

                          House of Representatives,
      Subcommittee on Nutrition, Oversight, and Department 
                                                Operations,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 12:00 p.m., via 
Zoom, Hon. Jahana Hayes [Chairwoman of the Subcommittee] 
presiding.
    Members present: Representatives Hayes, McGovern, Adams, 
Rush, Sablan, Carbajal, Lawson, Kuster, Panetta, Pingree, 
Spanberger, Bacon, Crawford, DesJarlais, Hartzler, Baird, 
Cloud, Cammack, and Letlow.
    Staff present: Lyron Blum-Evitts, Ross Hettervig, Chu-Yuan 
Hwang, Lisa Shelton, Katherine Stewart, Caleb Crosswhite, 
Jennifer Tiller, Erin Wilson, and Dana Sandman.

  OPENING STATEMENT OF HON. JAHANA HAYES, A REPRESENTATIVE IN 
                   CONGRESS FROM CONNECTICUT

    The Chairwoman. This hearing of the Subcommittee on 
Nutrition, Oversight, and Department Operations entitled, The 
Future of SNAP: Moving Past the Pandemic, will come to order. 
Welcome, and thank you for joining us here today. After brief 
opening remarks, Members will receive testimony from our 
witnesses today, and then the hearing will be open to Member 
questions. Members will be recognized in order of seniority, 
alternating between Majority and Minority Members, and in order 
of arrival for those Members who have joined us after the 
hearing was called to order. When you are recognized, you will 
be asked to unmute your microphone and will have 5 minutes to 
ask your questions or make a comment. If you are not speaking, 
I ask that you remain muted in order to minimize background 
noise. In order to get as many questions as possible, the timer 
will stay consistently visible on your screen. In consultation 
with the Ranking Member and pursuant to Rule XI(e), I want to 
make sure Members of the Subcommittee are aware that other 
Members of the full Committee may join us today.
    Good afternoon and thank you, everyone, for participating 
today in the first hearing in the 117th Congress of the 
Subcommittee on Nutrition, Oversight, and Department 
Operations. I am honored to serve as Chairwoman of this crucial 
Subcommittee and want to publicly express my full commitment to 
crafting impactful, lasting policy.
    Before beginning the substance of today's hearing, I want 
to emphasize to my colleagues on this Subcommittee that our 
work will require bipartisan engagement and cooperation. Over 
this Congress, we will be tasked with evaluating our response 
to COVID-19, leading our communities out of concurrent crises, 
and tackling a new farm bill. I am steadfast in my commitment 
to ensuring everyone has a seat at the table as we approach 
these monumental tasks. I look forward to working with the 
Ranking Member, Mr. Bacon, and all the other Members of this 
Subcommittee. Please know that my door is always open to you.
    In addition to my distinguished friends and colleagues on 
the Subcommittee, we are very pleased and grateful to welcome a 
panel of experts today. Thank you all for being here. I look 
forward to introducing you and hearing your testimony shortly.
    The title of today's hearing is, The Future of SNAP: Moving 
Past the Pandemic. The purpose of this hearing is to recount 
the lessons we have learned about food insecurity and nutrition 
access during the COVID-19 crisis, and also to use those 
lessons as a roadmap for closing the glaring gaps in policy 
which left so many Americans food-insecure in the first place.
    After witnessing the events of the past 15 months, there 
should be no doubt about the tremendous need for SNAP and other 
nutrition programs. Temporary increases to SNAP benefits and 
accommodations made to state administrators, along with 
creative approaches to feeding students learning from home and 
the amazing work of food banks across the country, have helped 
to guard against the worst consequences that could have 
occurred during these concurrent health and economic crises. 
The built-in responsiveness of SNAP to shifting economic 
conditions has supported working families who, during this 
crisis, found themselves in uncertain economic conditions. 
Thankfully, efforts to expand and strengthen the nutrition 
safety nets have, for the most part, succeeded.
    As we will hear from our panel of expert witnesses today, 
SNAP during COVID has been crucial for those suddenly without 
an income, as well as parents forced to choose between a job 
and caring for their children in remote school. Ms. Davis and 
Ms. Wilson will testify to the strain of a household suddenly 
without the means to provide. Drs. Bauer and Boynton-Jarrett 
will offer data and clinical evidence of the precarious 
situation created by the pandemic, especially for women and 
children, and how nutrition assistance is essential. Dr. 
Whitford, Executive Director of Watered Gardens ministries in 
Missouri, will talk about the charity work of his mission and 
work training center.
    This testimony, I hope, will illustrate what I know to be 
true from first-hand experience: that SNAP is a hand-up, and 
not a hand-out, for Americans striving to achieve self-
sufficiency. Today's testimony will show that fear of hunger is 
not an economic motivator, it is an obstacle to success, and a 
threat to public health. And it will show that hunger does not 
discriminate. It exists in every one of our districts. Hunger 
effects our friends, our neighbors, the elderly, the disabled, 
single mothers and working fathers, and people of all races and 
beliefs.
    During this hearing, I am sure we may also hear some 
concerns about SNAP. Things like, ``SNAP discourages work''; 
that ``emergency allotments and a 15 percent increase in 
benefits are too expensive''; or that ``there is fraud within 
the program that requires updated quality control measures.'' 
While anecdotally those things, at times, may be true, these 
programs do work and they are a lifesaver. I know this because 
they saved my life.
    As a young mother, I worked two jobs and attended school 
and I still qualified for benefits. SNAP allowed me to put food 
in my children's mouths while I worked my way towards economic 
stability.
    Even when I was stable and could support my family, my 
commitment towards making sure that people had access to food 
continued. As a missionary in my church, I worked with the 
Bread of Life Ministry for many years to promote feeding hungry 
people around the world, and as a volunteer in my community, I 
have spent countless hours at local food banks.
    That memory of stress, and the threat of hunger for my 
children remains a reality for me, that I take into this work 
as Chairwoman of this Subcommittee. My lived experiences have 
shown me that SNAP, and other safety net programs, are not just 
hand-outs for people unwilling to work toward self-sufficiency. 
They are critical supports which ensure that hunger is not 
another obstacle in the way of Americans striving for 
stability.
    On this Subcommittee, we have a unique opportunity to 
ensure that these supports are strengthened for Americans in 
each of our districts. I am excited about this work and I look 
forward to continuing to deliver on this promise for the 
American people.
    With that, I want to once again welcome all of you today 
and give a special thanks to our panel for sharing their time 
and expertise.
    [The prepared statement of Mrs. Hayes follows:]

 Prepared Statement of Hon. Jahana Hayes, a Representative in Congress 
                            from Connecticut
    Good afternoon and thank you, everyone, for participating today in 
the first hearing in the 117th Congress of the Subcommittee on 
Nutrition, Oversight, and Department Operations. I am honored to serve 
as Chairwoman of this crucial Subcommittee and want to publicly express 
my full commitment to crafting impactful, lasting policy.
    Before beginning the substance of this hearing today, I want to 
emphasize to my colleagues on this Subcommittee that our work will 
require bipartisan engagement and cooperation. Over this Congress, we 
will be tasked with evaluating our response to COVID-19, leading our 
communities out of concurrent crises, and tackling a new farm bill. I 
am steadfast in my commitment to ensuring everyone has a seat at the 
table as we approach these monumental tasks. I look forward to working 
with the Ranking Member, Mr. Bacon, and all the other Members of this 
Subcommittee. Please know that my door is always open to you.
    In addition to my distinguished friends and colleagues on the 
Subcommittee, we are very pleased and grateful to welcome a panel of 
experts today. Thank you all for being here. I look forward to 
introducing you and hearing your testimony shortly.
    The title of today's hearing is, The Future of SNAP: Moving Past 
the Pandemic. The purpose of this hearing is to recount the lessons we 
have learned about food security and nutrition access during the COVID-
19 crisis--and also to use those lessons as a roadmap for closing the 
glaring gaps in policy which left so many Americans food-insecure in 
the first place.
    After witnessing the events of the past fifteen months, there 
should be no doubt about the tremendous need for SNAP and other 
nutrition programs. Temporary increases to SNAP benefits and 
accommodations made to state administrators, along with creative 
approaches to feeding students learning from home, and the amazing work 
of food banks across the country have helped to guard against the worst 
consequences that could have been caused by concurring health and 
economic crises. The built-in responsiveness of SNAP to shifting 
economic conditions has supported working families who, during this 
crisis, found themselves in uncertain economic conditions. Thankfully, 
these efforts to expand and strengthen the nutrition safety net have, 
for the most part, succeeded.
    As we will hear from our panel of witnesses today, SNAP during 
COVID has been crucial for those suddenly without an income, as well as 
parents forced to choose between a job and caring for their children in 
remote school. Ms. Davis and Ms. Wilson will testify to the strain of a 
household suddenly without the means to provide. Drs. Bauer and 
Boynton-Jarrett will offer data and clinical evidence of the precarious 
situation created by the pandemic, especially for women and children, 
and how nutrition assistance is essential. Dr. Whitford, Executive 
Director of Watered Gardens ministries in Missouri, will talk about the 
charity work of his mission and work training center.
    This testimony will illustrate what I know to be true from first-
hand experience: that SNAP is a hand-up, not a hand-out, for Americans 
striving to achieve self-sufficiency. Today's testimony will show that 
fear of hunger is not an economic motivator, but an obstacle to 
success, and threat to public health. And that hunger does not 
discriminate. It exists in every one of our districts. Hunger effects 
our friends and neighbors, the elderly, the disabled, single mothers, 
working parents, and people of all ages, races and beliefs.
    During this hearing, I am sure we may also hear some concerns 
regarding the SNAP program. That SNAP benefits discourage work; that 
emergency allotments and a 15% increase in benefits are just too 
expensive; that there is fraud within the SNAP program requiring 
updated quality control measures. While anecdotally there may be such 
instances--these programs work and they are lifesavers. I know this 
because they saved my life.
    As a young mother, I worked two jobs and attended school. But I 
still qualified for benefits. SNAP allowed me to put food in my 
children's mouths while I worked my way to economic stability.
    That memory of stress, and the threat of hunger, is a reality that 
I take into this work as Chairwoman of this Subcommittee. My lived 
experience has shown me that SNAP, and other safety net programs, are 
not just hand-outs for people unwilling to work toward self-
sufficiency. They are a critical support which ensures that hunger is 
not another obstacle in the way of Americans striving for stability.
    On this Subcommittee, we have an opportunity to ensure that these 
supports are strengthened for Americans in each of our districts. I am 
excited about this work and look forward to continuing to deliver for 
the American people.
    With that, I want to once again welcome all of you today and give a 
special thanks to our panel for sharing their time and expertise.

    The Chairwoman. I would like to welcome at this time the 
distinguished Ranking Member, the gentleman from Nebraska, Mr. 
Bacon, for any opening remarks that he would like to give.

   OPENING STATEMENT OF HON. DON BACON, A REPRESENTATIVE IN 
                     CONGRESS FROM NEBRASKA

    Mr. Bacon. Well, thank you, Madam Chairwoman. I appreciate 
your words. It has been a pleasure working with you in the 
117th Congress in this capacity, and I appreciate the spirit of 
teamwork that you are bringing to the Subcommittee.
    I just want to initially state, too, that I agree with you. 
SNAP fulfills a much-needed program in our community, and I 
appreciate your personal experiences with that.
    With that said, though, I do think it merits some review 
now as we are coming out of COVID, how we want to go forward as 
we are moving past this COVID pandemic.
    I do want to offer a good afternoon to everyone. I want to 
welcome all of our witnesses. Thank you for taking time to 
share your knowledge, experiences, and advice on how to best 
move forward in our missions to ensure those in need have 
access to SNAP.
    Based on the title of this hearing, I am hopeful we can use 
today to discuss not only the Department's emergency response 
to COVID, but where improvement is needed and how we can better 
serve our communities. We need to start planning a return to 
normalcy as progress takes us past COVID. We responded 
effectively, in my mind, to COVID, but now we are on the tail 
end of this pandemic. Our economy is coming back open, and our 
plans should adjust accordingly.
    I would like to take a moment to reflect on the 
Subcommittee's previous work related to SNAP. I believe there 
are four things to consider as Congress shifts from emergency 
spending and programming to a thoughtful policy and a return to 
normalcy.
    First, serving recipients through innovation, flexibility, 
and program delivery. We need to reassess this. Pursuing 
independence through employment and training. Returning to and 
maintaining program integrity, and improving access and 
promoting healthy foods and improve nutrition. If the pandemic 
has taught us anything, it is that there are myriad 
opportunities for serving families. There is not just one way 
to guarantee nutritious foods make it into the hands of those 
who need it. Whether it be the expansion of online pilots or 
the utilization of new distribution channels in the Farmers to 
Families Food Box Program, we need to think bigger on how to 
ensure qualified households not only have access to benefits 
and relevant services, but can use them in a way that reflects 
2021 and not 1972.
    While work waivers granted through the former and current 
Administrations were logical in response to COVID-19, they 
appear now, according to some news reports and some reporting, 
to be keeping some employable individuals disengaged, which 
reaps significant negative impacts on the families who want 
nothing more than to earn a living and to a small business 
community who want to get business back to 100 percent 
employment. If the Department and states are serious about 
inspiring hope and change in the lives of SNAP recipients, then 
it is high time to utilize the resources associated with SNAP 
employment and training, as well as state-based employment 
readiness services to do just that. These programs must 
emphasize a multi-generational approach. We are long past 
trying and testing--programming.
    As it relates to integrity and the principles of SNAP, many 
facets of quality control have been waived throughout the 
pandemic. As the program shifts to a post-pandemic role, these 
waivers need to expire as written, and states should return to 
normal modes of data collection, just as the Department should 
return to normal modes of analysis.
    Last, and something I believe strongly in, is access to and 
consumption of healthy foods. Diets cannot be improved without 
sufficient access to healthy foods. Employment, including 
military readiness, healthcare costs, and general longevity are 
highly dependent on the foods we consume. So, together with 
improved nutrition educational initiatives, the nutrition 
research funding secured in the Consolidated Appropriations Act 
of 2021, and the existing library of research on healthy 
eating, USDA is positioned to improve the nutrition of millions 
of households.
    So, as we approach the next farm bill, it is time to 
rethink targeted and beneficial healthy eating incentives, and 
more effective nutrition education strategies to help all 
families. I would like to say I am excited about where we go 
from here, and I thank you for your indulgence. I look forward 
to our witnesses' testimony, and Madam Chairwoman, I yield back 
to you.
    The Chairwoman. Thank you so much, Mr. Bacon, for that 
opening statement.
    The chair would request that other Members submit their 
opening statements for the record so witnesses may begin their 
testimony, and to ensure that there is ample time for 
questions.
    [The prepared statement of Mr. Sablan follows:]

 Prepared Statement of Hon. Gregorio Kilili Camacho Sablan, a Delegate 
               in Congress from Northern Mariana Islands
    Thank you, Chairwoman Hayes, Ranking Member Bacon, and the 
Committee for putting together this important hearing on the Future of 
SNAP.
    As everyone on the Committee knows, the Northern Mariana Islands, 
my district is not part of the Supplemental Nutrition Assistance 
Program (SNAP), but instead receives assistance through a block grant, 
NAP. It has been fixed at $12.148 million for a decade, without any 
regard to changes in food costs, natural disasters, and most recently, 
during the COVID-19 pandemic.
    As the Committee and the witnesses understand, this block grant has 
seriously fallen short. I have had to ask for supplemental funding year 
after year, and in the meantime families in the Marianas get removed 
from the program and benefits are cut.
    This hearing today is entitled ``The Future of SNAP: Moving Past 
the Pandemic,'' unfortunately my constituents in the Marianas have been 
left behind, SNAP is a necessary part of moving my district forward out 
of the COVID-19 pandemic and into the future.
    Ms. Davis and Ms. Wilson, thank you so much for telling your 
stories. There are thousands of families in the Marianas struggling 
with food insecurity and hearing from individuals like yourself shows 
me and the rest of the Committee how vital SNAP is for all Americans.

    The Chairwoman. At this time, I will begin to introduce the 
witnesses. I am pleased to welcome such a distinguished panel 
of witnesses for our hearing today. Our witnesses bring to our 
hearing a wide range of experience and expertise, and I thank 
you for joining us.
    Our first witness is Dr. Lauren Bauer. Dr. Bauer is a 
Fellow in Economic Studies at the Brookings Institute. Her 
research focuses on social and safety net policies, including 
on Federal nutrition assistance programs and education. She is 
a member of the New York City Office of Community Schools 
Research Advisory Council and holds a B.A. in history and a 
M.A. and Ph.D. in human development and social policy, with a 
certificate in education sciences, all from Northwestern 
University. Welcome.
    Our next witness today is Ms. Odessa Davis. Ms. Davis is a 
mother, a college student, and a para-educator with Montgomery 
County Public Schools. She recently graduated from Montgomery 
College with a degree in business management, and is also a 
graduate of Le Cordon Bleu College of Culinary Arts in Miami. 
She also volunteers for the Community Action Agency, using her 
culinary skills to prepare food as a volunteer chef. Welcome.
    To introduce our third witness, I am pleased to yield to 
our colleague on the Agriculture Committee, the distinguished 
woman from Missouri, Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Chairwoman Hayes. It is an honor 
to introduce Missouri's own Dr. James Whitford. Dr. Whitford 
has spent more than 2 decades fighting the perils of poverty 
and their impact on our communities. The organization he and 
his wife founded, Watered Gardens, serves both the poor and 
homeless, providing an array of services, including employment 
readiness, education, and relief-type needs. Watered Gardens 
Workshop is a fascinating approach where people in need trade 
their time for services. Dr. Whitford has a personal story that 
drives his work, and believes that charity should be coupled 
with an expectation of productivity. I welcome James to today's 
proceedings, and I look forward to his testimony.
    So, thank you, Chairwoman Hayes. I yield back.
    The Chairwoman. Thank you, Mrs. Hartzler. Thank you for 
your comments.
    Our next witness today is Ms. Rachel Wilson. Ms. Wilson is 
a self-employed business owner in central Florida. She is 
trained as a cosmetologist and works as an independent 
hairdresser. She is also a mother to her three children. 
Welcome.
    Our fifth and final witness today is Dr. Renee Boynton-
Jarrett. Dr. Boynton-Jarrett is a pediatrician and social 
epidemiologist, and the founding Director of the Vital Village 
Community Engagement Network. Her work focuses on the role of 
early life adversity as life course social determinants of 
health. Her current work is developing community-based 
strategies to promote child well-being and reduce child 
maltreatment, using a collective impact approach in three 
Boston neighborhoods.
    Welcome to all of our witnesses today. We will now proceed 
to hearing your testimony. You will each have 5 minutes. The 
timer should be visible to you on your screen and will count 
down to 0, at which point your time has expired.
    Dr. Bauer, please begin when you are ready.

STATEMENT OF LAUREN LOWENSTEIN BAUER, Ph.D., FELLOW IN ECONOMIC 
                STUDIES, THE HAMILTON PROJECT, 
            BROOKINGS INSTITUTION, WASHINGTON, D.C.

    Dr. Bauer. Good afternoon Chairwoman Hayes, Ranking Member 
Bacon, and Members of the Committee. Thank you for the 
opportunity to address you this afternoon. My name is Dr. 
Lauren Bauer, and I am a Fellow in Economic Studies at 
Brookings Institution, where I am affiliated with The Hamilton 
Project. In my testimony today, I will describe the state of 
food insecurity in the U.S., assess how Federal nutrition 
assistance programs have supported families and the economy 
over the past year, and apply evidence toward making 
recommendations on the future of the Supplemental Nutrition 
Assistance Program, or SNAP.
    Food insecurity, especially when experienced by children, 
has been an acute and persistent problem in the U.S. over the 
past year. Congress has taken vitally important action and 
prevented even greater hardship. During the pandemic, 
nationally representative surveys consistently found overall 
rates of household food insecurity above 20 percent, and that 
more than one in three households with children were 
experiencing food insecurity.
    Starting in January 2021, food insecurity rates have 
started to decline, but remain far above pre-COVID levels. In 
the most recently available data from the Census Bureau 
covering April 28 through May 10, 2021, about 16.6 percent of 
households were food-insecure, and about 22 percent of 
households with children were food-insecure. Food insecurity 
among female-headed households and among Black and Hispanic 
families with children remain notably elevated over the 
average.
    Parents will go to great lengths to protect their children 
from experiencing hunger. It is an urgent matter of national 
concern that parents are reporting that it is sometimes or 
often the case that: ``the children in my household were not 
eating enough because we just couldn't afford enough food'' at 
rates far exceeding past precedent by more than ten percent.
    The food insecurity patterns we observe today will not only 
affect well-being and economic security in the short-term, but 
will reverberate for decades to come. Encouragingly, research 
evidence, including from the past year, suggests that providing 
additional nutrition assistance can counteract some of the rise 
in food insecurity.
    SNAP provides insurance protection to those who are 
experiencing poor economic outcomes and supports those who are 
trying to improve their situation by leveraging powerful 
forces, public investment in the private-sector, and choice. 
Evidence shows that SNAP reduces food insecurity, increases 
health and economic security, including economic self-
sufficiency, and that we all benefit from its effects on the 
economy. Bipartisan support for emergency allotments, the SNAP 
maximum benefit increase, and Pandemic EBT, among others, has 
been critical in helping families put food on the table this 
past year.
    Although SNAP is already a highly effective program, there 
are modest but important steps that Congress can take to 
improve it as we look to the future. These reforms include 
automatically increasing benefit levels and ensuring that the 
program expands during a recession, adopting a timely and 
efficient process for waiving or ending SNAP work requirements, 
and adjusting the SNAP benefit formula to increase benefit 
adequacy and support work.
    While the COVID-19 recession is ongoing, SNAP is an 
integral part of the economic recovery. To augment work 
incentives in the SNAP Program rules, Congress could increase 
the earnings disregard, increase the value of the EITC for 
childless adults, and add a basic needs allowance, all of which 
would increase food security among workers, servicemembers, and 
their families.
    Tying in a nationwide work requirement suspension to the 
HHS emergency declaration remains good policy, yet well-
designed studies of SNAP work requirements do not show that 
they increase labor force participation, even during an 
economic expansion. In fact, they penalize workers and those 
who face meaningful barriers to consistent employment. Easing 
administrative burdens and tying a SNAP maximum benefit 
increase to economic indicators that signal a recession has 
started will help our country be better prepared to fight the 
next recession. The value of the SNAP maximum benefit is not 
sufficient, and SNAP purchasing power has decreased even more 
since the onset of the COVID-19 pandemic. To reduce food 
insecurity and improve nutrition, benefit calculations and 
allowable purchases need modernization.
    I believe that ending hunger in America is possible, and 
that it starts with SNAP. Thank you, and I look forward to your 
questions.
    [The prepared statement of Dr. Bauer follows:]

    Prepared Statement of Lauren Lowenstein Bauer, Ph.D., Fellow in 
    Economic Studies, The Hamilton Project, Brookings Institution, 
                            Washington, D.C.
    Chairwoman Hayes, Ranking Member Bacon, and Members of the 
Committee:

    Thank you for the opportunity to address the Committee this 
afternoon.
    My name is Dr. Lauren Lowenstein Bauer, and I am a Fellow in 
Economic Studies at the Brookings Institution where I am affiliated 
with The Hamilton Project. I conduct research on issues of economic and 
public concern, including human capital development and safety net 
programs. One of my areas of expertise is Federal nutrition assistance 
programs, including the Supplemental Nutrition Assistance Program 
(SNAP; formerly known as the Food Stamp Program).
    In my testimony today I will describe the state of food insecurity 
in the United States, assess how Federal nutrition assistance programs 
have supported families and the economy over the past year, and apply 
evidence toward making recommendations on the future of SNAP.
    Food insecurity, especially when experienced by children, has been 
an acute and persistent problem in the United States over the past 
year. Congress took vitally important action centered on enhancing SNAP 
and providing resources to purchase food to families with children, 
which prevented even greater hardship. Although SNAP is already a 
highly effective program, there are modest but important steps that 
Congress can take to improve the program. These reforms include (i) 
automatically increasing benefits levels and ensuring that the program 
expands during a recession, (ii) adopting a timely and efficient 
process for waiving or ending SNAP work requirements, and (iii) 
adjusting the SNAP benefit formula to increase benefit adequacy and 
support work.
Food Insecurity During the COVID-19 pandemic
    Food insecurity increases during economic downturns and tend to 
remain elevated long after the official end to a recession because the 
economic recovery of low-income households typically lags higher-income 
groups. Prior to the COVID-19 pandemic, about 11 percent of households 
were food-insecure and about four percent of households reported very 
low food security in 2019.<SUP>i</SUP>
    Early in the pandemic, nationally representative surveys 
consistently found overall rates of household food insecurity above 20 
percent and that more than one in three households with children were 
experiencing food insecurity. In fact, during the course of 2020, food 
insecurity rates remained elevated, peaking for most groups in December 
2020. These elevated levels are illustrative of how food insecurity has 
been a crisis within the larger crisis of the COVID-19 
pandemic.<SUP>ii</SUP> Starting in January 2021, food insecurity rates 
started to decline but remain far above pre-COVID levels. In the most 
recently available data from the Census Household Pulse Survey, fielded 
from April 28 to May 10, 2021, about 16.6 percent of households were 
food-insecure and about 22 percent of households with children were 
food-insecure.<SUP>iii</SUP>
    Nevertheless, families with children, and specifically single 
mother households, have experienced especially high levels of material 
hardship over the past year. Figure 1 shows the share of adult 
respondents to the Census Household Pulse Survey who reported food 
insecurity at key points over the past year, divided by hunger (very 
low food security) and low food security. As of late March 2021, single 
mothers had a higher rate of food insecurity (almost 35 percent) than 
respondents with children or all households had at any point during the 
pandemic.
Figure 1
Food Insecurity Among Different Types of Families, April 2020, December 
        2020, March 2021
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          Source: Pitts and Schanzenbach 2021 (Census Household Pulse 
        Survey; Current Population Survey Food Security Supplement); 
        correspondence with author.
          Note: Household Pulse Survey weeks 1, 21, and 27 are shown. 
        For additional details, please see the Pitts and Schanzenbach 
        2020.

    Rates of food insecurity and insufficiency (reporting sometimes or 
often not having enough food) also have been particularly elevated 
among Black and Hispanic families with children (figure 2). While rates 
of food insecurity and food insufficiency are substantially lower for 
all groups in May 2021 relative to December 2020, they are still about 
double among Black and Hispanic families with children over white 
families with children.
Figure 2
Food Insecurity and Insufficiency, by Race, December 2020 and May 2021
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          Source: Schanzenbach 2021.
          Note: For additional details on the conversation to food 
        insecurity from the Census Household Pulse, please see the 
        appendix to Bauer, et al., 2020.

    Food insecurity affects the entire household but within food-
insecure households, adults will go to great lengths to protect their 
children from experiencing hunger.<SUP>iv</SUP> Over the past year, 
there is evidence of a substantial increase in the food insecurity of 
children.<SUP>v</SUP> Figure 3 shows the share of parents (all, Black, 
and Hispanic) who responded that it was sometime or often the case that 
in the past week ``the children in my household were not eating enough 
because we just couldn't afford enough food.'' As illustrated in the 
figure below, this marks a significant increase from 2019 annual rates, 
whether food insecurity or very low food security among children 
(dashed lines).
Figure 3
Food Insecurity Among Children, by Race, 2020-2021
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          Source: USDA (2020); Census Household Pulse Survey (2020-21).
          Note: The Census Household Pulse survey asks: ``Please 
        indicate whether the next statement was often true, sometimes 
        true, or never true in the last 7 days for the children living 
        in your household who are under 18 years old: `The children 
        were not eating enough because we just couldn't afford enough 
        food.' ''

    Elevated rates of food insecurity are associated with worse 
contemporaneous health and academic outcomes and indicate that a 
household is facing more general economic challenges; in the long term, 
children's exposure to adverse economic shocks has persistent negative 
health and economic consequences.<SUP>vi</SUP> Therefore, the food 
insecurity patterns we observe today will not only affect well-being 
and economic security in the short-term, but will reverberate for 
decades to come. Encouragingly, research evidence, including from the 
past year, suggests that providing additional nutrition assistance can 
counteract some of the rise in food insecurity.
The Importance of Federal Nutrition Assistance Programs to the Economy
    The goals of safety net programs are to provide insurance 
protection to those who are experiencing poor economic outcomes and to 
support those who are trying to improve their situation. SNAP achieves 
these goals by leveraging powerful forces--public investment, the 
private-sector, and choice--to ensure that eligible participants and 
families have food when they have no or low income. Evidence shows that 
SNAP reduces food insecurity, increases health and economic security 
among families in the short term, economic self-sufficiency in the long 
term, and that we all benefit from its effect on the 
economy.<SUP>viii</SUP>
    Food insecurity and economic hardship typically increase in 
recessions and decrease in economic expansions. The safety net plays an 
important role in mitigating the negative effects in recessions, partly 
by automatically expanding during economic downturns as income-based 
eligibility for safety net programs increases, and partly through 
Congressional actions that increase the generosity of and eligibility 
for safety net programs.<SUP>vii</SUP>
    Congress has a track record of taking action to preserve and 
improve SNAP's ability to turn the tide on economic downturns. During 
the Great Recession, the statutory increase to the SNAP maximum benefit 
reduced food insecurity and improved economic conditions within the 
household, keeping a million people out of poverty in 
2010.<SUP>viii</SUP> Studies show that when SNAP payments increase to a 
local area in response to an economic downturn, they serve as stimulus; 
for example, every $1.00 in new SNAP benefits spurred $1.74 in economic 
activity in the first quarter of 2009, and spurred $1.22 even as late 
as the first quarter of 2015. Indeed, additional SNAP benefits had the 
highest multiplier of any of the policies adopted during the Great 
Recession.<SUP>ix</SUP>
COVID-19 Recession and Congressional Response
    It is difficult to overstate the extent of economic disruption 
caused by the COVID-19 pandemic. The onset of the COVID-19 recession 
was swifter and the nadir deeper than the Great Recession.<SUP>x</SUP> 
Figure 4 shows the percent change in employment relative to business 
cycle peaks. Job losses resulting from COVID-19 wiped out 113 straight 
months of job growth, with total non-farm employment falling by 20.5 
million jobs in April 2020.<SUP>xi</SUP> Based on the most recent 
employment report, employment is still more than five percent below its 
February 2020 level. The COVID-19 pandemic and associated economic 
shutdown affected all workers, but the impact was harshest for women, 
non-white workers, lower-wage earners, and those with less 
education.<SUP>xii</SUP>
Figure 4
Percent Change in Employment Relative to Business Cycle Peak, by 
        Business Cycle, 1980-2020
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          Source: U.S. Bureau of Labor Statistics (BLIS) 1990-2020; 
        National Bureau of Economic Research (NBER) n.d.; authors' 
        calculations.
          Note: Figure shows the percent change in total non-farm 
        employment from the peak of a business cycle until employment 
        returns to the level of the previous business cycle peak.

    Deteriorating economic conditions caused by the COVID-19 pandemic 
have made it even more difficult for many low-income households, 
including those with children, to afford groceries. Families responded 
to these challenges by relying on community resources and safety net 
programs.
    Food banks have reported consistent increases in demand throughout 
2020, with more people availing themselves of food pantries or 
receiving other forms of direct food assistance from a community or 
religious organization than at any point since at least 
2014.<SUP>xiii</SUP> Reported use of charitable food increased 50 
percent between December 2019 and December 2020: in December 2020, 20 
percent of adults reported that in the past year their household had 
received charitable food.<SUP>xiv</SUP> Charitable food assistance has 
helped families during the COVID-19 recession, but these alternative 
sources of food are not adequate to meet demand.<SUP>xv</SUP>
    The COVID-19 pandemic and its associated recession have led, both 
automatically and through Congressional and Executive action, to an 
expansion in eligibility for and generosity of nutrition assistance 
programs in the United States. Through SNAP, additional resources for 
existing programs including SNAP, WIC, child nutrition programs 
(National School Lunch Program, School Breakfast Program, and Summer 
Food Service Program), and new programs like Pandemic EBT and Farmers 
to Families boxes, Congress has supported millions of eligible 
households with vouchers to purchase food as well as commodities and 
meals.
    In addition to taking action to increase SNAP enrollment during the 
course of the past year, Congress authorized two pieces of legislation 
that increased the value of SNAP benefits: SNAP Emergency Allotments 
(EAs; beginning April 2020) and a 15 percent SNAP maximum benefit 
increase (beginning January 2021). The maximum benefit increase 
affected the benefit generosity for all participating households; until 
last month, only households not receiving the SNAP maximum benefit were 
eligible for EAs. In combination, these additional resources prevented 
greater food hardship than otherwise would have been experienced over 
the course of the past year and allowed families to use their non-SNAP 
financial resources on other necessities.
    Because school meal programs are integral to addressing child food 
insecurity in the United States, many entities, including Congress, the 
USDA, states, and schools, took action in response to COVID-19-related 
school closures to reconstitute the food safety net for children. My 
colleagues and I (Abigail Pitts, Krista Ruffini, and Diane 
Schanzenbach) evaluated the impact of one of the planks: the initial 
rollout of Pandemic EBT during the summer of 2020.<SUP>xvi</SUP> As 
shown in figure 5, during the first week after Pandemic EBT benefits 
are paid, the rate of children not getting enough to eat declines by 
about 8 percentage points (30 percent). Evidence of the effect of 
Pandemic EBT during its rollout in the summer of 2020 is consistent 
with prior evidence on the effect of Summer EBT.<SUP>xvii</SUP>
Figure 5
Effect of Pandemic on Measures of Food Hardship
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          Source: Census Household Pulse Survey 2020; Current 
        Population Survey Food Security Supplement 2008, 2018; authors' 
        calculations.
          Note: Hollow bars indicate results that are not statistically 
        significant at the ten percent level. The striped bar indicates 
        results are significant at the ten percent level. Solid bars 
        indicate [] results are significant at the one or five percent 
        level. Please refer to the technical appendix for additional 
        details.

    While the COVID-19 recession is ongoing, SNAP is an integral part 
of the economic recovery. SNAP is designed to support work and to 
ensure food consumption during spells of unemployment or when a person 
is unable to work or work consistently. SNAP addresses work 
disincentives through an earnings disregard of 20 percent and a gradual 
benefit reduction schedule. This means that when a person moves from 
being a labor force nonparticipant to working while on SNAP, total 
household resources will increase; as a beneficiary's earnings approach 
the eligibility threshold, total household resources continue to 
increase.<SUP>xviii</SUP>
    Work requirements in SNAP are intended to increase labor force 
participation and hours worked among program participants. However, 
evidence suggest that SNAP work requirements do not increase employment 
and penalize workers who are eligible for SNAP. During the Food Stamp 
Program's introduction in the 1960s and 1970s, reductions in employment 
and hours worked were observed, particularly among female-headed 
households.<SUP>xix</SUP> But in general and in the modern era, there 
is little evidence that SNAP receipt itself depresses work 
effort.<SUP>xx</SUP>
    Work requirements make SNAP a less-effective automatic stabilizer 
by preventing newly eligible people from maintaining access to the 
program during economic downturns.<SUP>xxi</SUP> The law provides for a 
safety valve--work requirement waivers--that allows states to apply for 
exemptions where there is evidence of a lack of sufficient jobs. These 
standing criteria have not substituted for Congressional action; during 
both the Great Recession and the COVID-19 Recession, Congress acted to 
suspend SNAP work requirements nationwide.
Reforms to Improve Countercyclicality in SNAP
    Prior to the onset of the COVID-19 pandemic, Hilary Hoynes 
(University of California--Berkeley) and Diane Schanzenbach 
(Northwestern University) proposed policies to leverage SNAP to counter 
economic downturns. In their piece, they argue for tying a 15 percent 
maximum benefit increase and a nationwide work requirement suspension 
to economic indicators that signal a recession has 
started.<SUP>xxii</SUP> This proposal provides a base for reforms to 
improve the countercyclicality of SNAP, in addition to codifying some 
of the measures that Congress took over the past year.
    In response to pandemic conditions, USDA approved state waivers to 
extend certification periods, reduce paperwork and interview burdens, 
and allow for telephonic signatures--all of which made it easier for 
eligible individuals to enroll in and stay on SNAP.<SUP>xxiii</SUP> 
While easing administrative barriers should be a part of reform more 
generally, it is particularly important to put in place mechanisms to 
do so automatically when the economy is contracting and the rolls of 
means-tested programs should expand. In December 2020, income from 
Unemployment Insurance became newly disregarded as part of the SNAP 
benefit calculation. Given evidence that SNAP participation increases 
when households lose jobs and income and decreases as participants earn 
more, extending this provision would provide greater public insurance 
to workers.<SUP>xxiv</SUP>
Reforms to Promote Work in SNAP
    To augment work incentives in the SNAP program rules, Congress 
could increase the earnings disregard. This would provide a larger 
incentive to program participants to work and earn more. A Hamilton 
Project proposal from Diane Schanzenbach (Northwestern University) 
recommends increasing the earnings disregard to 30 
percent.<SUP>xxv</SUP> Similarly, military families should not be 
prevented from accessing SNAP because of the ways in which their work 
is compensated; a basic needs allowance is a sensible solution to 
increase food security among servicemembers and their families.
    Another way to increase work incentives in SNAP is to increase the 
value of the Earned Income Tax Credit (EITC) for childless adults. 
Prior to the American Rescue Plan (ARP), the EITC for households with 
no children was about $540. The ARP increased the value of the EITC for 
this group to about $1,500 and expanded who qualified. The EITC is pro-
work on its own and would make SNAP more pro-work because EITC is not 
counted in the SNAP benefit formula.
    SNAP's fundamental role as an automatic stabilizer and safety net 
should guide reform. I do not believe that there is evidence to justify 
time limits on SNAP program participation, in good economic times or 
ill; SNAP work requirements should be eliminated. In the event of their 
continuation, work requirement waivers should be tied to additional 
responsive economic triggers and SNAP Employment and Training slots 
should be more widely available.
Addressing Food Insecurity through SNAP
    The value of SNAP benefits that a household receives are the 
function of three factors: how much USDA determines it minimally costs 
to achieve a healthy diet, i.e., The Thrifty Food Plan (the Thrifty), 
how much money a household has available to purchase groceries, and 
what share of that available money does the government expect a 
household to spend on groceries. Because households who have no 
resources to contribute to the purchase of groceries receive the 
maximum benefit, the purchasing power of the Thrifty should meet their 
food needs.
    The value of the SNAP maximum benefit is not sufficient to provide 
adequate nutrition assistance for eligible households. The value of the 
Thrifty varies widely across different locations; in no market area 
does SNAP purchasing power cover more than 80 percent of the price of 
the Thrifty and in high cost areas, it covers less than 65 percent 
(figure 6).<SUP>xxvi</SUP> But even in more local areas with lower 
relative food costs to others, the Thrifty is not adequate: in 2018, 
the SNAP maximum benefit per meal did not cover the cost of a Thrifty-
tied meal in 99 percent of counties in the U.S.<SUP>xxvii</SUP> In 
places with higher food prices, rates of household, adult, and child 
food insecurity are higher.<SUP>xxviii</SUP>
Figure 6
SNAP Purchasing Power by Market Group, 2020
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          Source: Bronchetti, Christensen, and Hoynes 2018.

    Furthermore, evidence suggests that SNAP purchasing power has 
decreased even more since the onset of the COVID-19 pandemic. Higher 
food prices, increasing demand for food to be prepared at home and 
shelf-stable nutritious foods, competition among retailers and food 
banks, reduced low-price food given demand, day-over-day disruptions 
that result in empty shelves, and restricted ability to comparison shop 
all contribute to lower SNAP purchasing power and exacerbate even 
further the inadequacy of the maximum SNAP benefit.<SUP>xxix</SUP> This 
contributes to rising food insecurity and household financial 
instability, which have detrimental near- and long-term effects.
Reforms to Address SNAP Benefit Adequacy
    In order to increase the adequacy of SNAP benefits for 
participating households to reduce food insecurity and improve 
nutrition, benefit calculations and allowable purchases need 
modernization. For The Hamilton Project, James Ziliak (University of 
Kentucky) summarized the evidence and proposed mechanisms for updating 
the calculation of the Thrifty Food Plan, focusing on accounting for 
the cost of time.<SUP>xxx</SUP> There are additional levers throughout 
the benefit formula and through the calculation of the Thrifty itself 
that would more closely align benefits with the needs of families. 
While additional benefits alone spur the purchase of healthy foods, 
direct incentives to purchase fruits and vegetables and allowing for 
the purchase of certain low-cost, high-value hot items (like rotisserie 
chickens) would reduce food insecurity and improve diet 
quality.<SUP>xxxi</SUP>
    The fact that many who receive benefits remain food-insecure does 
not imply that the programs are ineffective, as families most in need 
of food assistance are most likely to enroll in nutrition programs. I 
believe that that ending hunger in America is possible--and it starts 
with increasing SNAP purchasing power. While the Thrifty was previously 
recalculated infrequently and on an ad hoc basis, Congress now mandates 
regular updates to the Thrifty Food Plan: every 5 years starting in 
2022. I understand that USDA is currently in the process of responding 
to this Congressional mandate.
    To reduce food insecurity and support America's economic recovery, 
sensible reforms to SNAP include (i) automatically increasing benefits 
levels and ensuring that the program expands during a recession, (ii) 
adopting a timely and efficient process for waiving or ending SNAP work 
requirements, and (iii) adjusting the SNAP benefit formula to increase 
benefit adequacy and support work.

                                Endnotes
 
    i Coleman-Jensen, Alisha, Matthew Rabbitt, Christian Gregory, and
 Anita Singh. 2020. ``Household Food Security in the United States in
 2019.'' Economic Research Service, U.S. Department of Agriculture,
 Washington, D.C.
    ii Waxman, Elaine. 2020. ``Many Families Are Struggling to Put Food
 on the Table. We Have to Do More.'' Urban Wire (blog), Urban Institute,
 Washington, D.C.; Bauer, Lauren. 2020. ``The COVID-19 Crisis Has
 Already Left Too Many Children Hungry in America.'' Blog. The Hamilton
 Project, Brookings Institution, Washington, D.C.; Schanzenbach, Diane,
 and Abigail Pitts. 2020. ``Estimates of Food Insecurity During the
 COVID-19 Crisis.'' Institute for Policy Research Rapid Research Report,
 Northwestern University, Evanston, IL.; Schanzenbach, Diane and Abigail
 Pitts. 2020. ``Food Insecurity in the Census Household Pulse Survey
 Data Tables.'' Institute for Policy Research Rapid Research Report,
 Northwestern University, Evanston, IL. When comparing similar
 populations across these (overall, families with children, and mothers
 of young children) response rates to food insecurity questions were
 statistically indistinguishable.
    iii The Census Household Pulse Survey (HPS) asks respondents
 whether, in the past 7 days, its household was able to consume the
 quantity and types of food it wanted; was able to consume enough, but
 not of the type of food it wanted; sometimes was not able to eat
 enough; or often was not able to eat enough. This question is identical
 to that asked in the Current Population Food Security Supplement (CPS-
 FSS, December supplement). Since the HPS does not ask the full battery
 of food security questions, Schanzenbach and Pitts map CPS-FSS food
 insufficiency and food insecurity to the HPS food insufficiency
 question, following the approach in Bitler, et al. (2020). They take
 the CPS-FSS from 2015 through 2019 and calculate the share of food-
 insecure households (overall, with children, single mothers) in each
 food insufficiency category by state, then multiply these rates for the
 HPS responses in order to obtain a state-by-week level measure of food
 insecurity. As shown in Bitler, et al. (2020), 92 percent of the
 increase in household food insecurity from pre-COVID to transformed
 food insecurity post-COVID can be explained by an increase in
 unemployed, while only 65 percent of the increase in household food
 insecurity among households with children can be similarly explained.
 Their work both validates the technique of transforming the HPS
 questions into the food insecurity concept and affirms that the loss of
 school meals and disproportionate loss of employment among women
 explain a higher share of elevated food insecurity among these
 families. Bitler, Marianne P., Hilary W. Hoynes, and Diane Whitmore
 Schanzenbach. 2020. ``The Social Safety Net in the Wake of COVID-19.''
 Brookings Papers on Economic Activity, Brookings Institution,
 Washington, D.C.; Schanzenbach, Diane, and Abigail Pitts. 2020. ``How
 Much Has Food Insecurity Risen? Evidence from the Census Household
 Pulse Survey.'' Institute for Policy Rapid Research Report,
 Northwestern University, Evanston, IL.
    iv The USDA defines a household as food-insecure if it reports that
 it had difficulty at some time during the year providing enough food
 for all of its members due to a lack of resources. This broad measure
 of food insecurity includes households that report a reduction in the
 quality, variety, and desirability of diet but little or no reduction
 in food intake, as well as households that experience very low food
 security--that is, who report disruptions in eating patterns and
 reductions in food intake.
    v Bauer, Lauren. 2020. ``The COVID-19 Crisis Has Already Left Too
 Many Children Hungry in America.'' The Hamilton Project, Brookings
 Institution, Washington, D.C.; Bauer, Lauren. 2020. ``Hungry at
 Thanksgiving: A Fall 2020 update on food insecurity in the U.S.'' The
 Hamilton Project, The Brookings Institution, Washington, D.C.
    vi Alaimo, Katherine, Christine M. Olson, and Edward A. Frongillo.
 2001. ``Food insufficiency and American school-aged children's
 cognitive, academic, and psychosocial development.'' Pediatrics 108,
 no. 1: 44-53; Case, Anne, Angela Fertig, and Christina Paxson. 2005.
 ``The lasting impact of childhood health and circumstance.'' Journal of
 Health Economics 24, no. 2: 365-389; Currie, Janet. 2009. ``Healthy,
 wealthy, and wise: Socioeconomic status, poor health in childhood, and
 human capital development.'' Journal of Economic Literature, 47, no. 1:
 87-122; Jyoti, Diana F., Edward A. Frongillo, and Sonya J. Jones. 2005.
 ``Food insecurity affects school children's academic performance,
 weight gain, and social skills.'' The Journal of Nutrition 135, no. 12:
 2831-2839; Casey, Patrick H., Kitty L. Szeto, James M. Robbins, Janice
 E. Stuff, Carol Connell, Jeffery M. Gossett, and Pippa M. Simpson.
 2005. ``Child Health-Related Quality of Life and Household Food
 Security.'' Archives of Pediatrics & Adolescent Medicine 159 (1): 51-
 56; Mangini, Lauren D., Mark D. Hayward, Yong Quan Dong, and Michele R.
 Forman. 2015. ``Household Food Insecurity Is Associated with Childhood
 Asthma.'' Journal of Nutrition 145 (12): 2756-64; Kirkpatrick, Sharon
 I., Lynn McIntyre, and Melissa L. Potestio. 2010. ``Child Hunger and
 Long-term Adverse Consequences for Health.'' Archives Pediatric
 Adolescent Medicine 164, no. 8: 754-762; Fram, Maryah Stella, Lorrene
 D. Ritchie, Nila Rosen, and Edward A. Frongillo. 2015. ``Child
 Experience of Food Insecurity Is Associated with Child Diet and
 Physical Activity.'' Journal of Nutrition 145(3): 499-504; Cook, John
 T., Deborah A. Frank, Carol Berkowitz, Maureen M. Black, Patrick H.
 Casey, Diana B. Cutts, Alan F. Meyers, Nieves Zaldivar, Anne Skalicky,
 Suzette Levenson, Tim Heeren, and Mark Nord. 2004. ``Food Insecurity Is
 Associated with Adverse Health Outcomes among Human Infants and
 Toddlers.'' The Journal of Nutrition 134(6): 1432-1438; Skalicky, Anne,
 Alan F. Meyers, William G. Adams, Zhaoyan Yang, John T. Cook, and
 Deborah A. Frank. 2006. ``Child Food Insecurity and Iron Deficiency
 Anemia in Low-Income Infants and Toddlers in the United States.''
 Maternal and Child Health Journal 10(2): 177-185; Eicher-Miller,
 Heather A., April C. Mason, Connie M. Weaver, George P. McCabe, Carol
 J.
  Boushey. 2009. ``Food insecurity is associated with iron deficiency
 anemia in U.S. adolescents.'' The American Journal of Clinical
 Nutrition 90(5): 1358-1371; Howard, Larry L. 2011. ``Does Food
 Insecurity at Home Affect Non-Cognitive Performance at School? A
 Longitudinal Analysis Of Elementary Student Classroom Behavior.''
 Economics of Education Review 30 (1) (2): 157-76; Huang, J, Oshima, KM
 & Kim, Y. 2010. ``Does food insecurity affect parental characteristics
 and child behaviors? Testing mediation effects.'' Social Service Review
 84(3): 381-401; Whitaker, Robert C., Shannon M. Phillips, and Sean M.
 Orzol. 2006. ``Food Insecurity and the Risks of Depression and Anxiety
 in Mothers and Behavior Problems in Their Preschool-Aged Children.''
 Pediatrics 118 (3): e859-e868; Hoynes, Hilary W., and Diane Whitmore
 Schanzenbach. 2018. Safety net investments in children. No. w24594.
 National Bureau of Economic Research.
    vii Boushey, Heather, Jay Shambaugh, and Ryan Nunn. Recession Ready.
 Washington, D.C.: The Brookings Press.
    viii See Hoynes and Schanzenbach 2018 for a review.
    ix Blinder, Alan S., and Mark Zandi. 2015. ``The Financial Crisis:
 Lessons for the Next One.'' Center on Budget and Policy Priorities,
 Washington, D.C.; Schanzenbach, Diane Whitmore, Lauren Bauer, and Greg
 Nantz. 2016. ``Twelve Facts about Food Insecurity and SNAP.'' Economic
 Facts, The Hamilton Project, Washington, D.C.
    x Bauer, Lauren, Kristen Broady, Wendy Edelberg, and Jimmy
 O'Donnell. 2020. ``Ten facts about COVID-19 and the U.S. economy.''
 Economic Facts, The Hamilton Project, Washington, D.C.
    xi Bureau of Labor Statistics (BLS). 1980-2020. ``Current Population
 Survey.'' Bureau of Labor Statistics, U.S. Department of Labor,
 Washington, D.C. Retrieved From IPUMS.
    xii Stevenson, Betsey. 2020. ``The Initial Impact of COVID-19 on
 Labor Market Outcomes across Groups and the Potential for Permanent
 Scarring.'' The Hamilton Project, Brookings Institution, Washington,
 D.C.
    xiii Bitler, Marianne P., Hilary W. Hoynes, and Diane Whitmore
 Schanzenbach. 2020. ``The Social Safety Net in the Wake of COVID-19.''
 Working Paper 27796, National Bureau of Economic Research, Cambridge,
 MA; Feeding America. 2020. ``Nine months later, food banks continue
 responding to rising need for help.''
    xiv Waxman, Elaine, Poonam Gupta, and Dulce Gonzalez. 2021.
 ``Charitable food use increased nearly 50 percent from 2019 to 2020.''
 Urban Institute, Washington, D.C.
    xv Friedersdorf, Conor. 2020. ``Food Banks Can't Go On Like This.''
 The Atlantic, May 6.
    xvi Bauer, Lauren, Abigail Pitts, Krista Ruffini, and Diane Whitmore
 Schanzenbach. 2020. ``The effect of Pandemic EBT on measures of food
 hardship.'' Brookings Institution, Washington, D.C.
    xvii Collins, Ann M., Ronette Briefel, Jacob Alex Klerman, Anne
 Wolf, Gretchen Rowe, Ayesha Enver, Christopher W. Logan, Syeda Fatima,
 Marina Komarovsky, Julia Lyskawa, and Stephen Bell. 2014. ``Summer
 Electronic Benefits Transfer for Children (SEBTC) Demonstration: 2013
 Final Report.'' Nutrition Assistance Program Report, Food and Nutrition
 Service, Office of Policy Support, U.S. Department of Agriculture,
 Washington, D.C.
    xviii Wolkomir, Elizabeth, and Lexin Cai. 2018. ``The Supplemental
 Nutrition Assistance Program Includes Earnings Incentives.'' Center on
 Budget and Policy Priorities, Washington, D.C.
    xix Hoynes, Hilary Williamson, and Diane Whitmore Schanzenbach.
 2012. ``Work incentives and the food stamp program.'' Journal of Public
 Economics 96, no. 1-2: 151-162.
    xx Fraker, T. and Moffitt, R. 1988. The effect of food stamps on
 labor supply: A bivariate selection model. Journal of Public Economics,
 35(1), pp. 25-56; Gray, Colin, Adam Leive, Elena Prager, Kelsey
 Pukelis, and Mary Zaki. 2020. ``Employed in a SNAP? The Impact of Work
 Requirements on Program Participation and Labor Supply.''; Han,
 Jeehoon. 2020. ``The impact of SNAP work requirements on labor
 supply.'' Available at SSRN 3296402; Harris, Timothy F. 2021. ``Do SNAP
 Work Requirements Work?'' Economic Inquiry 59, no. 1: 72-94.; Hoynes,
 Hilary Williamson, and Diane Whitmore Schanzenbach. 2012. ``Work
 incentives and the food stamp program.'' Journal of Public Economics
 96, no. 1-2: 151-162; Ku, Leighton, Erin Brantley, and Drishti Pillai.
 2019. ``The effects of SNAP work requirements in reducing participation
 and benefits from 2013 to 2017.'' American Journal of Public Health
 109, no. 10: 1446-1451; Bauer, Lauren, Diane Whitmore Schanzenbach, and
 Jay Shambaugh. 2018. ``Work requirements and safety net programs.'' The
 Hamilton Project, The Brookings Institution, Washington, D.C.; Bauer,
 Lauren. 2018. ``Workers could lose SNAP benefits under Trump's proposed
 rule.'' Upfront Blog, The Brookings Institution, Washington, D.C.
    xxi Ganong, Peter, and Jeffrey B. Liebman. 2018. ``The decline,
 rebound, and further rise in SNAP enrollment: Disentangling business
 cycle fluctuations and policy changes.'' American Economic Journal:
 Economic Policy 10, no. 4: 153-76; Harris, Timothy F. 2021. ``Do SNAP
 Work Requirements Work?'' Economic Inquiry 59, no. 1: 72-94.; Ziliak,
 James P., Craig Gundersen, and David N. Figlio. 2003. ``Food stamp
 caseloads over the business cycle.'' Southern Economic Journal: 903-
 919.
    xxii Hoynes, Hilary W. and Diane Whitmore Schanzenbach. 2019.
 ``Strengthening SNAP as an automatic stabilizer.'' Boushey, Heather,
 Jay Shambaugh, and Ryan Nunn. Recession Ready. Washington, D.C.: The
 Brookings Press.
    xxiii U.S. Department of Agriculture. 2021. ``SNAP: COVID-19 waivers
 by state.''
    xxiv East, Chloe N., and David Simon. 2020. How Well Insured are Job
 Losers? Efficacy of the Public Safety Net. No. w28218. National Bureau
 of Economic Research, Cambridge, MA.
    xxv Schanzenbach, Diane Whitmore. 2013. ``Strengthening SNAP for a
 more food-secure, healthy America.'' The Hamilton Project, The
 Brookings Institution, Washington, D.C.
    xxvi Todd, J.E. and Ephraim S. Leibtag. 2010. New Database Shows
 Substantial Geographic Food Price Variation (No. 1490-2016-127275, pp.
 52-53); Hoynes, Hilary and James Ziliak. 2018. ``Increasing SNAP
 purchasing power reduces food insecurity and improves child outcomes.''
 The Hamilton Project, The Brookings Institution, Washington, D.C.
    xxvii Waxman, E., Craig Gundersen, and Megan Thompson. 2018. ``How
 far do SNAP benefits fall short of covering the cost of a meal.'' Urban
 Institute. Washington, D.C.
    xxviii Gregory, C.A. and Alisha Coleman-Jensen. 2013. ``Do high food
 prices increase food insecurity in the United States?.'' Applied
 Economic Perspectives and Policy, 35(4), pp. 679-707.
    xxix Bureau of Labor Statistics. April 10. ``Consumer Price Index
 Summary.'' Dzhanova, Yelena. 2020. ``Food banks are closing and losing
 their workforce because of the coronavirus.'' CNBC, April 28; Teitz,
 Liz. 2020. ``CT food pantries struggling to stock shelves as donations
 dwindle.'' The Middletown Press, May 5; Haigh, Susan and Dave Collins.
 2020. ``Food aid groups try to outbid others; state seeks a solution.''
 Associated Press, May 4; Sun, Deedee. 2020. ``WA food banks in
 desperate need of help as demand keeps rising.'' KIRO 7 News, April 30;
 Masunaga, Samantha. 2020. ``Why are eggs getting so expensive? Blame
 coronavirus demand.'' Los Angeles Times, April 8; Odzer, Ari. 2020.
 ``Prices of Basic Foods Soar Due to Coronavirus.'' NBC 6 South Florida,
 April 8; Hall, Kevin G. and Carlos Frias. 2020. ``Food prices are going
 up. Because of coronavirus, experts can't say by how much.'' McClatchy,
 April 7; Sousa, Agnieszka de, Ruth Olurounbi, and Pratik Parija. 2020.
 ``Key Food Prices Are Surging After Virus Upends Supply Chains.''
 Bloomberg, April 6; Kang, Jaewon and Jacob Bunge. 2020. ``For Grocers,
 Eggs Are Getting More Expensive Amid Coronavirus.'' Wall Street
 Journal, April 6; Kelley, Alexandra. 2020. ``Prices on some food items
 are surging during coronavirus pandemic.'' The Hill, March 31;
 Bottemiller Evich, Helena. 2020. ``USDA let millions of pounds of food
 rot while food-bank demand soared.'' Politico, April 26; Reiley, Laura.
 2020. ``Full fields, empty fridges.'' The Washington Post, April 23;
 Clapp, Jennifer. 2020. ``Spoiled Milk, Rotten Vegetables and a Very
 Broken Food System.'' The New York Times, May 8; Garcia, Tonya. 2020.
 ``Grocery prices are rising as eat-at-home demand soars during the
 coronavirus pandemic.'' MarketWatch, April 13; Prosser, Faye. 2020.
 ``Grocery prices increasing significantly on certain items during
 pandemic.'' WRAL News, March 31.
    xxx Ziliak, James P. 2016. ``Modernizing SNAP benefits.'' The
 Hamilton Project, The Brookings Institution, Washington, D.C.
    xxxi Anderson, Patricia and Kristin Butcher. 2016. ``The
 Relationships Among SNAP Benefits, Grocery Spending, Diet Quality, and
 the Adequacy of Low-Income Families' Resources.'' Center on Budget and
 Policy Priorities, Washington, D.C.
 


    The Chairwoman. Thank you so much, Dr. Bauer.
    Our next witness, Ms. Davis, please begin when you are 
ready with your testimony.

        STATEMENT OF ODESSA DAVIS, WASHINGTON, D.C.; ON 
      BEHALF OF NO KID HUNGRY CAMPAIGN, SHARE OUR STRENGTH

    Ms. Davis. Good afternoon. Thank you for providing me with 
the opportunity to be here today. My name is Odessa Davis. I am 
a mom, a college student, a hunger advocate with Share Our 
Strength and Manna Food Center. I am here to speak on the 
importance of nutrition programs like SNAP and school meals.
    Before the pandemic, my dream was to become a chef. I got 
my associate's degree at Le Cordon Bleu, Miami. During that 
time, I had a beautiful baby boy and became a single mom. I had 
to work minimum wage and I needed government assistance. I had 
to put my pride to the side to get the assistance that I 
needed. I got SNAP, which helped me pay my bills and decrease 
my stress. My son received Medicaid and free breakfast and 
lunch at school. This helped my son stay focused on his 
schoolwork.
    I wanted a better life for my son, so I updated my dream to 
become a multi-business owner, including a restaurant. I 
started working for Montgomery County Public Schools as a 
special ed para-educator. Doing that, I updated my SNAP 
information, which means that by working hard, my SNAP 
decreased. Later, my SNAP was cut-off and I was on the benefit 
cliff. Even though my job was 10 months, I had to work four 
jobs. My son ended up getting free breakfast and reduced lunch.
    I went back to school to get my associate's degree in 
business management, thanks to my support system from 
scholarships, family, friends, and coworkers. I wouldn't have 
done it without them. A lot of people do not have that support. 
During school, I met other moms in the same situation. I 
started a support group called Back on Track. Fifty percent of 
my members graduated.
    During COVID, it became more stressful. Three of my jobs 
were closed because of COVID. I had to use my savings and I was 
denied unemployment because my 10 month job was considered a 
full-time job, even though I don't get paid during summertime, 
winter break, spring break, or professional days.
    But there was a light at the end of the tunnel. I did 
receive the P-EBT card, and that helped me be able to pay for 
nutritious foods such as meat and veggies. I also received food 
from the food pantry, and I started volunteering to cook food 
for my friends and family that were not qualified for SNAP. So, 
when they got food from food pantries, I made it for them 
because they can't cook.
    I did graduate during the pandemic, May 2020, from 
Montgomery College and got my associate's degree in business 
management with honors.
    As you can see, nutrition programs such as SNAP and school 
meals are really helpful, and decrease our stress to not have 
to worry about food, and be able to pay for our bills.
    Thank you.
    [The prepared statement of Ms. Davis follows:]

 Prepared Statement of Odessa Davis, Washington, D.C.; on Behalf of No 
                Kid Hungry Campaign, Share our Strength
    Chairwoman Hayes, Ranking Member Bacon, and Members of the 
Committee, thank you for convening this important conversation and for 
providing me with the opportunity to appear before you today. My name 
is Odessa Davis and I am a mom, a college student, special education 
para-educator and hunger advocate with Share Our Strength and the Manna 
Food Center in Montgomery County, Maryland.
    I am so glad this hearing is focused on the challenges women face 
in trying to make ends meet and put food on the table for their 
families. As you work to improve access to important nutrition programs 
like SNAP and school meals, I'd like to share my story to help you 
understand how important the investments you make in these vital 
programs are to improving the lives of families like mine in every 
community around the country.
    I have always believed in the importance of working hard to achieve 
your dreams. After high school, I graduated from Le Cordon Bleu College 
of Culinary Arts in Miami. I then returned to Maryland with my son to 
pursue a degree in Business Management at Montgomery College. With help 
from scholarships and a supportive family and friend network, I 
recently earned my Associates Degree, graduating with honors! This 
fall, I will be starting at the UMD Global Campus.
    To make ends meet during school, I worked as many as four jobs, 
including as a special education para-educator with Montgomery County 
Public Schools. But even before the pandemic, it was hard to make ends 
meet. My job with the school system only pays when school is in 
session, meaning there is no income during the summer months, over 
winter and spring breaks, or on other days when the schools are closed. 
So, I was also working as a contractor for the school's sports league 
and at a summer job with Montgomery County Recreation Therapeutics--
both of which were eliminated due to COVID-19.
    Prior to the pandemic, my son and I were financially limited, and, 
even watching every penny, there never seemed to be enough to go 
around. There were so many months when I had to make tough choices. How 
was I going to buy enough food and pay the light bill? Put gas in the 
car or get groceries? These are the questions that face so many 
families like mine and the financial strain got even tighter once COVID 
hit.
    These challenges and difficult decisions don't just affect me, I 
also have my 11 year old son to think about. Many of you here today are 
parents, so you understand that, as a mom, I want to build a strong, 
healthy and successful life for him. I want him to get the food he 
needs--every single day--so he can focus and learn, so he can stay 
healthy and happy.
    Programs like SNAP and school meals made it possible for me to keep 
food on the table. But we need to make sure these programs work 
together and work effectively. Strengthening all of the Federal 
nutrition programs is essential because they work together to reach 
families with kids of all ages where they live and learn.
    Before the pandemic, my son participated in the free and reduced-
price meal program at school, which was a huge relief--knowing he was 
getting the nutrition he needed to focus and learn. For a while, we 
were also receiving support from SNAP each month, but we lost those 
benefits once my earnings increased just over the threshold for the two 
of us. Once you factor in rent, the electric bill, gas for the car, 
water bill, and all the things that seem to pop up like medicine, car 
repairs, replacing a pair of shoes my son grew out of, there just isn't 
much left for food.
    Then the pandemic hit and times got really tough for us. My jobs 
with school sports and the Parks & Rec department were canceled due to 
new safety measures. It then took me nearly a year to get unemployment 
benefits--our state's unemployment system is outdated and makes it more 
complicated to show income loss with multiple low-wage jobs.
    And not only did I lose income, when schools closed, my son also 
lost access to the school meals that had been such a vital source of 
nutrition during the school year. While his school still offered meals, 
they were only distributed in the middle of the day, while he was in 
virtual school. I tried to pick them up when I could, but our schedules 
made it really hard to ensure that he was those nutritious meals on a 
consistent basis.
    When Pandemic EBT rolled out, it was a life saver. This benefit put 
$5 a day onto a grocery benefit card so I could buy more of the food my 
son needed, when he needed it. P-EBT really helped me put food on the 
table during the height of the pandemic, but, when that benefit ended 
in November, things got really hard. I ran through the small savings 
that I had worked so hard to build, and we, like so many other 
Americans, relied on food pantries to make sure we had enough to eat.
    The increased struggle to make ends meet and provide for our small 
family due to COVID-19 is not unique, nor are the challenges that we 
faced before the pandemic. I am talking to you today, but I know dozens 
of women, just like me, who have their own stories to tell. Parents who 
are working multiple jobs, pursuing an education and raising families, 
all while under extreme financial strain. We are stretching every penny 
to provide for their families, but can use some help to make it 
through.
    That is why programs like school meals and SNAP are so important. 
Knowing that our kids are getting the food they need, allows us to 
focus on climbing out of these hard times and, once we do, we can give 
a hand to others.
    When I was at Montgomery College, I started a club called ``Back on 
Track.'' It was a small group of adult students who were facing similar 
financial challenges. We worked hard to support one another and to help 
each other navigate the programs that could help. This year, 50% of our 
group was successful in graduating.
    Today, along with my job with the school system, I'm working for 
the Community Action Agency and using my culinary skills as a volunteer 
chef, preparing food for people who are also facing tough times.
    Thank you for allowing me to meet with you today and I hope my 
story helps you to better understand the importance of nutrition 
programs in the everyday lives of families across the country. I am 
grateful for our time together.

    The Chairwoman. Thank you so much, Ms. Davis, for your 
testimony today.
    Our next witness, Dr. Whitford, please begin your testimony 
when you are ready.

      STATEMENT OF JAMES WHITFORD, D.P.T., CO-FOUNDER AND 
   EXECUTIVE DIRECTOR, WATERED GARDENS MINISTRIES, JOPLIN, MO

    Dr. Whitford. Good afternoon, Chairwoman Hayes, Ranking 
Member Bacon, and the Members of the Subcommittee. Thank you 
for hearing my testimony today.
    About 25 years ago, I was serving at a homeless mission in 
Ft. Worth, Texas, and my heart broke as I engaged men, women 
and children living on the streets. Not long after that, I met 
my beautiful bride, Marsha, and we married in the chapel of 
that same mission with homeless as our guests. Three months 
after that, we opened the doors to our own small, compassion-
driven ministry called Watered Gardens in the southwest 
Missouri community of Joplin.
    About 20 years later, our ministry is the largest privately 
funded poverty-fighting organization in our four-state area. We 
meet tens of thousands of needs every year, helping both the 
poor and homeless with everything from emergency shelter to 
workforce development.
    Now, I said we help them, but really, they help themselves 
through a unique ministry we operate called the Worth Shop. We 
call it the Worth Shop because we found that work awakens worth 
in people's lives. It is a place where people can trade their 
time to earn everything they need, from clothing, to shelter, 
or furniture, or food.
    Just last week I sat across from Hope in our Worth Shop, a 
young woman who was earning her food. I asked her, Hope, why do 
you earn your food here instead of going to get it for free 
from somewhere else? She said I like it this way. I feel better 
about myself.
    Now, I have heard countless comments like that over the 
years. One man said, ``You take the shame out of the game.'' 
One lady named Beth, who was earning her food by knitting 
stocking caps for newborns in the local hospital, called me 
later and left a voice message that said thank you for treating 
me as equal.
    Now beyond anecdotes, research bears this out also. The 
American Journal of Applied Psychology published a paper in 
2015 titled, Personality Change Following Unemployment, a study 
of 6,000 unemployed adults. They discovered the longer people 
are without work, the more they suffer. Specifically, they 
found a decline in three psychosocial metrics: agreeableness, 
openness, and conscientiousness. In other words, people become 
disheartened and grumpy when they are not working.
    So, if we want to really help energize people to get back 
in the workforce, then we should couple our charity with an 
expectation to be productive, because people feel better about 
themselves when dignity is restored. We do this at our mission 
every day, viewing people who many call poor and needy as 
people who also have great potential, capacity, and ability.
    April was one of those. When she first stepped into our 
doors, she was homeless, addicted, and had lost her kids. She 
was on SNAP and had been in and out of HUD housing, but it was 
at the mission surrounded by people who cared for her that she 
found the courage to get clean, get a job, and turn in her SNAP 
card. She said that last part was the one of the hardest things 
she had ever done because she had never known that she had the 
ability to provide for herself. But with a compassionate 
support team, she did it. Not only that, but she got her kids 
back, went back to school, and then she ended up working full-
time as our office manager.
    I have a lot of other first-hand stories of people finding 
freedom from dependency simply because we viewed them as unique 
individuals with unique gifts rather than charity cases 
intended to be stuck on the receiving end of someone's 
benevolence.
    Unfortunately, I have no shortage of stories that go in a 
different direction. Kenny, who was horribly addicted to 
alcohol, would stand on the median with a cardboard sign that 
read Food Stamps half price, just to get another drink.
    Now, the right kind of help, rehabilitation and 
development, they are available for guys like Kenny, but for 
him and countless others, means-tested welfare programs 
disincentivize work that would otherwise lead to a flourishing 
life.
    James Madison, debating on the floor of the House in 1794, 
asserted: ``Charity is no part of the duty of government.'' 
Twenty-one years later, that makes sense to me. The government 
doesn't know, Kenny, April, Beth, or Hope. I know them. And 
without a personal knowledge of each individual and what is 
really going on in their lives, needs cannot be met in a way 
that doesn't trap people in dependency and strip them of 
dignity.
    Charity has never been administered well from the 
government. FDR himself admitted this in his 1935 State of the 
Union Address. After comparing dependency on relief as a 
narcotic, he went on to promise, ``The Federal Government must 
and shall quit this business of relief.'' That was sound 
conviction because although the government might be able to 
feed people, it can never give those struggling in poverty what 
justice demands, dignity and friendship. That comes by way of 
compassionate neighbors like the ones who volunteer at my 
mission who also develop vital relationships with those who 
come for food.
    So, I implore this Committee, please, consider what you can 
do to safeguard the future of those vital relationships that 
are certainly undermined or crowded out when food simply comes 
on a card with nothing required.
    Thank you.
    [The prepared statement of Dr. Whitford follows:]

Prepared Statement of James Whitford, D.P.T., Co-Founder and Executive 
            Director, Watered Gardens Ministries, Joplin, MO
    Chairwoman Hayes, Ranking Member Bacon, and the Members of the 
Subcommittee. Thank you for receiving my written testimony today 
regarding the SNAP program.
    About 25 years ago, I was impacted significantly while serving at a 
homeless mission in Ft. Worth, Texas. I felt like my heart literally 
broke as I engaged men, women and children living on the streets. Not 
long after that, I met my beautiful bride and we married in the chapel 
of that same mission, the homeless as our witnesses. Three months later 
we opened the doors to our own compassion-driven ministry called 
Watered Gardens in our SW Missouri community of Joplin.
    After the first year of operation, we made the difficult decision 
of reducing my full-time work as a physical therapist to part-time. 
This was a sacrifice for us and our five children, but it was evident 
the ministry needed more of my attention. My wife and I worked hard to 
build a team of compassionate volunteers and for the next 9 years it 
remained completely volunteer driven with no payroll at all.
    But the sacrifice paid off.
    The ministry is now the largest privately funded poverty-fighting 
organization in our four-state area. Today, we serve both the poor and 
the homeless, offering 105 beds in three facilities serving those in 
long term recovery, adult men and women in need of emergency shelter, 
homeless moms with children and we have a respite unit for those 
discharged from the hospital who have nowhere to go to finish their 
recovery. Our non-homeless services include workforce development, 
education, and meeting basic needs like furniture, appliances, clothing 
and food. We served more than 60,000 meals last year and from our 
Mission Market we helped nearly 400 families with more than 57,000 
pounds of food for their homes through private donations. I say, ``We 
helped them,'' but really, they helped themselves through a unique 
ministry we operate called the Worth Shop. We call it a Worth Shop 
because we have found that work awakens worth in people's lives. It is 
a place where people can trade their time to earn everything from 
clothing and shelter to furniture or food. Work is dignifying whether 
it's through helping in the recycling section of our Worth Shop or 
staining and sewing together beautiful leather journals.
    Just last week I sat across from Hope in our Worth Shop, a young 
woman who was earning her food. I asked her, ``Hope, why do you earn 
your food here instead of going to get it for free from somewhere 
else.''
    ``I like it this way,'' she said. ``I feel better about myself.''
    I've heard countless comments like that over the years. One man 
said, ``You take the shame out of the game.'' Another person said, 
``It's like we get to keep our dignity.'' One lady named Beth who was 
earning her food by knitting stocking caps for newborns in the local 
hospital called me later and left a voice message that said, ``Thank 
you for treating me as equal.''
    These are more than just anecdotal stories. Research also bears 
this out. The American Journal of Applied Psychology published a paper 
in 2015 ``Personality Change Following Unemployment,'' a study of 6,000 
unemployed, subsidized adults.\1\ They discovered the longer people are 
without work, the more they suffer. Specifically, there was 
statistically significant decline in three of five psychosocial 
metrics: agreeableness, openness, and conscientiousness. In other 
words, people become disheartened and grumpy when they're not working.
---------------------------------------------------------------------------
    \1\ https://www.apa.org/pubs/journals/releases/apl-a0038647.pdf.
---------------------------------------------------------------------------
    So, if we want to help energize people to get back in the 
workforce, then we should couple our charity with an expectation to be 
productive--they'll feel better about themselves as dignity is 
restored.
    We do this at our mission every day, viewing people who many call 
poor and needy as people who also have great potential, capacity and 
ability.
    April was one of those people. When she first stepped into the 
doors of our mission, she was homeless, addicted and had lost her 
children. She was on SNAP and had been in and out of HUD housing, but 
it was at the mission surrounded by people who cared for her--willing 
to develop a relationship with her--that she found the courage to get 
clean, get a job and turn in her SNAP card. She said that was the one 
of the scariest things she ever did because she simply had never known 
that she had the ability to provide for herself. But with a 
compassionate support-team who esteemed her as able, she did it. Not 
only that, but she got her kids back, went back to school and ended up 
working as our office manager before opening and leading her own 
recovery ministry where she now inspires women to discover their God-
given potential.
    I'll never forget Mike, a middle-aged man who has a third grade 
education, riding his bicycle down to the mission after seeing one of 
our public service announcements. When I greeted him, he said, ``I saw 
you on the TV say that the working poor are happier than the welfare 
poor, so I went and got a job!'' He was so excited. When I asked him 
what he needed that day, he said he wanted to earn his food at the 
mission instead of using his SNAP card. That was 7 years ago and Mike 
still has that same job and loves it.
    I have many more first-hand stories of people finding freedom from 
dependency simply because we viewed them as unique individuals with 
unique gifts rather than charity cases intended to be stuck on the 
receiving end of someone's benevolence.
    Unfortunately, I have no shortage of stories that go in a different 
direction. For us and others who operate work-oriented missions like 
ours, SNAP benefits are often more hurtful than helpful. Kenny, 
horribly addicted to alcohol, would stand on the median with a 
cardboard sign that read ``Food Stamps \1/2\ price.'' I have recorded 
testimonies of others who have openly shared with me how easy and 
common it is to liquidate these benefits at 50 on the dollar.
    Last week, I met with Kevin an able-bodied homeless man at our 
mission. He earns his bed and meals like everyone else because he can, 
but when I asked him about employment, he said, ``No way. I can only 
work for cash under the table. I'm waiting on my disability.'' That 
conversation led to SNAP. He pulled his card out and leaned across the 
table, ``James,'' he said. ``They put hundreds of dollars on my card 
last month. I don't even know what I'm going to do with it. I think I'm 
going to go buy some bulk food and give it away.'' Unfortunately, I 
learned over the weekend that Kevin failed his drug test. He's back out 
on the streets.
    The right kind of help--rehabilitation and development--are 
available for guys like Kevin and Kenny but for them and countless 
others, means-tested welfare programs disincentivize work that would 
otherwise lead to a flourishing life.
    In fact, before SNAP work requirements were waived in my state in 
2016, more than 43,000 able-bodied adults were on the program not 
working at all. But by the end of the year, after the waiver for SNAP 
work requirements had been removed, that number had dropped by 85%.\2\
---------------------------------------------------------------------------
    \2\ https://thefga.org/paper/missouri-food-stamp-work-requirements/
---------------------------------------------------------------------------
    I remember that--before the new law went into effect. There was a 
lot of talk in the news about how people might go hungry. But when it 
passed, no one went hungry. Why? Because on average, there was a 70% 
increase in earnings by those able-bodied adults on the program and the 
rest of it was taken up by private-sector charity.
    We should never underestimate the incredible potential of civil 
society's response in times of need. Just this last Saturday, we 
recognized the 10th anniversary of an incredible disaster in my 
community. On May 22 of 2011 one of the most historically devastating 
F5 tornadoes tore through the center of our city rendering more than 
7,000 people homeless in an hour and killing 161. It wasn't Federal 
Government relief that saved us. Caring neighbors, compassionate 
citizens and local leaders were involved in rescue, relief and then 
organized a coordinated response long before government help showed up.
    James Madison, debating on the floor of the House in 1794, 
asserted, ``Charity is no part of the legislative duty of the 
government.'' After twenty-one years of fighting poverty, that makes 
sense to me. The government doesn't know Kevin, Kenny, Mike, April, 
Beth, or Hope. I know them. And without a personal knowledge of each 
individual and what's really going on in their lives, needs cannot be 
met in a way that does not tend toward trapping people in dependency 
and stripping them of dignity.
    Charity has never been administered well from the government. FDR 
himself admitted this in his 1935 State of the Union Address. After 
comparing dependency on relief as a narcotic--``a subtle destroyer of 
the human spirit,'' he went on to promise, ``The Federal Government 
must and shall quit this business of relief.'' That was sound 
conviction because although the government might be able to feed 
people, it can never give those struggling in poverty what justice 
demands--dignity and friendship. That comes by way of compassionate 
neighbors like the ones who volunteer at our mission who also develop 
vital relationships with those who come for food.
    I implore this Committee to consider what it can do to safeguard 
the future of those vital relationships that are certainly undermined 
or crowded out when food simply comes on a card with nothing required.

James Whitford,
Co-Founder, Executive Director,
Watered Gardens Ministries.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          Raw interview with Dennis and his SNAP experience https://
        www.youtube.com/watch?v=xcOizE7xWVo.
          Editor's note: the video is retained in Committee file.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

          Kenny's cardboard sign.

    The Chairwoman. Thank you, Dr. Whitford.
    Now we have Dr. Boynton-Jarrett. When you are ready, please 
unmute and begin your testimony.

       STATEMENT OF RENEE BOYNTON-JARRETT, M.D., Sc.D., 
           ASSOCIATE PROFESSOR OF PEDIATRICS, BOSTON 
  UNIVERSITY SCHOOL OF MEDICINE; PEDIATRICIAN, BOSTON MEDICAL 
CENTER; FOUNDER AND EXECUTIVE DIRECTOR, VITAL VILLAGE NETWORKS, 
                           BOSTON, MA

    Dr. Boynton-Jarrett. Chairwoman Hayes, Ranking Member 
Bacon, and distinguished Members of the Committee, good 
afternoon. Thank you for the opportunity to appear before the 
Committee to provide testimony on the important role of the 
Supplemental Nutrition Assistance Program for families and 
children during and after the COVID-19 pandemic. I am honored 
to be here.
    My name is Dr. Renee Boynton-Jarrett. I am a Pediatrician 
at Boston Medical Center, the largest safety net hospital in 
New England, and Associate Professor of Pediatrics at Boston 
University School of Medicine, a researcher on social and 
structural factors that impact population health, and the 
founding Director of Vital Village Networks. In partnership 
with community residents and organizations, Vital Village 
develops strategies to promote child well-being and advance 
health and educational equity through research data sharing and 
collective action. I am also a member of the National Academy 
of Sciences, Engineering and Medicine, committed on exploring 
the opportunity gap for young children from birth to age 8.
    As a primary care pediatrician at a safety net hospital, I 
know firsthand that all parents, regardless of personal 
resources, seek to ensure that their children have what they 
need to thrive. Such necessities include nutritious food, a 
safe and stable home, high quality childcare and education, and 
healthcare. We know that when children lack access to these 
basic necessities, even for brief periods of time, their health 
is jeopardized. Research consistently shows that when children 
live in families struggling with food insecurity, they are more 
likely to be in poor health, hospitalized, and at risk for 
developmental and learning delays. Adults and children who are 
food-insecure also experience increased rates of mental health 
issues.
    However, supporting children's health and developmental 
goals goes well beyond ensuring that they receive proper 
nutrition. Parental well-being is foundational to healthy 
growth of children and their development, and when mothers are 
able to afford the basic needs for their children and are well-
supported, they are less likely to be depressed or anxious, and 
able to provide responsive care-giving that children need to 
develop healthy.
    Currently, who gets help and how much help they receive 
from society is driven by a narrative of deservingness, yet 
food insecurity is distressing and painful. Children who are 
food-insecure experience physical, cognitive, and emotional 
awareness of hunger, and I ask what is our moral and ethical 
responsibility?
    Unfortunately, due to persistent structural inequities, low 
wage work, and lack of high quality, affordable childcare, 
financial stability is out of reach for many families. Black, 
indigenous, Latina, and immigrant mothers in particular are 
disproportionately shut out of systems that promote economic 
advancement due to discrimination and systemic racism. Well 
before the pandemic, I met mothers in my clinic who worked 
multiple jobs, owned their own businesses, and despite their 
best efforts, struggled to put food on the table for their 
children. Parents in food-insecure households routinely make 
tradeoffs between food and basic necessities, such as 
utilities.
    Due to food scarcity during the pandemic, an estimated 13 
million children, or one in six, may experience food insecurity 
this year. Mental health issues have been climbing among those 
who are food-insecure, and for these families, programs like 
SNAP and school meals and WIC are crucial to filling the gap 
between insufficient incomes and the cost of raising children. 
SNAP is not only effective in reducing food insecurity, but 
improves child and maternal health outcomes.
    During the pandemic, we have seen dramatic increases in 
food insecurity and other hardships among families, with school 
and childcare closures, the shuttering of businesses and 
service sectors that disproportionately employed women. These 
circumstances have placed an outsized burden of economic 
hardship and stress on mothers and women of color have been 
more profoundly impacted by these economic shocks, because they 
hold a higher share of low wage service industry jobs.
    Expansion of SNAP and the Pandemic Electronic Benefit 
Transfer Program passed in relief packages by Congress have 
been a lifeline for many families during this pandemic, but 
unfortunately, these are scheduled to sunset without further 
action. Failure to ensure the nutritional needs of children are 
met will exacerbate inequities in health and educational 
attainment. The time is now to move from short-term policy 
solutions to permanently expand eligibility and access to 
government nutrition programs. Working in partnership with 
families and communities to generate solutions is crucial.
    As vaccination rates increase and as schools and childcare 
settings reopen, and as people return to work we cannot lose 
sight of three things. First, the longstanding structural 
inequities that existed before the pandemic; second, the 
lessons learned during the pandemic, including the essential 
role of partnerships with families and communities; and third, 
the urgent need for long-term policy solutions that respond to 
the realities families, women, and children face. In order to 
live in a country where all children have the opportunity to 
reach their fullest potential, we must seek to understand ways 
in which current recovery efforts are leaving them and mothers 
behind.
    Thank you.
    [The prepared statement of Dr. Boynton-Jarrett follows:]

  Prepared Statement of Renee Boynton-Jarrett, M.D., Sc.D., Associate 
    Professor of Pediatrics, Boston University School of Medicine; 
 Pediatrician, Boston Medical Center; Founder and Executive Director, 
                   Vital Village Networks, Boston, MA
    Chairwoman Hayes, Ranking Member Bacon, and distinguished Members 
of the House of Representatives Agriculture Committee, good afternoon. 
Thank you for the opportunity for me to appear before this Committee to 
provide testimony on the important role of the Supplemental Nutrition 
Assistance Program (SNAP) for families with children during and after 
the COVID-19 pandemic. I am honored to be here.
    My name is Dr. Renee Boynton-Jarrett. I am a Pediatrician at Boston 
Medical Center, the largest safety-net hospital in New England, I am an 
Associate Professor of Pediatrics at Boston University School of 
Medicine, and researcher on social and structural factors that impact 
population health (social epidemiology). I am the Founding Director of 
Vital Village Networks. In partnership with community residents and 
organizations, Vital Village Networks develops community-based 
strategies to promote child well-being and advance health and 
educational equity through research, data sharing, and collective 
action. I am also a member of the National Academy of Sciences, 
Engineering, and Medicine (NASEM) committee on Exploring the 
Opportunity Gap for Young Children from Birth to Age Eight.
    As a primary care pediatrician at a hospital that predominantly 
serves low-income patients, I know firsthand, that all parents, 
regardless of personal resources, seek to ensure their children have 
what they need to thrive. Such necessities include nutritious food, a 
safe and stable home, high-quality child care and education, and health 
care. We know that when children lack access to these basic 
necessities--even for brief periods of time--their health is 
jeopardized. Research consistently shows that when children live in 
families struggling with food insecurity, they are more likely to be in 
poor health, be hospitalized, at-risk of developmental delays, and 
experiencing difficulties learning in school.<SUP>(1, 2)</SUP> Adults 
and children who are food-insecure experience increased rates of mental 
health issues.<SUP>(3)</SUP> Food insecurity is also associated with 
childhood obesity.<SUP>(4-6)</SUP>
    However, supporting children's health and development goes well-
beyond ensuring that children receive proper nutrition. Parental well-
being is a foundation of healthy child growth and development. When 
mothers are able to afford basic needs for their children and are well-
supported, they are less likely to be depressed or 
anxious.<SUP>(7)</SUP> As a result, mothers are better able to provide 
the responsive care-giving their children need early in 
life.<SUP>(8, 9)</SUP>
    Currently who gets help and how much help they receive from society 
is driven by a narrative of deservingness.<SUP>(10)</SUP> Yet, food 
insecurity is distressing and painful--children who are in food-
insecure households experience physical (hunger, fatigue), cognitive 
(knowledge of scarcity), and emotional awareness 
(worry).<SUP>(11)</SUP> I ask, what is our moral and ethical 
responsibility? During the pandemic rates of hunger and food insecurity 
increased, particularly among lower income, Black, Latinx and Native 
American households.<SUP>(12, 13)</SUP> However, these issues were 
longstanding before the pandemic and call for a paradigm shift that 
uses a trauma-informed approach to develop policies that promote 
resilient and equitable food systems in collaboration with communities 
and families.
    Unfortunately, due to persistent structural inequities, low-wage 
work, and a lack of high-quality affordable child care, financial 
stability is out of reach for many families. Black, Indigenous, Latina, 
and immigrant mothers, in particular, are disproportionately shut out 
of systems that promote economic advancement due to prejudice, 
discrimination and systemic racism. Well before the pandemic, I met 
mothers in my clinic who worked multiple jobs or owned their own 
businesses and despite their best efforts struggled to put food on the 
table for their children. Parents in food-insecure households routinely 
have to make tradeoffs between food and basic 
necessities,<SUP>(14)</SUP> and over 69% report having to choose 
between food and utilities.<SUP>(15)</SUP>
    Prior to the current crisis, approximately one in seven families 
with children nationally experienced food insecurity <SUP>(16)</SUP>--
at Boston Medical Center, that number is closer to one in five. Due to 
food scarcity during the pandemic, an estimated 13 million children (or 
one in six children) may experience food insecurity in 
2021.<SUP>(16)</SUP> Mental health issues also increased in relation to 
food insecurity during the pandemic.<SUP>(17)</SUP> For these families, 
programs like SNAP, school meals, and WIC, are crucial to filling the 
gap between insufficient incomes and the costs of raising children. 
SNAP in particular is not only effective in reducing food insecurity, 
but also improves child and maternal health outcomes.<SUP>(18)</SUP> 
For children who receive \2/3\ of their daily nutritional needs through 
school and childcare center meals, replacing these meals was an 
immediate priority but has not led to long-term policy 
solutions.<SUP>(19)</SUP>
    During the COVID-19 pandemic, we have seen a dramatic increase in 
food insecurity and other economic hardship among families with 
children. School and child care closures coupled with the shuttering of 
businesses in service sectors that require face-to-face interaction and 
disproportionately employ women--these circumstances placed an outsized 
burden of economic hardship and stress on mothers. Women of color have 
been more profoundly impacted by these economic shocks because they are 
hold a higher share of low-wage and service industry 
jobs.<SUP>(20)</SUP> Throughout this pandemic, mothers have had to 
juggle remote schooling, child care responsibilities, paying bills when 
their incomes were cut, and ensuring that they and their children can 
remain healthy. Sadly, across the U.S. and in the 15 largest 
metropolitan areas there is a direct correlation between COVID-19 
mortality rate and food insecurity among households with children under 
age 18. These patterns worsen among those with lower levels of 
education, by racial/ethnic group, and geography.<SUP>(21)</SUP>
    Expansions in SNAP and the Pandemic Electronic Benefit Transfer (P-
EBT) program passed in relief packages by Congress have been a lifeline 
for many families during this pandemic. Unfortunately, these expansions 
are scheduled to sunset without further action. Failure to ensure the 
nutritional needs of children are met will exacerbate inequities in 
health and educational attainment. The time is now to move from a 
short-term policy solution to permanently expand eligibility and access 
to government nutrition programs. Working in partnership with families 
and communities to generate solutions is crucial.<SUP>(22, 23)</SUP>
    As vaccination rates increase, as schools and child care settings 
reopen, and as people return to work, we cannot lose sight of three 
things: first, the longstanding structural inequities that existed 
before the pandemic; second, the lessons learned during the pandemic 
including the essential role of partnerships with families and 
communities; and, third, the urgent need for long-term policy solutions 
that respond to the realities of families, women, and children. In 
order to live in a country where all children have the opportunity to 
reach their fullest potential, we must seek to understand the ways in 
which current recovery efforts are leaving women and mothers behind. 
Data show women and women of color not only lost jobs at higher rates 
than men during the pandemic, but they are now returning to the 
workplace at a slower rate than men.<SUP>(20)</SUP> Women-owned small 
businesses like family home daycare centers, catering businesses, and 
salons suffered significant revenue loss during the pandemic. These 
significant declines in income that continue to persist have an impact 
on the well-being of children, families, and communities given the 
central role mothers play in the lives of others.<SUP>(20)</SUP> 
Moreover, as of December 2020, 13% of both child care centers and 
family child care homes remained closed.<SUP>(24)</SUP>
    Given our understanding of the significant consequences of food 
insecurity and scarcity, and the fragility of our current food system, 
solutions to address food insecurity should employ a trauma-informed 
approach.<SUP>(11)</SUP> We urge Congress and the Administration to 
work alongside communities across the country to build a resilient food 
system that eradicates hunger, supports families and children optimally 
and upholds their dignity.
    Increasing Federal investments into programs like SNAP and child 
nutrition programs not only improves health and well-being, but also 
helps boost local economics--supporting local farmers, small 
businesses, and food retailers of all sizes that accept SNAP 
dollars.<SUP>(25)</SUP> A recent analysis from the USDA Economic 
Research Service (ERS) found that $1 billion in new SNAP benefits would 
generate an additional $32 million in income for the U.S. agriculture 
industry and nearly 500 full-time agricultural jobs.<SUP>(26)</SUP>
    An equitable recovery for all will require comprehensive, family-
centric policies that recognize the unique needs of mothers and 
children, particularly for those with low incomes. An equitable 
recovery, that invests in families and children, must also consider the 
important role child care plays in economic security and child 
development. Increasing SNAP benefits, improving child nutrition 
programs, investing in high-quality, affordable child care, improving 
families' ability to afford rent, ensuring access to health care and 
prescription medicines, increasing wages, providing paid leave, and 
implementing a permanent, inclusive child allowance are all evidence-
based steps Congress can and should take to improve the health and 
well-being of women, children, and families.
    The COVID-19 pandemic has clearly demonstrated the urgent need to 
develop a resilient and secure food system based on policy and the 
tremendous cost for millions of American children of our failure to do 
so<SUP>.(19)</SUP> I hope Members of Congress will utilize a trauma-
informed lens and consider the full range of needs that children and 
families have--from needing nutritious food to having healthy, safe, 
and high-quality child care programs to attend--that matches our values 
and supports the human rights of children and the ideals of our 
democracy.
    Thank you for your consideration. Once again, I am honored to be 
here, and I look forward to our discussion.

 
                               References
 
    1. de Oliveira K.H.D., de Almeida G.M., Gubert M.B., Moura A.S.,
 Spaniol A.M., Hernandez D.C., et al. Household food insecurity and
 early childhood development: Systematic review and meta-analysis.
 Matern Child Nutr. 2020; 16(3): e12967.
    2. Pai S., Bahadur K. The Impact of Food Insecurity on Child Health.
 Pediatr. Clin. North Am. 2020; 67(2): 387-96.
    3. Whitaker R.C., Phillips S.M., Orzol S.M. Food insecurity and the
 risks of depression and anxiety in mothers and behavior problems in
 their preschool-aged children. Pediatrics. 2006; 118(3): e859-68.
    4. Suglia S.F., Duarte C.S., Chambers E.C., Boynton-Jarrett R.
 Cumulative social risk and obesity in early childhood. Pediatrics.
 2012; 129(5): e1173-e9.
    5. Kaur J., Lamb M.M., Ogden C.L. The association between food
 insecurity and obesity in children--The National Health and Nutrition
 Examination Survey. Journal of the Academy of Nutrition and Dietetics.
 2015; 115(5): 751-8.
    6. Suglia S.F., Duarte C.S., Chambers E.C., Boynton-Jarrett R.
 Social and behavioral risk factors for obesity in early childhood. J.
 Dev. Behav. Pediatr. 2013; 34(8): 549-56.
    7. Zaslow M., Bronte-Tinkew J., Capps R., Horowitz A., Moore K.A.,
 Weinstein D. Food security during infancy: implications for attachment
 and mental proficiency in toddlerhood. Matern. Child Health J. 2009;
 13(1): 66-80.
    8. Reading R., Reynolds S. Debt, social disadvantage and maternal
 depression. Soc. Sci. Med. 2001; 53(4): 441-53.
    9. Manuel J.I., Martinson M.L., Bledsoe-Mansori S.E., Bellamy J.L.
 The influence of stress and social support on depressive symptoms in
 mothers with young children. Soc. Sci. Med. 2012; 75(11): 2013-20.
    10. Jensen C., Petersen M.B. The deservingness heuristic and the
 politics of health care. American Journal of Political Science. 2017;
 61(1): 68-83.
    11. Hecht A.A., Biehl E., Buzogany S., Neff R.A. Using a trauma-
 informed policy approach to create a resilient urban food system.
 Public Health Nutr. 2018; 21(10): 1961-70.
    12. Siddiqi S.M., Cantor J., Dastidar M.G., Beckman R., Richardson
 A.S., Baird M.D., et al. SNAP Participants and High Levels of Food
 Insecurity in the Early Stages of the COVID-19 Pandemic. Public Health
 Rep. 2021: 333549211007152.
    13. Center for Translational Neuroscience. Medium2020. Available
 from: https://medium.com/rapid-ec-project/facing-hunger-the-weight-of-
 the-pandemic-is-falling-on-american-families-1cbeb047a955.
    14. Knowles M., Rabinowich J., Ettinger de Cuba S., Cutts D.B.,
 Chilton M. ``Do You Wanna Breathe or Eat?'': Parent Perspectives on
 Child Health Consequences of Food Insecurity, Trade-Offs, and Toxic
 Stress. Matern. Child Health J. 2016; 20(1): 25-32.
    15. Weinfield N., Mills G., Borger C., Gearing M., Macaluso T.,
 Montaquila J., Zediewski S. Hunger in America [Internet] 2014.
 Available from: https://www.feedingamerica.org/research/hunger-in-
 america.
    16. Feeding America. The Impact of the Coronavirus on Food
 Insecurity in 2020 & 2021 [Internet] 2021 March. [May 20, 2021].
 Available from: https://www.feedingamerica.org/research/coronavirus-
 hunger-research.
    17. Fang D., Thomsen M.R., Nayga R.M. The association between food
 insecurity and mental health during the COVID-19 pandemic. BMC Public
 Health. 2021; 21(1): 607.
    18. Ettinger de Cuba S.A., Bovell-Ammon A.R., Cook J.T., Coleman
 S.M., Black M.M., Chilton M.M., et al. SNAP, Young Children's Health,
 and Family Food Security and Healthcare Access. Am. J. Prev. Med. 2019;
 57(4): 525-32.
    19. Dunn C.G., Kenney E., Fleischhacker S.E., Bleich S.N. Feeding
 Low-Income Children during the Covid-19 Pandemic. N. Engl. J. Med.
 2020; 382(18): e40.
    20. Bateman N., Ross M. Brookings. 2020 October 2020. Available
 from: https://www.brookings.edu/essay/why-has-covid-19-been-especially-
 harmful-for-working-women/.
    21. Krieger N., Testa C., Waterman P.D., Chen J.T. Harvard Center
 for Population and Development Studies, editor 2021 February 13, 2021.
 [cited Volume 21, Number 2]. Available from: https://
 cdn1.sph.harvard.edu/wp-content/uploads/sites/1266/2021/02/21_krieger-
 et-al_C19HH-pulse_HCPDS_Vol-21_No-2_Final.pdf.
    22. Boynton-Jarrett R. Culture of Health Blog [Internet]: Robert
 Wood Johnson Foundation. 2019. [cited 2021]. Available from: https://
 www.rwjf.org/en/blog/2019/10/listening-to-families-and-communities-to-
 address-childhood-obesity.html.
    23. Skouteris H., Bergmeier H.J., Berns S.D., Betancourt J., Boynton-
 Jarrett R., Davis M.B., et al. Reframing the early childhood obesity
 prevention narrative through an equitable nurturing approach. Maternal
 & Child Nutrition. 2021; 17(1): e13094.
    24. Haynie K. Washington, D.C.: Child Carre Aware of America. 2021
 February 22, 2021. Available from: https://info.childcareaware.org/blog/
 analysis-shows-child-care-supply-attendance-better-but-waivering.
    25. Wolkomir E. Center on Budget and Policy Priorities: Washington,
 D.C., USA [Internet] 2018. Available from: https://www.cbpp.org/
 research/food-assistance/snap-boosts-retailers-and-local-
 economies#_ftn5.
    26. Canning P., Morrison R.M. Quantifying the Impact of SNAP
 Benefits on the US Economy and Jobs. Amber Waves: The Economics of
 Food, Farming, Natural Resources, and Rural America. 2019; 2019 (1490-
 2020-727).
 


    The Chairwoman. Thank you so much, Dr. Boynton-Jarrett, for 
your testimony.
    I apologize. In error, I skipped Ms. Wilson. Thank you, Dr. 
Whitford for your testimony previously.
    And now, we will hear from our final witness, Ms. Wilson. 
When you are ready, if you would unmute and please begin your 
testimony.

 STATEMENT OF RACHEL WILSON, ORLANDO, FL; ON BEHALF OF SECOND 
              HARVEST FOOD BANK OF CENTRAL FLORIDA

    Ms. Wilson. Good afternoon, Chairwoman Hayes and the rest 
of the Committee.
    I have done things a little differently than it seems like 
a lot of the other speakers have. I have decided to speak from 
my heart and I haven't written out a full testimony.
    The first thing I want you to understand is that when we 
talk about kids, we are talking about my kids. We are talking 
about these ones. These kids that have the best hearts of 
anyone that I could possibly talk about. This is Grace on her 
14th birthday applying for her first job because she knows what 
it means to struggle. She spends her days on my roof under a 
full moon trying to manifest things, good things, for my family 
and for herself, and understanding body positive image.
    This is Tyler. I have set a standard for Tyler to 
understand that SNAP is not a way of life. Government 
assistance is not a way of life, and for him, entry level 
position with the Brevard County School District with teacher's 
benefits and teacher's pay, and he is doing amazing.
    This is Jack. Jack is 5. He has three different behavior 
disorders, including Autism Spectrum Disorder. He does tae kwon 
do to understand self-discipline and control. He is--I am doing 
my very best with government assistance to get them the 
assistance that they need, and the therapy that he needs 
through the government programs.
    My job as a mother is to set the standard for these kids as 
to what acceptable is, to understand that government assistance 
is not a way of life. They do not need to feel the burden of 
what poverty feels like, or a pandemic crisis.
    I have a few notes, so if I get a little bit distracted, 
please bear with me.
    Before COVID, I was self-sustaining. I had a great income. 
I could take care of my kids on my own. Like I said, I have 
grown up on government assistance. I do not want that for my 
kids.
    Right now, since the salons have opened back up, I am now 
working at 50 percent capacity of what I was before COVID. 
Whether it is people are scared to come in due to lack of 
vaccines or because of the virus that is out there, or because 
they have decided that hair and makeup is just not an expense 
they are willing to put into their budget.
    Sometimes as parents, we have to understand that we have to 
set aside all of our pride to make sure that our kids don't 
feel the push of poverty. Their job as a kid is to do well in 
school, to be healthy, functional adults, and not worry about 
what they have to eat in the evening or during the day.
    I have looked into a lot of different jobs. When I hear 
people tell me that I need to get a second job: I have looked 
at McDonalds. I have looked at Sonic. I have worked as a 
manager of a fast-food restaurant. They pay exactly $11 an hour 
to start out with. That is $440 a week before taxes, and $339 a 
week after taxes. The total on that is $1,356 a month after 
taxes. In Florida, you have to prove that you make three times 
the amount of income to afford a household. As a legal 
requirement, I have to have three bedrooms. A three-bedroom 
house in Florida is $1,000 a month. I can't even prove that on 
a management position at a fast-food restaurant.
    SNAP has been a lifeline for me since the pandemic to be 
able to give my kids what they need, the food that they need, 
the lack of concern, other than their schoolwork and doing 
well. My daughter wants to be a pediatric oncologist. The last 
thing she needs to worry about is how much food she has on the 
dinner table. She needs to worry about her schoolwork and what 
school she chooses to go to because it has the best dual 
enrollment program for an associate's degree. It is not their 
job to feel this.
    SNAP is supplemental. SNAP is a step up. SNAP is a way to 
help me get my feet back under me after a pandemic, and to 
build my clientele back up to provide the life that my children 
need from this point forward. But sometimes we need help. We 
just need help. Just because we need help does not mean that we 
need to live under the means of basic human decency. We are not 
looking for it for the rest of our lives. We are just looking 
for it for a short time to help us get back to where we are 
going, and provide a functional, healthy lifestyle for our 
kids.
    I thank the Chairwoman. That will be all.
    [The prepared statement of Ms. Wilson follows:]

 Prepared Statement of Rachel Wilson, Orlando, FL; on Behalf of Second 
                  Harvest Food Bank of Central Florida
    Dear Chairwoman Hayes and Committee Members,

    My name is Rachel Wilson. I am a 39 year old single mother of 
three. I grew up in poverty and on government assistance. I grew up 
barely having enough food. I grew up believing when the power was shut 
off it was by choice because my mother had convinced my brother and I 
that we were learning what it was like to live like pilgrims. Well into 
adulthood I had just assumed this was the way of life. The more aware 
of real life I became, the more I realized I didn't want that for 
myself. I never really believed I would do much more than ``just make 
it'', but I wanted to. I moved out of my mother's house at the age of 
17 with my high school sweetheart and before I knew it, I was a mother 
at 19 years old and once again on government assistance. The WIC 
program was a lifeline. At 22 years old I found myself in the position 
to either stay in an abusive relationship, or be a single mother with 
no education, and try to support my child. I worked as a waitress, 
bartender, and even laid tile to provide for my baby. But even in 2004, 
I had to work two jobs that covered rent, gas, diapers and used WIC and 
the SNAP program to pay for basic food needs. I quickly became 
accustomed to the lifestyle I so desperately didn't want to have.
    I met my ex-husband and was married with a second child recently 
born by the middle of 2007. I worked as many shifts as I could between 
the bar and a fast food restaurant to provide for my family. Most days 
I worked 10 to 12 hours a day. In order to pay my bills, I had to make 
too much money to qualify for the SNAP program. I struggled every day 
of that life. The man I married was an alcoholic that just wouldn't 
hold a job so providing for the kids rested on my shoulders. I 
understand that my struggles are a reflection of my choices. However, 
when you grow up in poverty and what most refer to as ``the ghetto'', 
these are normal ways of thinking. Having a drug addict or alcoholic 
spouse is the ``norm''. Having more than one family member in a gang, 
in prison, or murdered is the norm. Believing that this is as good as 
it will ever get for you, is the norm. And all of these things were 
embedded in my mind. In 2010 I left my husband and moved in with my 
mother. I had decided enough was enough. I didn't want this life for my 
children. I didn't want them to struggle like I did. I wanted to teach 
them a new way of life. A new normal. For 2 years I raised two babies 
with the help of my mother and step-father. I had always talked about 
big dreams and going back to school. But it wasn't until then and their 
encouragement, for the first time, my idea of ``making it'' was bigger 
than making management at a fast food restaurant.
    In 2011, I enrolled in cosmetology school. I extended my schooling 
an extra 4 months so I could leave early to get to work. I missed my 
children every day for 14 months so I could better myself. I went to 
school Tuesday through Saturday from 8:30 a.m. until 2:30 p.m. and went 
to work as a waitress at a country club from 3 p.m. until 12 a.m. I 
again enlisted in the help of SNAP to help provide food for my children 
in my mom's home.
    In 2012, I graduated cosmetology school. I had never been more 
proud of myself. I had actually completed something and was going to be 
someone. My children and I had moved into our first duplex alone. I was 
so proud that I didn't just have a job, but I had a career. Yet, I 
still found myself in the position of having to work two jobs to make 
it work. I had to work two jobs to keep myself off government 
assistance. I had to leave my 10 year old son home at night with my 4 
year old daughter to go to a job waiting tables after my shift at the 
salon. I made it work. I made it work at the expense of my son's 
innocence and childhood and being an absent parent when my children 
needed me.
    In 2013, my grandfather passed away and left me a portion of a life 
insurance policy. As you can imagine, it was quite difficult to spend 
the money he had left due to the circumstances I had received it. I 
held that money for approximately 2 months trying to decide what to do 
with it. I decided I was going to make a list of what he would have 
wanted me to do. I invested in myself and decided to jump into self-
employment as a hairdresser. It took me 2 years of the most mentally 
and physically exhausting work I had ever done; but I did it. I was 
going to become everything everyone said I'd never be. I was self-
sustaining, and not on any form of assistance. I was living just on the 
other side of the county line to keep my kids out of ``the ghetto'', 
and they were out. They were in good schools and not growing up the way 
I had. I sheltered them from that lifestyle. I wanted to set the 
standard of what was an acceptable lifestyle and set new standards for 
myself.
    In 2015, I had my third child. I had to work harder than I ever had 
before. I found myself alone in a pregnancy not wanting to ask anyone 
for help. I did it though. I had saved money through the pregnancy for 
time off and I never did need anyone's help. But it cost my kids 7 
months of their childhood. After 3 weeks of having Jack in September of 
2015, I went directly back to work to avoid requesting assistance with 
bills, food and housing. I felt that I had reached the peak of what was 
available to me in Kansas. I had started noticing the influx in the 
crime rates and my 15 year old son starting to show interest in being 
around the same type of people I grew up with. At that point I decided 
to pack up my kids, everything I could in a 6 x 12 trailer and move 
to Florida. I just wanted a better life for them and myself and there 
was nothing I wouldn't do for that.
    As with any big move there are struggles. The struggles I had 
included the ability to not only sustain a living situation for myself, 
but for the kids as well. I obtained a job at a hair salon locally. 
Because it was an hourly pay, and I had now worked for a corporation, 
not only was I not making enough money, but I was also being worked 
hours of the day that my children were home and needed me. They needed 
my help with homework, cooking dinner, their 7 month old infant 
brother, but mostly they just needed me. Again, I enlisted in the help 
of the SNAP program. I only needed the assistance for 6 months before I 
decided to get back into self-employment to better care for my 
children.
    Up until the COVID shut down, I did not need any assistance from 
the SNAP program. As a small business owner, when the salon was shut 
down, I was not eligible for unemployment. I was flat out of a job. My 
mother gave me a credit card to utilize to pay my bills but I still had 
to figure out how to make the monthly payment. When I found out that 
the State of Florida waived work requirements for SNAP, I immediately 
applied. SNAP was the only way myself and my children were provided 
food through the shutdown. When it was time for me to requalify after 
the salon opened back up, even though I was only working at 50% of my 
normal clientele, I no longer qualified for the same amount. I had hit 
the benefits cliff and I couldn't understand why. I could barely pay my 
rent. I realized I was being measured on a scale of my total incoming 
dollars instead of what I had to pay out to work and buy supplies. I 
couldn't seem to find my way through the website to find and submit a 
profit and loss worksheet. I had literally lost all hope and slowly I 
was losing everything just trying to keep a place of employment and 
feed my children. I obtained a resource packet from Miss Angela who 
runs head start at my son's school for VPK. It was there I found an 
actual phone number to someone who could help me sign up for SNAP. As I 
hysterically cried to her on the phone that I don't know which way to 
turn or how to get help, she asked me to join her at the local library 
so she could assist me in being accepted into the SNAP program.
    The aftermath of COVID is much worse than the COVID shutdown 
itself. People have either decided that getting their hair done just 
isn't a necessity, or they're still scared to get out in public. I 
still work on about 50% of my original clientele. I barely pay my bills 
and am standing on a prayer when it comes to my rent and the COVID 
restrictions keeping me from being evicted. I don't choose to be on 
SNAP. I never have. I request help from the program when there's 
nowhere else to turn. Throughout my life, SNAP has been the only reason 
myself or my children have had the ability to eat like normal human 
beings should. We are not lesser of people because we need help. We 
don't want to reside in a state of poverty. Sometimes life just happens 
and more often than not it's happening to people who are trying to 
break the cycle of poverty. We are trying to set a new standard for 
ourselves, and our children. There is no amount of pride not worth 
giving up if that means our children do better than we did. SNAP is 
such an important program to make sure no one goes hungry whether it's 
due to sudden loss of employment or being a product of environment and 
not knowing any other way. With the resources supplied by the 
government, I believe we can get better. We can do better. But we need 
help. As a whole, with help from programs like SNAP and parents who 
just want better for their children, we can push for a ``better'' next 
generation. But we can't make that change alone.
            Thank you,

Rachel Wilson.

    The Chairwoman. Thank you so much, Ms. Wilson, for sharing 
your very heartfelt statement with us today.
    That is all of our witnesses. At this time, we will 
recognize Members for questioning. The Members on the Committee 
will be recognized in order of seniority, alternating between 
Majority and Minority Members. You will be recognized for 5 
minutes each in order to allow us to get to as many questions 
as possible. Please keep your microphones muted until you are 
recognized in order to minimize background noise.
    I now recognize myself for 5 minutes.
    Ms. Davis, we are pleased to welcome you to the House 
Committee on Agriculture for this Subcommittee hearing. Thank 
you so much for sharing your story. Your story is my story. 
Your testimony clearly demonstrates that SNAP is a crucial 
support system which enables recipients to have peace of mind 
while working towards economic stability for themselves and 
their families.
    You testified that you recently hit the benefits cliff, 
which is an arbitrary dollar amount, above which you are cut 
off from benefits, just as you are beginning to feel stable. 
Can you describe to this Committee how the end of your SNAP 
eligibility is affecting your household budget, even as your 
income from working has increased?
    Ms. Davis. Sure, I can do that. I can honestly say getting 
help from SNAP helps us a lot, but when we start doing better, 
we feel like we are being punished. So, I can say for myself, I 
really felt like I was being punished for just getting a little 
bit ahead, and I was still struggling. So, even though I 
achieved something, it was like they took it away, they took 
away something that I still needed. I wasn't financially ready 
to be financially steady to pay for everything.
    So yes, I felt like I was being punished.
    The Chairwoman. Thank you. Your testimony also demonstrates 
that SNAP was just one part of your family's larger budget and 
economic stability. In Montgomery County where you live, it is 
a very high cost of living. Have you had to make any other 
sacrifices to stay in Montgomery County, and how did the end of 
your benefits impact your housing considerations?
    Ms. Davis. Yes, I love Montgomery County, but the prices 
are high. I have to live with my mom. I tried applying for 
programs, other programs, but I am not qualified for it because 
of my salary from MCPS.
    So, it is a real struggle. I think of the education in 
Montgomery County for my son, and that is what keeps me going. 
So, that is why I stay in Montgomery County.
    The Chairwoman. Thank you.
    Ms. Wilson, you had similar testimony about a working mom 
who through no fault of your own, your hours were cut, and you 
are trying to do everything that you can. It is important to 
note that this is the face of our SNAP beneficiaries right now, 
our children. Not people who willingly choose not to work. As 
you said, kids should have the responsibility of just being 
children.
    Can you please describe how this stress has affected you 
and your children as you struggled with reduced hours with less 
of an income and still trying to put food on the table?
    Ms. Wilson. Absolutely. I have not allowed my kids to feel 
the stress of what is going on. I have taken it on all on 
myself. I apologize if I get a little bit emotional. I have 
spent countless hours locked in the bathroom crying, trying to 
figure out how to take care of my kids without them 
understanding what is going on; countless hours in my bedroom, 
not wanting them to feel these things.
    I remember when I first called SNAP and I first got in 
contact with a gal who helped with Second Harvest, and I called 
her completely ugly crying because I didn't know what I could 
do. My work hours being cut down, I haven't been able to make 
my rent payment. The only thing that is saving me right now is 
the COVID restrictions of eviction. I have been working on 
paying bills and my car payment, making sure that I can get to 
and from work and my kids can get to school, and making sure 
there is food provided on the table. The fact that SNAP has 
been able to provide those benefits for my kids to eat healthy 
meals, I have been able to pay a few more bills. I have been 
able to make small payments to my landlord.
    But aside from that, my kids--I have not allowed them to 
feel that because I don't want them to feel that. It is not 
their job to feel that. They don't need to know what I am 
struggling through. They just need to live healthy lives as 
kids and worry about their studies and worry about mom being 
home with them, and cooking dinner and helping with homework. 
That is their job.
    The Chairwoman. Thank you so much, Ms. Wilson.
    That is all I have for questioning. I thank both of you for 
sharing your stories here with the Committee today. I now 
recognize the gentleman from Nebraska for 5 minutes, the 
Ranking Member, Mr. Bacon, for his questions.
    Mr. Bacon. Thank you, Madam Chairwoman. I appreciate this. 
I appreciate, too, Ms. Davis and Ms. Wilson's stories and 
sharing their journey. Again, it does show where SNAP provides 
a very valuable and important role in this time where people 
need this, and COVID surely caused more of these situations. 
So, we thank you for sharing.
    I, too, am concerned about the cliff effect, and it does 
hold some people back from trying to get more employment. So, 
we need to relook at how we can modify policies to minimize the 
problems of cliff effects. So, I appreciate you sharing.
    My first question is to Dr. Bauer, Dr. Boynton-Jarrett, and 
Dr. Whitford. As you all know, in response to the pandemic 
Congress provided nearly $70 billion in additional nutrition 
programming and funds. Were any of you surveyed about these 
needs or asked to provide testimony during this pandemic in the 
lead up of all this aid? Thank you.
    I will go first to Dr. Bauer.
    Dr. Bauer. In my role at a think tank, one of my jobs is to 
provide education and evidence to policymakers, so yes, I did 
speak publicly on potential Federal response to the COVID-19 
pandemic on nutrition assistance programs.
    Mr. Bacon. Did you say you talked to people on the 
Agriculture Committee here?
    Dr. Bauer. I did, yes.
    Mr. Bacon. Okay, thank you.
    How about you, Dr. Boynton-Jarrett?
    Dr. Boynton-Jarrett. I did not speak to Members of the 
Agriculture Committee during these changes.
    Mr. Bacon. Thank you.
    Dr. Whitford?
    Dr. Whitford. No, I did not and was not asked.
    Mr. Bacon. One of the concerns we had is we didn't have 
Committee hearings as we were determining $70 billion in new 
spending.
    A question for you three again. Just recently it was 
reported that 43 percent of businesses say they want to hire 
but they can't find employees right now. Forty-three percent, 
it is a pretty huge number. But yet last month, unemployment 
went up a little bit. I know businesses are closing early 
because they have a lack of employees.
    So, my question is do you think government has any role in 
this, or have we inadvertently had a negative impact here? Dr. 
Bauer, I know you were suggesting otherwise in your testimony, 
but I am curious of your thoughts.
    Dr. Bauer. Yes, I both suggest otherwise and the evidence 
suggests otherwise.
    SNAP is a program that stimulates the economy, helping to 
turn the tide from contraction to expansion so every dollar 
that the Federal Government and SNAP generates more than a 
dollar, more like $1.50 or $1.70 in local economic activity. 
One of the reasons that SNAP is so effective is because of the 
way that it is targeted to families that need the benefit and 
want to spend those benefits quickly. And so, SNAP is an 
integral part of getting the economy back on track.
    Mr. Bacon. Dr. Boynton-Jarrett, what are your thoughts? We 
have 43 percent of businesses wanting to hire, yet unemployment 
went up. Has government inadvertently caused that? Thank you.
    Dr. Boynton-Jarrett. Thank you so much for the question. I 
want to echo the comments of Dr. Bauer that SNAP really boosts 
local economy. It supports local farmers, small businesses, all 
size food retailers.
    So, there was a study done by the USDA that showed a $1 
billion investment in SNAP would lead to nearly 500 new 
agricultural jobs, and over $32 million in revenue for the 
agricultural industry. So, if you have ever seen a child who 
has used their--like what we call them locally as Bounty Bucks 
to get--try a mango, try fresh fruits and vegetables, to get 
collard greens at the local farmers' markets. Schools do it, 
families do it, and it is so encouraging for children.
    But I have another piece to the response. So, as of 
December 2020, 13 percent of child centers and family care 
homes remained closed. We know high quality childcare is 
essential for women, mothers, and primary caregivers to return 
to the workforce. This is our key structural responsibility 
that must be met with policies that provide safety for early 
care and education providers, as well as prioritize high 
quality and accessible childcare so that children can be 
healthy and develop well.
    Mr. Bacon. Thank you, Dr. Boynton-Jarrett.
    I have to give Dr. Whitford a chance. I have 30 seconds 
left.
    Dr. Whitford?
    Dr. Whitford. I just want to say four words to remember, 
``No way'' and ``Hell no.'' Now, these were the words spoken by 
two individuals just recently at our mission when they were 
approached, and I said, ``Hey, how are things going?'' The one 
guy said, ``Well yeah, everything is going great.'' I said, 
``Are you employed?'' He said, ``No way,'' and then began to 
tell me how he thought that employment would actually hurt the 
benefits that he is receiving. I shared that in a staff 
meeting. One of my directors said that is interesting. I had 
another conversation with another person, and they said almost 
something very similar. They said hell no. Now, one of those 
guys actually pulled out his food stamp card when I was meeting 
with him and he said, ``They put $300 on this card last month. 
I don't even know what I'm going to do with it.'' Then he said 
I think I will go down and buy some----
    The Chairwoman. All right, Dr. Whitford. I am sorry to cut 
you off, but the gentleman's time has expired.
    Dr. Whitford. Okay. That is not any way to stimulate the 
economy.
    Mr. Bacon. Thank you, Dr. Whitford.
    I yield back.
    The Chairwoman. Thank you so much.
    Before I recognize the next witness, I just want to add 
that while the economy is starting to recover as businesses 
reopen, there are still eight million fewer jobs than there 
were before the pandemic, and jobs are down more than twice as 
much in low-paying industries compared to those that pay more. 
The majority of jobs lost because of the pandemic were in 
industries paying low to average wages, and not providing 
health coverage. The very jobs that many of our public benefit 
recipients work.
    Also, there is the issue of childcare. So, there is so much 
to consider when we talk about unemployment and the economy and 
returning to work.
    I now recognize the gentlelady from North Carolina, Ms. 
Adams, for 5 minutes for your questioning. Ms. Adams, can you 
please unmute and begin your testimony?
    Ms. Adams. Thank you, Madam Chairwoman. Can you hear me?
    The Chairwoman. Yes, ma'am.
    Ms. Adams. Great. Thank you so much to you and the Ranking 
Member for hosting the hearing today. Thank you to our 
witnesses as well for their testimony. I am delighted that we 
are having this discussion.
    Right now, 16.6 percent of households and 22 percent of 
households with children in the U.S. are facing food 
insecurity. In my state alone, 1.5 million people currently 
depend on SNAP to put food on their tables. And in the county 
that I represent, there are more than 150,000 people receiving 
SNAP benefits, which is an increase of more than 50,000 since 
March of last year. So, it is clear that there is a hunger 
crisis in our nation and while SNAP is a critical lifeline to 
families, the current benefit level is not simply inadequate. 
The average benefit is only $1.40 per person per meal, and so 
that is why soon I am going to be reintroducing the Closing the 
Meal Gap, which permanently increases benefits by 30 percent, 
and eliminates the time limit on benefits because working hard 
is just not enough if you don't make enough. I know that 
firsthand. When I was a student raising two children on my own, 
I depended on SNAP to put food on my table, and I might not be 
here today if I didn't get that help when I needed it.
    So, as you know, the COVID-19 pandemic exacerbated the 
difficulties faced by those with the least, including people 
receiving SNAP.
    So, my question is, do you think that flexibilities such as 
telephonic signatures, face-to-face interview waivers, and 
automatic extensions of the certification periods were 
significant contributors to the success of local governments 
managing a large influx in enrollees, and ensuring that the 
program continued to run smoothly during the pandemic and do 
you believe that it would be beneficial for some or all 
flexibilities, if they were made permanent?
    Ms. Wilson?
    Ms. Wilson. I apologize. I had to unmute my camera.
    Ms. Adams. I understand.
    Ms. Wilson. I don't believe that assistance should be made 
permanent; however, I do believe that they should be based off 
of a sliding scale fee. I need to go back to the previous 
speaker before you who had stated that somebody said hell no, 
he is not going to get a job because of the benefits.
    Well, I will tell you as a mother, the one thing that I am 
fully aware of at all times is how much money I make, because 
if I make $1 more than what SNAP assistance says that I can 
make, which is $2,300 a month gross, to raise two children, I 
will lose $500 a month assistance in SNAP benefits. So, $2,300 
a month minus taxes will not even pay my rent and my electric 
bill, and that is a very terrifying thing.
    Ms. Adams. Yes. Go ahead.
    Ms. Wilson. No, please, if you had another question, please 
go ahead because I was----
    Ms. Adams. Well, I just want to comment that what you said 
in your testimony really did hit me hard, that throughout your 
life SNAP has been the only reason that you and your children 
have had the ability to eat like normal human beings should 
eat. And of course, that is a message our Committee, and more 
broadly, Congress needs to hear.
    In my district here in Mecklenburg County, families utilize 
SNAP each month to keep food on their tables, and I know how 
critical that these programs are, and they are a lifeline to 
families who are struggling. So, can you talk a little bit 
about the importance of the program to your own family, and to 
ensuring that you can put food on your table, and how has it 
helped you get by during these difficult times?
    Ms. Wilson. Absolutely. Growing up in poverty, SNAP has 
been a huge lifeline for me, especially growing up as a child. 
There are several times in my life that I have done productive 
actions in my life, trying to make sure that my children grew 
up in a different lifestyle. There are a lot of times that I 
have needed SNAP benefits to help me get to where I am going in 
life.
    Before the pandemic, I did not need SNAP assistance because 
SNAP had assisted me throughout my lifetime to get to a 
position in my life where I can provide for my children.
    Ms. Adams. Okay, thank you.
    Dr. Whitford, in your testimony you imply that SNAP and 
Federal assistance programs of charity have no place in 
government. I respectfully wholly disagree. SNAP and our 
Federal safety net programs are a hand-up, not a hand-out, and 
many of us on this Committee once utilized the program.
    So, do you believe that private charities and nonprofits 
could immediately and effectively provide for the 42 million 
Americans who are currently supported by SNAP?
    Dr. Whitford. That is a great question.
    [The information referred to is located on p. 69.]
    The Chairwoman. Unfortunately, the time has expired for the 
answer, but you can submit the question in writing so that you 
can share your response for the gentlelady from North Carolina.
    Ms. Adams. Great. Thank you, Madam Chairwoman. I yield 
back.
    The Chairwoman. Thank you. Thank you so much for your 
testimony.
    At this time, I call on the gentleman from Arkansas, 
Representative Crawford. If you are----
    Mr. Crawford. Yes, ma'am.
    The Chairwoman. Oh, there you are. If you can unmute and 
ask your questions.
    Mr. Crawford. Thank you.
    I think we can all agree that SNAP is a useful tool for 
those in need. I would say, though, that if it were the be all, 
end all of nutrition requirements, we probably wouldn't be 
having this hearing today. I think that we wouldn't need food 
banks if SNAP was performing at peak level and answering all 
the nutrition needs of the food-insecure. And so, there are 
some issues that I think are fair game and should be talked 
about.
    And we also know that the administration of SNAP benefits 
oftentimes are not effective, and I will use that as a kind way 
of saying that sometimes they are mismanaged.
    But my point is this. I haven't heard a heck of a lot of 
talk about the benefits of food banks and we are talking about 
the need for nutrition in the context of healthy foods, fruits 
and vegetables, fresh foods and things like that. In many cases 
in food deserts, our constituents rely exclusively on 
convenience stores where they are, by definition, consuming 
almost exclusively processed foods. So, their nutrition is 
compromised as a result, and it is because in those remote 
areas like in the first district of Arkansas that I represent, 
sometimes you just can't get a grocery store in some of these 
smaller towns. It is just cost prohibitive.
    I am just wondering if anybody wants to weigh in on how we 
reach these remote areas, rural communities that don't have the 
resources? How do we reach them with nutritious foods like 
fresh fruits and vegetables and other proteins, in a meaningful 
way that makes them less reliant on processed foods? That seems 
to me to be a problem.
    And then another question that has come up is this benefits 
cliff that we talk about. I am still looking for someone to 
help us figure out why we don't taper those benefits to match 
your income? If you are in the situation where you rely on 
benefits and you walk right up to the edge of that cliff on 
your job, but you are afraid to go any further because you are 
about to lose all those benefits, and so, that constrains you 
from being able to advance in your career for fear that you are 
going to lose any help that you might receive. I would think 
that we would need to match benefits proportionately and 
inversely proportionate to your income, so that you can make 
your way off of that, taper those benefits down, and obviously 
it is the end goal being that you don't need that, and now you 
can allow others to come in and benefit from those programs and 
repeat the process as it is necessary. I don't think we have 
had meaningful conversations about how we taper those benefits 
off, how we encourage and incentivize more consumption of fresh 
fruit, vegetables, and other protein sources. What are we doing 
to educate consumers about how to prepare more nutritious meals 
so they can benefit--and these taxpayer resources that are 
expended to help meet those nutritional requirements can then 
be done in a more efficient and effective manner?
    And so, in the last minute and a half that I have, anybody 
wants to weigh in on that, I am going to stop and I am all 
ears.
    Dr. Bauer. So, just very quickly. In terms of rewarding 
work through the SNAP Program, as I said, on your way to the 
benefit cliff, actually work is quite rewarded and total 
household resources increase as you take on extra hours, as you 
get a raise, in fact, as you enter the workforce. It is better 
to be on SNAP and working than it is to not.
    In terms of tapering off the benefit cliff, broad-based 
categorical eligibility is the primary mechanism that we do 
that now, and that is the strategy going forward.
    In terms of improving nutrition, all of our best research, 
including federally and Congressionally mandated randomized 
controlled trials so that increasing benefit adequacy is how 
families purchase more dark leafy greens and fruits and 
vegetables. Families know what they want to buy. They need the 
resources to do it. And so, increasing benefit adequacy will 
improve nutrition and diet quality.
    Mr. Crawford. Well, I appreciate the input. I wish we had 
more time. I have 10 seconds left, enough time to say thank 
you, Madam Chairwoman, and I will yield back.
    The Chairwoman. Thank you so much, Mr. Crawford, and I am 
encouraged by your testimony. It sounds like an area where we 
can find some bipartisan collaboration, because the program is 
already means tested. However, the benefits have been found to 
be too small. So, we want to encourage work and want to support 
people as they are stabilizing their families and getting back 
to work. I look forward to having some productive discussions 
on this Committee on that very topic.
    With that, I will now recognize the gentleman from 
Illinois. Mr. Rush, if you would unmute your microphone and 
begin your testimony.
    Mr. Rush. I want to thank you, Madam Chairwoman. This is 
really an exceptional hearing, and at my church, Madam 
Chairwoman, we have two sayings. ``You can't teach what you 
don't know'' and ``You can't lead where you won't go.''
    Your testimony this morning certainly was indicative of the 
type of leadership for this Subcommittee that you want to 
exhibit. I have always thought, if you want to be a shepherd, 
then you have to smell like sheep. And so, Madam Chairwoman, 
again, thank you.
    Ms. Wilson, Ms. Davis, thank you for the courage of your 
testimony. Your stories, in many ways, reminded me of my own 
childhood, and the lengths that my mother went to on behalf of 
me and my family. My mother taught school. My mother was a 
beautician, a business owner, and she took college courses on 
the side. My family was always on the edge financially, and at 
times, we depended on government benefits, the AFDC, and 
others. My mother worked hard to provide for her family, as do 
both of you, and as do millions of other families and other 
mothers on SNAP.
    Food security is also personal to me for other reasons. In 
the early 1970s, I helped create and administer the Free 
Breakfast for Children Program in Chicago as a member of the 
Black Panther Party. In 1972, throughout our nation, the Black 
Panther Party was feeding 25,000 children free breakfast every 
morning before they went to school. All that is to say that I 
understand firsthand the importance of food security programs.
    It is clear to me that we have much work to do. The 
pandemic exacerbated already existing hunger issues. In 
Illinois, 22 percent of kids in Cook County and 17 percent of 
children in Will County faced food insecurity in 2020. That 
number is far too high, and Madam Chairwoman, it goes without 
saying that I stand ready to work with you to alleviate these 
issues.
    Dr. Bauer, it is disheartening for me to see the high 
percentage of Black and Hispanic adults who responded that 
sometime often the case that in the past week: ``the children 
in my household were not eating enough because we just couldn't 
afford enough food.'' I am working on programs to eliminate 
that program by covering hot or prepared food. Can you describe 
how this change will help reduce food insecurity?
    Dr. Bauer. Sure. So, anything that is going to make food 
more affordable helps benefits stretch more, but I think that 
it is a combination of programs that is going to improve food 
security among children over the coming year.
    The devastation of school closures meant the loss of 
prepared school meal programs and Congress, in its wisdom, 
passed the Pandemic EBT Program. And my research found that 
pandemic EBT reduced very-low-food security among children by 
30 percent in the week that it went out. Its reauthorization, 
and now it is really rolling out the door, and that is going to 
do a tremendous amount.
    It also makes sense that we always know that schools are 
closed in the summer, and converting pandemic EBT into summer 
EBT for this summer is well validated and research- and 
evidence-based, and the combination of prepared meals and 
additional EBT benefits targeted to kids----
    Mr. Rush. Dr. Bauer, I have another question I need to ask 
you, and my time is running out.
    Ms. Wilson, Ms. Davis, in your testimony and in your 
experience, does SNAP provide enough flexibility to provide 
necessities for your families? Are there any changes in regards 
to the flexibility of SNAP that you recommend?
    Ms. Wilson. The only thing that I would recommend within 
SNAP is that they work on a sliding scale fee so that I didn't 
have to worry about a dollar amount that I made that would take 
$500 a month away from my children. I budget my $500 a month 
into 4 weeks, and I know how much of it I can spend every week 
to make sure that the SNAP benefits provide for the entire 
month. But if I make $1 more than the allotted amount of money, 
they take $500 away from me. If it worked on a sliding scale 
fee, then they took away 50 for every extra dollar that I 
made, I would be able to more work myself off of SNAP benefits.
    Mr. Rush. I yield back, Madam Chairwoman.
    The Chairwoman. Thank you so much, Representative Rush.
    At this time, I would like to recognize the gentleman from 
Tennessee, Mr. DesJarlais. If you would unmute your microphone 
and please begin your questions for the witnesses.
    Mr. DesJarlais. Yes, ma'am. Thank you, Madam Chairwoman.
    First, I want to thank all of our witnesses today for 
taking time to share their stories with us. Your experience and 
knowledge play an important role in helping this Committee do 
its job, and I appreciate the chance to hear from all of you, 
even if it is virtually.
    I will say, it is a good day when we are finally having a 
discussion about moving past the pandemic, and we are all ready 
to get back to a sense of normalcy.
    As we have these conversations today, the most frequent 
complaint I am hearing from businesses and employers in my 
district is the lack of applications and subsequent inability 
to hire. This frustration spans across all industry, from steel 
work [inaudible] and we have touched on that a bit today. We 
have heard today in several testimonies that people don't want 
to work for fear of losing benefits, because for many, this is 
all they have ever known. But also, I agree with the sliding 
scale approach as opposed to the cliff, because that does seem 
punitive.
    Dr. Whitford, you have firsthand experience at helping get 
people back in to work. Could you share some of those thoughts 
as we come out of COVID-19, and businesses are desperately in 
need of workers, and what can this Committee do to encourage 
people to seek out employment and take steps towards self-
sufficiency?
    Dr. Whitford. Well, it really--for us, it is inspiration 
and relationships. So, people come in our doors and we are 
immediately recognizing every individual as a person made in 
the image of God, and so, there is a natural tendency for all 
of us to create and be productive. And so, what we found is 
that it is best to just take a person up on that right as they 
are coming in the doors and begin to have them helping with 
whatever they can, and that is where our Worth Shop comes in. 
And what we found is that out of our--just out of our emergency 
shelter alone, typically we are able to see an employment rate 
out of our shelter of about 60 percent, which is great when you 
consider that people coming in don't have a job at all. And we 
really do believe that that has to do with how we are engaging 
the person as soon as we see them, and allowing them to begin 
to earn things that they need.
    A lot of people have not realized that they have the 
ability that they have, and it requires relationship, 
encouragement, and inspiration, all the things that the 
private-sector is so good at doing when it comes to charity 
work. And that is really the key to helping people get back 
into work, but it has been a problem of late. It has been very 
difficult, and again, it is one testimony after another that I 
have of people who have felt like they are held back. They are 
fearful, really. They are fearful. It is a true thing. I mean, 
the welfare cliff is a fearful thing, and when you become 
dependent upon it, it is really hard to break free from it. And 
that is what we found.
    So, I think that one thing that we could do, if you wanted 
to help mission leaders like me who are trying to help people 
get back to work, we really do need to regard this idea of 
subsidiarity. It is this--from back in an encyclical written by 
Pope Pius XI, Quadragesimo anno, and he says: ``Just as it is 
gravely wrong to take from individuals what they can accomplish 
by their own initiative and industry and give it to the 
community, so also it is an injustice and at the same time a 
grave evil and disturbance of right order to assign to a 
greater and higher association what lesser and subordinate 
organizations can do.'' In other words, there are concentric 
circles of help that should exist, and when the Federal 
Government is doing that work for my neighbor in need, it 
disrupts things that are not going to allow us to build the 
relationships that we need to, and inspire and encourage people 
to get a job.
    Mr. DesJarlais. I appreciate your testimony.
    Madam Chairwoman, it looks like--okay, I see the clock is 
moving. It looked like it got stuck. I got a little bit of time 
left.
    Dr. Whitford, you had mentioned in your testimony instances 
of individuals selling their SNAP benefits for 50 on the 
dollar as well as able-bodied individuals willing to work, but 
only under the table so as not to interfere with their SNAP 
eligibility.
    It goes without saying, that is not how these benefits are 
intended to function. Could you talk a little bit about that, 
and specifically any changes that would help the program 
function as intended as a temporary handout to those who need 
it most with the end goal being self sufficiency and not a 
lifetime of government dependency? I think you have about 45 
seconds.
    Dr. Whitford. Well, we have to get as close to the problem 
as possible. Again, going back to this idea of a neighbor 
knowing his neighbor best, we really do have to allow for--my 
recommendation would be let's start with letting the states 
actually administer these programs, and we would be able to 
work--I would be able to work with my legislators in my state 
to see if we could do some things that would actually improve 
how the program is working and how we could actually help 
people get where they want to be.
    So, that is, again, we are just seeing a continuous problem 
of people that are getting hung up. Much of it is a fear factor 
and dependency.
    Mr. DesJarlais. Thank you. I yield back.
    The Chairwoman. Thank you so much. As I am listening to the 
testimony, I am reminded that the scripture also says: ``When I 
was hungry, you gave me something to eat, I was thirsty and you 
gave me something to drink, I was a stranger and you invited me 
in, I needed clothes and you clothed me.'' So, that is also a 
part of our responsibility.
    With that, thank you so much for your testimony. I think 
the next--is Mr. Sablan on? No, he is not.
    So, we will move on to the next Member on this side. I now 
recognize the gentleman from California. Mr. Carbajal, if you 
will unmute your microphone and begin your questioning.
    Mr. Carbajal. Thank you, Madam Chairwoman.
    Let me just start by saying how I personally know how 
critical food assistance can be for families. When I was young, 
these programs actually helped reduce the financial barriers 
for my parents who were struggling to get by, making minimum 
wage working as farmworkers, my father was. They worked so hard 
to give my siblings and I a better way of life. It wasn't for 
the lack of not working. He was working 6, sometimes 7 days a 
week, but it was difficult making ends meet.
    I was fortunate to have had an opportunity to graduate from 
a great university--first attend university, then graduate, 
serve our country in the Marine Corps, serve my community in 
local government, and now in Congress.
    Ensuring that all children have consistent access to fresh 
and nutritious food year-round is critical for our kids to be 
able to grow up healthy and prepare for any career they might 
choose, including maybe even serving in Congress.
    Dr. Boynton-Jarrett, how can the SNAP Program be enhanced 
and modernized to incentivize families with children to 
purchase and incorporate fresh and nutritious food consistently 
in their diet?
    Dr. Boynton-Jarrett. Thank you so much for your remarks and 
for sharing your story, and the invitation to this question.
    The work that I do with Vital Village Network really arises 
from the question you shared. I am trained as a pediatrician. I 
should be in a clinic right now, but you know what? We spent 
$8.3 trillion on healthcare last year. The vast majority is 
spent on treating chronic illnesses. There actually is strong 
evidence to show that SNAP is a benefit that actually helps 
prevent the development of metabolic syndromes in adulthood 
which are associated with diabetes, cardiovascular disease, 
obesity, and overweight. So, there are tremendous benefits to 
the early childhood investment. Investing in nutritious food, 
reducing stress and distress experienced by parents, and really 
calling hunger what it is.
    I don't know of a single person who experienced chronic 
food insecurity or hunger that doesn't remember what that felt 
like. We actually can consider chronic food insecurity and 
hunger an extremely adverse experience and potentially 
traumatic experience.
    So, it is really my belief that we need to work much more 
collaboratively to build a more resilient food system, and SNAP 
is a big piece of that. But also, really engaging parents and 
members of the community in helping to modify the policies so 
that it doesn't do the things that Ms. Wilson and Ms. Davis 
have shared around creating higher degrees of stress, higher 
degrees of anxiety by removing benefits as folks become 
socially mobile and advance.
    Thank you.
    Mr. Carbajal. Thank you, Dr. Boynton-Jarrett. I am just 
trying to get a couple other questions in there, so thank you 
very much.
    Ms. Wilson, I really appreciate your courage to share your 
personal story with us. Nobody wants to be dependent on public 
assistance and I appreciate your sharing your story with us. I 
also appreciate my colleague, Mr. Crawford's, comments about 
how we can work to develop a better system where we don't 
penalize people, because it would be foolish for somebody who 
is going to be a few dollars away from being cut off to want to 
give up that benefit when you really rely on that. I know that.
    So, the question should be how do we help people transition 
or enhance their quality of life without penalizing them? And, 
we need to do better in that respect. So, I appreciate 
Representative Crawford's comments, and I sure hope that I can 
work--we can work together to address this issue as the 
Chairwoman also said earlier.
    One of the main ways we can make sure that SNAP fulfills 
its mission to fight hunger is to ensure that the benefit is 
adequate. Often, SNAP recipients still rely on food banks and 
other supports to make ends meet for their families. Like much 
of our country, rural areas in my district on the Central Coast 
face specific challenges, such as cost to travel to get food or 
other hardships.
    Dr. Bauer, how can we make sure that SNAP allotments 
reflect the time and financial costs families face to purchase 
their groceries, and what other changes would you recommend to 
make sure families have a benefit adequate to meet their needs 
for food?
    The Chairwoman. Thank you. I am sorry, Dr. Bauer, before 
you begin to answer, the time has expired, so we will send that 
question and you can submit a written answer for the record, if 
you don't mind.
    Mr. Carbajal. Thank you, Madam Chairwoman. You are right, I 
am out of time. I yield back.
    The Chairwoman. Thank you. Thank you so much.
    I now recognize the gentlelady from Missouri, Mrs. 
Hartzler. If you would unmute your microphone and begin your 
questioning.
    Mrs. Hartzler. Thank you, Chairwoman Hayes, and thank you 
for each of our witnesses here. I appreciate the insights and 
the heart that you all have to try to make everyone have a good 
life and have food.
    Dr. Whitford, I appreciate your heart and your story of you 
and your wife and the ministry that you started and dedicated 
yourself to right here in Missouri. I know that a lot of 
ministries and a lot of organizations are moving past just 
providing food, and including moving on to the workforce 
development and other things in order to help people succeed in 
life. Could you expand a little bit on how you are helping 
individuals in your ministry connect to work and to a better 
life?
    Dr. Whitford. Yes, absolutely. Thank you.
    So, we have a program called Forge, it is a center for 
virtue and work, and this is a long-term program that is 
focused on character development and work readiness. It really 
is a workforce development program.
    So, we have different tracks. Maybe somebody who doesn't 
have their GED begins to work on that. If not, they go toward a 
national career readiness certification track, if they already 
have their GED. They go through a lot of classes like 
stewardship and economics, government and legal living, healthy 
living, seven steps to Christian maturity, and the like, and 
then they move more into their work ready phase, and that 
includes things like doing functional capacity evaluations to 
determine what a person is able to do. We go through 
personality assessments. We do computer literacy training, mock 
interviews, resume writing, and a lot of other things that go 
along with that, getting ready to go into the workforce. And 
then those individuals will bridge into our community of 
partnerships really with local employers, and know that they go 
through a season of coaching. It is an internship of sorts for 
8 weeks, and many of them end up right there because as you 
know, base employment is a great need these days, and a lot of 
employers are just looking for folks who will show up to work 
on time and be ready to go and be consistent and reliable. And 
that is certainly one of the things that we are doing in our 12 
to 15 month long-term program.
    Mrs. Hartzler. That is wonderful. So, it sounds like a 
workforce development program that you have established 
yourself. Are you working with any government programs or are 
these all just generated within your own organization?
    Dr. Whitford. Well, certainly there are some clients that 
we are engaging who are receiving some help from other 
government organizations, but we really have decided we want to 
try to do as much as we can from a voluntary basis from the 
private-sector, engaging our local community to be involved on 
a volunteer level. And so, we have developed a lot of things 
that there might be analogous government counterparts, but I 
just believe that the private-sector can do an incredible 
amount if given the opportunity.
    Mrs. Hartzler. There was a wonderful powerful scripture 
shared a minute ago that I know all of us take to heart, but 
can you just clarify when Jesus was talking about how we should 
feed the hungry and clothe them and your brother in need. Was 
he saying that the government should do that, or who was he 
saying should do that?
    Dr. Whitford. Well, no, he was talking to individuals and 
that is the key point to be made. In fact, the name of our 
ministry, Watered Gardens, comes out of Isaiah 58 where God is 
speaking to his people to be really charitable, to feed and to 
clothe and to shelter. But in Isaiah 58:10, God says ``If you 
will extend your soul to the hungry.'' So, He wants us to do 
more than feed. He really wants us to develop relationships 
with people. ``If you will extend your soul to the hungry, . . 
. You shall be like a watered garden, And like a spring of 
water, whose waters do not fail.'' It is a beautiful passage.
    Mrs. Hartzler. Absolutely.
    Have you talked to any other entities across this country 
about your program to replicate it? I know that you are serving 
a four-state region, but we need to have programs like yours 
all over.
    Dr. Whitford. Yes, right now we are talking with leaders in 
different communities around the nation to consider even our 
Worth Shop model. Could that be something that as a 
collaborative that could occur in a community where 
organizations, churches, missions could refer people as a way 
to restore dignity and give an opportunity for people to earn 
what they need.
    Mrs. Hartzler. Great. I appreciate your work and your 
heart, and thank you very much.
    I will yield back.
    The Chairwoman. Thank you so much, Mrs. Hartzler, and thank 
you for that lesson in virtue, because again, I agree that 
Jesus was talking to the people and we are a government of the 
people, for the people, by the people who represent the people. 
So, we are those people.
    With that, I will now recognize the gentlelady from New 
Hampshire. Ms. Kuster, if you will unmute your microphone and 
begin your questions.
    Ms. Kuster. Thank you, Madam Chairwoman. I am so grateful, 
and while I appreciate the discussion on virtue, I do want to 
reorient the Committee back to the task at hand, which is the 
incredible opportunity, but also the obligation, to care for 
those in need in our community. And in my case, that includes 
this important government program to feed children, because of 
a heartbreaking pandemic.
    Food insecurity is plaguing my state, and while I 
appreciate the role of the churches, I think that we as the 
government certainly have an important role in this as well to 
ensure equity and to make sure that everyone is kindly welcome 
as we do in New Hampshire.
    I want to take this opportunity to elevate SNAP, because 
this program has never been more essential than it has been in 
the past year. COVID-19 has exacerbated food insecurity. In my 
district and across our state, approximately one in seven 
people, including one in five children, have been struggling 
with hunger during the pandemic. And thankfully, Federal 
nutrition programs like SNAP have been providing critical 
support to families, both during, prior to, and after COVID-19.
    Let's remember that SNAP is not a luxurious program. In 
2019, the average SNAP benefit for recipients in my state was 
approximately $1.22 per meal, and I would certainly challenge 
anyone on this Committee to make a meal, a nutritious meal, for 
$1.22. But even that modest amount can make a difference when a 
family has to pinch pennies to put food on the table every 
night, and I appreciate our witnesses, and indeed, our Members 
on the Committee talking about their own personal experience 
with supplemental nutrition.
    As the pandemic rocked our economy, many had to rely on 
SNAP for the very first time, and I participated in food drives 
and in the distribution of food during COVID, and met many 
families who were in line to pick up food for the very first 
time. To keep up with this need, I have been proud to champion 
increases in food assistance programming in the COVID response 
packages passed by Congress. We must also continue to 
destigmatize participation in SNAP. Each SNAP participant has a 
story, from serious health ailments to the lack of affordable, 
accessible childcare, to the lack of jobs in an economically 
hard-hit region, and all of these challenges, and many more, 
represent broader problems that deserve the attention of 
Congress.
    But in the meantime, Americans still need to eat. Efforts 
to cut or weaken SNAP, in my view, are simply cruel. No one 
should have to go hungry in America. SNAP is a critical 
lifeline to those who need modest support feeding themselves 
and their families.
    On that note, Dr. Boynton-Jarrett, thank you for sharing 
your knowledge and expertise with us today. I appreciated your 
description of the multiple challenges that face low-income 
mothers and children during the pandemic, and I am particularly 
interested in your views of a trauma-informed approach. I am 
the founder and co-chair of the bipartisan taskforce to end 
sexual violence, and I spent years advocating for first 
responders, courts, and other stakeholders to have a trauma-
informed approach to avoid re-traumatizing survivors.
    Dr. Boynton-Jarrett, can you elaborate about how your 
trauma-informed approach works in relation to food insecurity 
and Federal nutrition programs, and what your recommendations 
are?
    Dr. Boynton-Jarrett. Thank you for the question, and I am 
honored to answer this question. It is critically important, 
and it really begins with science. We understand that chronic 
and cumulative adversities, particularly in early childhood, 
have a critical impact on the developing bodies and brains of 
children.
    If we think about chronic food insecurity, which often is 
associated with housing insecurity, inadequate or insufficient 
or low-quality childcare, poverty, and a number of adversities, 
we are actually--we also actually have evidence that investing 
in mitigating and preventing those early childhood adversities 
have numerous impacts on health, developmental, and life 
course, so who people will become as adults. Will they go on to 
higher education? What skills and capacities will they bring to 
parents, and how will they engage in our economy in productive 
ways in the future?
    Frederick Douglass said it is easier to build strong 
children than to repair broken men, and that is what we are 
talking about. Why would we ever allow a child to go hungry or 
to be denied a benefit? So, a trauma-informed approach really, 
one, understands that neuroscience, and then says well, wow, 
our food system is not resilient. It is insufficient----
    The Chairwoman. All right, Dr. Boynton-Jarrett, I have to 
cut you off.
    Ms. Kuster. Thank you, and I yield back. Thank you so much.
    The Chairwoman. Thank you. I am sorry about that.
    I now recognize the gentleman from Indiana, Mr. Baird, if 
he is on.
    Mr. Baird. Thank you, Madam Chairwoman. My camera should be 
up, and so----
    The Chairwoman. Your camera is not on, sir. You have to 
turn on your camera first.
    Mr. Baird. Okay.
    The Chairwoman. There you go. Thank you. I now recognize 
you to ask your questions.
    Mr. Baird. So, my question really goes to----
    The Chairwoman. Just a minute. Do we still have the timer? 
Your camera just went off again. There you go. Okay. I now 
recognize Mr. Baird.
    Mr. Baird. Okay. So, what I really want to know, Dr. 
Whitford, is a lot of programs start off with being food 
distribution, and then later they move into other areas. How 
have you been able to look for making access to other 
supportive organizations with regard to helping [inaudible]?
    Dr. Whitford. Representative Baird, I am so sorry. You will 
have to re-ask the question. You were cutting in and out. I 
just couldn't get it.
    Mr. Baird. Okay. A lot of organizations start off 
distributing food. Can you hear me now okay?
    Dr. Whitford. Yes, I can.
    Mr. Baird. Okay. They start off distributing food, and then 
they move and evolve into additional identification and 
assistance with helping those individuals on the SNAP Program 
with other areas that are beneficial and helpful. So, would you 
care to elaborate on how you have looked for ways to help 
individuals, not only because of the SNAP and the food issue 
which is extremely important, but then how to look for other 
sources of benefit and help? Did that come through okay?
    Dr. Whitford. Yes, I think so, and I hope I understand your 
question correctly.
    One of the things that we have really worked hard on is a 
collaborative model in our community. So, many years ago, I 
launched an online networking tool in our city that we actually 
help other communities get connected with now too where 
organizations are sharing information, not only just on 
individuals that they are helping so that we can better 
understand how to steward our resources more effectively and 
target our charity more accurately, but it also allows us to 
know what is being offered in the community and what would be 
the next best source of help for an individual.
    So, again, there is no one--I think we should get away 
from, like, a one-stop shop idea. In this day and age, we don't 
need to be thinking in centralization of services. I really 
believe that we can connect together, using technology that is 
available, and be able to operate more cohesively as a unit in 
a community. Because although Watered Gardens, my ministry, 
does a lot of different stuff, we don't cover every base. And 
so, there is a need to collaborate with other organizations.
    I hope that answers that question.
    Mr. Baird. Yes, it does.
    I guess I would like to move to Ms. Davis and Ms. Wilson. I 
really appreciated them sharing their stories. So, as a Member 
of this Committee, I would like to have their perspective on 
how we might improve the program.
    Ms. Davis, if you want to start?
    Ms. Davis. I would say to improve the program is the person 
you are assigned to works more with their person. So, I was 
assigned somebody, but I didn't really talk to them. It was 
more transferring papers. I didn't know my food stamps were cut 
off. I didn't get the letter until a month later, and I needed 
my card. So, for them to ease the process of you slowly not 
getting your food stamps, that communication, that is what I 
would say needs to improve.
    Mr. Baird. Fine-tuning the efficacy and the efficiency of 
the delivery system, is that----
    Ms. Davis. Right. So, we can adjust to get our minds 
prepared to not have it anymore, because luckily I had support 
to help me pay for stuff, but because I didn't know, I was 
struggling and I was crying, and I had to decide, like, am I 
going to keep going for my dream, or am I going to stop and try 
to stay on it until I am still comfortable enough to go out 
there again? And luckily, I had support to go ahead and 
continue on what I was doing. So--but a lot of people are not 
fortunate about that--with that.
    Mr. Baird. Well, thank you for that information.
    Madam Chairwoman, do I have time----
    Ms. Wilson. If I may step in for a second? If I may step in 
for 1 second, I think what Ms. Davis is trying to say is that a 
taper off effect would be way more essential to the government 
process than just a cut off.
    If I may note, there are two chairmen on here who have now 
noted that government assistance has put them where they are 
today. Government assistance gave their families the ability to 
support them and push them to be more productive members of 
society, which puts them in the position that they are today.
    But, what Ms. Davis was trying to say is a taper off effect 
would be way more effective than just making a specific dollar 
amount and being cut off from a several hundred-dollar amount 
of providing food for her family.
    Mr. Baird. A scalable situation is what you are really 
suggesting, isn't it?
    Ms. Wilson. Yes, sir.
    Mr. Baird. To scale a dollar amount, yes.
    Well, thank you. I appreciate all of the witnesses being 
here, I appreciate the opportunity to serve on this Committee, 
and I yield back, Madam Chairwoman.
    The Chairwoman. Thank you, Representative Baird for your 
thoughtful questions.
    I now recognize the gentleman from California, Mr. Panetta. 
If you would unmute and ask your questions.
    Mr. Panetta. Understood. Thank you, Madam Chairwoman. I 
appreciate this opportunity. Let me thank all of the witnesses 
for your time, for your preparation, for your willingness to 
share not just your expertise, but your life experiences with 
us today. So, thank you very much.
    Once again, I am Jimmy Panetta. I represent the Central 
Coast of California, just above my colleague, Salud Carbajal's, 
district. In my district, we have a lot of bounty. Agriculture 
is the number one industry. We have a lot of specialty crops, a 
lot of fresh fruits and vegetables, and unfortunately, 
technology hasn't caught up with the way of how you harvest 
that, so we need a lot of people to do that.
    However, we don't just have bounty here, we have a lot of 
beauty, too. So, that makes it a little bit expensive--
actually, a lot expensive--to live here on the Central Coast. 
And that is why a lot of the people that put food on our table 
that are surrounded by fresh fruits and vegetables every day--
it doesn't necessarily mean that those people have access to 
those same fresh fruits and vegetables.
    Now, long before the pandemic, the very farmworkers that 
put that food on our table provided us with that food security 
throughout the pandemic, struggled disproportionately with 
hunger in 2019. What I mean by that, nearly nine percent of my 
constituents relied on SNAP. However, over the past year as we 
have seen throughout the country, in my district, especially in 
the Salinas Valley, one in four children were food-insecure. 
And by the end of last year, household food insecurity spiked 
to about 35 percent in certain parts of my district.
    Now, I saw it firsthand when I would go out and volunteer 
at the food banks and hand out the food, and seeing the growing 
lines pretty much in all parts of the Central Coast. But what I 
have realized and what I believe is that we couldn't food bank 
our way out of the pandemic--and we cannot food bank our way 
out of hunger.
    And so, I am grateful that we have finally increased SNAP 
benefits by 15 percent through the end of September, but we are 
obviously going to have to work to do more to prevent a Federal 
food cliff come that day.
    Now, I believe we need to look to the future and to see how 
we can improve SNAP, not just as a response to the pandemic, 
but as a response to the new normal. And in doing that, I do 
believe that flexibility is crucial, is critical.
    So, let's take that look when we start developing the next 
farm bill, let's work together so that we can ensure that this 
lifeline program as we are hearing today, this lifeline program 
better serves all of those who need it.
    Now, I know many of the witnesses have been on for an hour 
and a half, so I am just going to narrow it down. Dr. Bauer, I 
am going to pick on you. The other witnesses can kind of zone 
out for the remaining minutes that I have, to let you know.
    Dr. Bauer, the U.S. Government Accountability Office issued 
a report that analyzed that more than two dozen studies among 
food insecurity among college students, and took a look at 
that. And it found that America's college campuses have 
alarmingly high rates of hunger with 39 percent of all low-
income students experiencing food insecurity. Many low-income 
students are also the parents of small children, and these 
individuals work incredible hours to study, raise their 
families, and pay their bills, as we heard from one of our 
witnesses today. That is why earlier this year, Representatives 
Gomez, Harder, and myself introduced H.R. 1919, Enhanced Access 
to SNAP, or EATS Act, to make permanent changes to the rules 
that have long denied SNAP to low-income Americans solely due 
to their status as college students.
    Dr. Bauer, can you elaborate on the ramifications of the 
existing student rule, and how would amending the current law 
to remove the burdensome work requirements improve student 
access, particularly for first generation low-income students?
    Dr. Bauer. Certainly, that is right. College students are 
required to work in order to receive benefits, but what we 
really have right now is a college completion crisis. We want 
to do everything we can to ensure that once students enroll 
they are able to complete, and part of that is having enough 
food on the table.
    And so, I certainly think that there is reform necessary, 
including looking at the backgrounds of what students have. We 
are not doing that currently when we are assessing whether 
students are eligible for SNAP, including through the work 
requirement, and so, there are a variety of ways that we can 
better support first gen low-income students to get those 
degrees, including for student parents.
    Mr. Panetta. Great. Now also, I have introduced H.R. 2339, 
Military and Hunger Prevention Act, which establishes basic 
needs allowance to help low-income military families purchase 
food. Can you elaborate on the impacts of counting the BAH as 
income when determining servicemembers' SNAP eligibility?
    Dr. Bauer. Certainly. What we don't want to do is punish 
servicemembers for serving, and that is sort of how the formula 
works right now. A basic needs allowance would allow us to 
reward work, reward service by ensuring that low-income 
servicemembers are eligible for SNAP when they should be.
    Mr. Panetta. Great. Dr. Bauer, thank you.
    My time is up. Madam Chairwoman, I yield back.
    The Chairwoman. Thank you so much, Mr. Panetta.
    I now recognize--is she on--the gentlelady from Florida, 
Representative Cammack. If you will unmute your microphone and 
begin to ask your questions.
    Mrs. Cammack. Thank you, Madam Chairwoman. I appreciate 
everybody being on here today, and as my good friend and 
colleague, Mr. Panetta, mentioned, the witnesses have been on 
here for quite some time, and so, there may be a bit of some 
repeat questions here. But the thing that I find encouraging is 
that Republican, Democratic regardless, we all are looking to 
get to the same end point, and we all have a little bit of a 
different way of how we get there, but the fact that we all 
have the same end goal is very encouraging.
    I'm going to start with some prepared remarks and then jump 
into a few questions, and again, apologies for some repeat 
questions.
    Since its inception, the goal of food assistance has always 
been to provide temporary emergency relief to those most in 
need, and the mix of an unprecedented pandemic in which 
millions across the country found themselves suddenly out of 
work, relief was expanded and waivers provided. New programs 
were rolled out to both provide food for those in need, but 
also provide America's producers with much-needed support in 
the midst of a collapsing supply chain.
    Now, like my friend and colleague Representative Panetta, I 
represent a very rural district which is rich in agriculture 
production, and so, we face some of the similar challenges.
    One of these programs, Farmers to Families Food Box 
Program, supplied these boxes of American grown produce to 
families in need, and in Florida specifically, farmers and food 
banks alike were very excited to participate in the Food Box 
Program with farmers able to supply boxes of food to those who 
needed it most, while much of their traditional customer base 
stayed the same. And I know firsthand because I was part of the 
some of the distribution work here, the food banks in my 
district now first spoke to me about lines around the block to 
receive these boxes of food with fresh, healthy, American grown 
produce. I heard from several of our Florida growers and 
producers about how the program was a lifeline during this 
unprecedented time.
    To that end, Dr. Boynton-Jarrett, do you mind touching on 
how now that the Food Box Program has ended, how we might be 
able to look at ways that we can continue to promote healthy 
food, support our producers, and meet the needs of our families 
and individuals that are struggling, and what that might look 
like, both under SNAP, but also how we can engage our community 
partners alike in this?
    Dr. Boynton-Jarrett. Oh, thank you so much for the 
question, and you actually hit on what I think is the most 
critical answer. I really do think it needs to be 
collaboratively co-designed with community partners so that we 
are utilizing all of the assets and existing resources within 
communities most productively, and we are reaching the families 
that are deepest in need. And when we think about it, we rarely 
engage those who are most socially marginalized in these types 
of decision making, in these types of policy strategies, but in 
all of my work locally through Boston Medical Center Vital 
Village, those are the best ideas. Those are the most effective 
ideas.
    Actually, throughout this pandemic, we have numerous 
examples of ideas that actually originated from community 
members and neighbors helping neighbors that could be scaled 
and built into more formal policies and infrastructures.
    What is most exciting around these direct partnerships 
between producers and families is really the way the children 
can become engaged. If you see a child that grows a cucumber 
and tastes the cucumber they grew for the first time, it is 
like nothing else, right? What better way to stimulate 
nutrition and a sense of ownership and responsibility for 
children? And as we have talked about many times, really honor 
their dignity and shared humanity.
    Thank you for the question.
    Mrs. Cammack. Thank you, Dr. Boynton-Jarrett, and you gave 
me a perfect segue.
    My next--probably last question since I am running short on 
time is for Dr. Whitford. Your testimony is laced with 
references to dignity, community, civility, relationships, 
compassion, and as someone myself who was, not even actually 10 
years ago almost, was homeless, I understand firsthand the 
struggles that participants in this program go through.
    But I would like to know, in an ideal world, when it comes 
to those that you are trying to help and get back on their 
feet, where do you see the sweet spot for government with 
community organizations?
    Dr. Whitford. Again, I want to go back to the idea of 
subsidiarity and properly layering that. The research talks 
about crowd out, the crowd out effect that occurs when 
government is involved in helping local community people in 
need. And so, in fact, we have even seen that depending on what 
is going on [inaudible] government benefits, we will actually 
see a drop in our mission market where we have a little grocery 
store where people come through. They have healthy options to 
choose from. We will see a drop in that.
    I really believe that as government steps back a little 
bit, you will see more of the private-sector that will step in, 
and I think that is really one of the best things that 
government could do. Just figure out how can we allow for the 
private-sector to do what the private-sector does so well, 
which is be charitable.
    The Chairwoman. Thank you so much.
    Mrs. Cammack. Thank you, Madam Chairwoman. I yield back.
    The Chairwoman. Thank you, Representative Cammack, for your 
really thoughtful questions.
    I now would recognize the gentleman from the Northern 
Mariana Islands, Mr. Sablan, who has joined us. Thank you so 
much. If you would unmute yourself and ask your questions.
    Mr. Sablan. Thank you, Madam Chairwoman, and 
congratulations on holding your first hearing.
    I apologize for my tardiness. I am juggling between four 
committees, and I just noted that I need to go start on Natural 
Resources, but Madam Chairwoman and to the witnesses, I don't 
have a question. I just have a short comment.
    I have been working for 12 years now to bring SNAP to the 
Northern Mariana Islands, because we, the Northern Mariana 
Islands, my district is one of three in the United States that 
are on block grant and it is just so difficult whenever there 
is a disaster and we need additional funds, we have to go and 
legislate the funds, and all different kinds of difficulties. 
Sometimes Congress works amazingly and like a slow boat, it 
just comes a little faster or a little slower.
    But yeah, hunger is--yesterday I went around and I visited 
the elderly at home. I went first to a place where they 
congregate, and then I followed this vehicle that distributes 
food to the homebound. I had some short conversations with 
those who are homebound, and some of them lost their 
qualification for food assistance because their income is $2 
higher than the formula--I mean, the threshold. I mean not 
some--one of them actually, $2 higher than the threshold, and 
she lost something like $96 worth of food aid. That is what she 
was getting a month. That is the enhanced one, because usually 
you get $25 a month for a single--for an individual.
    But just--I am working and I will continue to work hard, 
and I ask the Chairwoman's assistance and cooperation, because 
this is really--I wouldn't be working this hard and asking for 
this if I didn't think it was necessary.
    But I want to thank the witnesses for being here and 
sharing their thoughts with the Committee. Madam Chairwoman, 
thank you very much. With all due respect, I need to get back 
to Natural Resources for the votes that have just been called. 
Thank you very much.
    The Chairwoman. Thank you so much, Mr. Sablan, and thank 
you for joining us even briefly.
    The next Republican witness that--I am sorry, Member that I 
have is the gentleman from Texas, Mr. Cloud, but I don't see 
him. Are you on?
    Okay, that is fine. We will go to Mr. Lawson, the gentleman 
from Florida. If you will unmute for your questioning and we 
will go back to Mr. Cloud as soon as he is on the platform. Mr. 
Lawson, if you want to unmute and begin your questions.
    Mr. Lawson. Okay. Thank you, Madam Chairwoman, and I want 
to thank you and Ranking Member Bacon for this hearing. It is a 
very important hearing.
    To the witnesses, I want to welcome all of you to the 
hearing today.
    I represent the Fifth Congressional district which 
stretches along in north Florida along the border of Alabama, 
so to speak, and Georgia, and down to Jacksonville. About 200 
miles or so in this district, and two major cities in between, 
and most other areas are rural and farming community.
    My district staff and I volunteer frequently to help with 
food banks and farm share, and I was doing this even when I was 
in the Florida Legislature, making sure that food banks and 
farm share stuff was funded when I chaired the Agriculture 
Committee in the House and in the Senate.
    What I am really getting at--and this question is 
probably--will go to Ms. Davis and Ms. Wilson. Can you both 
speak to how TEFAP programs play a role in making sure that our 
families have nutritious food, nutrition in their food to eat 
when SNAP just wasn't enough to help them make the entire month 
of meals during this pandemic? I want to say this in 
conjunction to that, we have a lot of hurricanes, and one of 
the things I had to petition the government with is to allow 
SNAP recipients to get hot meals for their families when they 
have no place to cook and stuff of this nature. And that 
probably needs to be a part of any legislation that we pass, 
and I just want to see how you all respond to it.
    Ms. Davis. I will go first.
    It is good for them to have access to hot meals, because 
I--those people that can't--don't have a stove, they can't--
they are not very skilled at cooking or know much about it. So, 
if they could get access to somebody else making it for them 
and still have that self-pride of still getting actual meals 
and not have to always go to junk food. So, I think that is a 
good idea.
    Ms. Wilson. So, I will follow up and say regarding hot 
meals when it comes to natural disasters and hurricanes. When 
the hurricanes do come around, we don't have electricity. We 
don't have gas. The hot meals, because they are denied on EBT 
SNAP, we can't--I mean, they have some supermarkets that do 
provide cold meals that you can heat in a microwave; however, 
it is really a heartbreaking experience to explain to your kids 
yes, I have a box of chicken from Publix, but we can't eat it 
hot because there is nothing to heat it up with. The kids 
should not feel the pressure of that.
    So, hot meals being denied on EBT SNAP is not the best 
idea, but I understand why the idea is there. However, I 
don't--what I don't understand is what the difference is 
between having a hot meal and a cold meal, and taking it home 
and warming it up.
    Mr. Lawson. Okay.
    Ms. Wilson. The only difference is 15 minutes and hoping 
that you have a microwave that has power to it during a 
hurricane--to warm it up for your children.
    Mr. Lawson. Okay.
    One of the things that is very prevalent, and I was 
[inaudible], why is it that there is so much bad publicity 
coming out of the people, in your opinion, on SNAP benefits 
simply due to the fact that people see them in grocery stores 
and so forth getting food, and they think its to a disadvantage 
that they are getting each meal. They can't get alcohol and 
cigarettes, all the things that people think they get.
    How do you think the news gets out--and I know my time is 
about to run out--that people feel that way about this?
    Ms. Wilson. I don't think there is enough knowledge about 
the SNAP Program. I will tell you now that there is absolutely 
no availability to alcohol and tobacco, which you already know. 
But I just believe that people have a really skewed approach to 
EBT SNAP and government assistance, and they think that it is a 
free ride for all.
    I think getting the word out or making people more 
knowledgeable about the fact that EBT SNAP is truly about just 
minimum assistance and essential foods needs would probably be 
a better approach to the situation.
    The Chairwoman. Thank you.
    Mr. Lawson. I yield back.
    The Chairwoman. Thank you, Mr. Lawson.
    I still don't see the gentleman from Texas, Mr. Cloud, so I 
will move on to the next witness on the Majority side. I now 
recognize the gentleman from Massachusetts, Mr. McGovern. If 
you will unmute and ask your questions, please.
    Mr. McGovern. Thank you very much, Madam Chairwoman. I 
appreciate it.
    Let me just say that SNAP is perhaps the most important 
anti-hunger program that we have, and charity can't do it 
alone. And by the way, SNAP is not charity. The majority of 
people who are on SNAP are children, are senior citizens. Of 
those who are able to work, the majority work. They work, and 
they earn so little they still qualify for the benefit.
    My criticism of SNAP has been that the benefit has been too 
small. I mean, on average, it is about $1.40 per person, per 
meal. My Dunkin Donuts coffee this morning cost me more than 
that. I mean, I am grateful that in the American Rescue Package 
we upped it by 15 percent, but talk to food banks and they will 
tell you that the people who are still coming to food banks 
midway through the month because their benefits have run out. 
So, this is not a charity. This is our moral obligation. We all 
ought to be committed to making sure that nobody in this county 
is food-insecure or goes hungry. Quite frankly, during the 
pandemic we saw the numbers go up to like 45 million people who 
were hungry. Before that it was 35 million. I mean, as a Member 
of Congress, I am ashamed that so many people in this country 
don't know where their next meal is going to come from. And the 
people who are on the program defy stereotypes, and quite 
frankly, to struggle in this country and to be poor in this 
country is a lot of work. It is a full-time job.
    I really appreciate the testimony of Ms. Wilson and Ms. 
Davis. I mean, let me just ask you this. Can you both talk 
about the importance of including people with lived experiences 
in our conversations about social safety net programs like 
SNAP? Because I have been on this Committee for a long time, 
and as Chairman of the Rules Committee, we are doing a series 
of hearings hopefully leading to a White House conference on 
food, nutrition, health and hunger. But we have lots of experts 
that come up and testify, but sometimes they miss things 
because they, themselves, haven't struggled. They haven't gone 
through what you have gone through.
    Ms. Wilson. I will tell you, to hear you say right now that 
you understand that we are not people that want to live on food 
assistance is extremely emotional. For someone to actually 
understand that we want to do better is extremely emotional. 
This is not something that we want permanently. As parents, we 
want to provide for our children but there are circumstances 
that come into play that sometimes we have to set aside that 
pride and do what it takes to make sure that our kids don't 
feel it.
    To hear just one person, just one person understand that 
this isn't what we want, that we're not people who don't want 
to work, that we're not people who refuse to work is such a 
breath of fresh air.
    I don't really have a whole lot to add to the conversation 
other than that, but just because I want to validate everything 
that you are saying. Everything that you are saying is 
absolutely correct, absolutely correct.
    Mr. McGovern. Ms. Davis?
    Ms. Davis. Yes, I was just going to say I am glad you said 
that, because I personally was brought up that if you go on 
government assistance, that you feel like a failure. Like you 
messed up that you have to go to the government for help. And 
for me, I had to put my pride to the side to say I need help. 
And during COVID, I did not have food stamps. I really, really 
needed help. So, when that P-EBT card--when I found out that I 
can use that to just pay my meals and stuff, that helped me and 
relieved some stress so that I did not have to worry about what 
my son was going to eat during this pandemic. Even though it 
stopped in November, it still helped me and I knew when it was 
going to stop. Then I did the food pantry, and the pantry 
picked up where they left off.
    When people say that, I--it's--no. Because I don't believe 
on staying on government. I go when I need help, and I know 
other people that go for help because they need it, not to just 
be home and do nothing.
    Mr. McGovern. and I appreciate you both saying that, 
because far too often the commentary that comes out of 
Washington, D.C. does more to stigmatize people than help 
people get back on their feet.
    And so, I appreciate both of you for your courage and for 
coming and sharing your stories, and I look forward to 
continuing to work with you and others on this panel.
    Thank you very much. I yield back.
    The Chairwoman. Thank you so much, Mr. McGovern, and he has 
been a champion on this issue. For anyone who has not already 
seen it, you should check out the op-ed that he and I co-
authored that was released today on this very issue.
    [The op-ed referred to is located on p. 63.]
    The Chairwoman. I now recognize the gentlelady from 
Louisiana for what is your inaugural hearing. Ms. Letlow, 
please unmute your microphone and ask your questions.
    Ms. Letlow. Thank you, Chairwoman Hayes.
    To all the witnesses, thank you for your time and 
participation in this hearing. I join my colleagues in 
extending my appreciation to Ms. Davis and Ms. Wilson for 
providing your testimony and sharing your stories before this 
Subcommittee.
    As the title of this hearing indicates, we are starting to 
see the country take strides in moving past the pandemic, and 
this is a timely conversation we are having here today.
    My question is for Dr. Whitford. While I am one of the 
newest Members of the House Committee on Agriculture, it is my 
understanding that the previous testimony before this Committee 
has revealed that some organizations expect historically high 
levels of hunger well beyond this year. It is alarming to hear 
that even the Federal Reserve is lowering expectations for 
May's job growth, because companies cannot find individuals 
able or willing to work. Do you think Congress is providing the 
right balance of assistance, and what can we do to encourage 
and help families return to work?
    Dr. Whitford. We have to--thank you. We have to remember 
that the only way out of poverty--and I mean, again, in 2 
decades you have seen this. The only way out is through work. 
It is through a job. That is absolutely vital, not only to the 
dignity of the person--and I mean, we have even heard this just 
from Ms. Davis and Ms. Wilson. I mean, they recognize that as 
well. I think we all do. So, we have to be asking ourselves, 
are we doing anything that is getting in the way of that or 
not?
    There has been talk today about how SNAP is a relief 
program for emergency use, and that is exactly right. In fact, 
it reminded me of a book called, When Helping Hurts: How to 
Alleviate Poverty Without Hurting the Poor . . . and Yourself 
and in When Helping Hurts, they describe three different types 
of charity, really. There is relief, there is rehabilitation, 
and there is development. And so many people today are really 
in the rehabilitation and development side of that, which 
requires some sort of effort or work to move forward. Relief 
should be reserved for the emergency cases when there is no 
other option. In fact, our community just recognized the 10th 
anniversary from an F5 tornado that ripped through the center 
of Joplin. It was of historic significance. It rendered 7,000 
people homeless immediately, killed 161 people, and the relief 
effort was amazing right then. In fact, by the time the Federal 
Government got involved, we had already organized our community 
together and we were moving forward.
    So, that is relief, but most of the time when we get to 
know people, they need rehabilitation or development, and it 
requires effort. It requires work. One thing that we could do 
what the government could do is just make sure that work 
requirements are a part of that picture, because we are going 
to be able to--in fact, in the State of Missouri, we saw 43,000 
people who were unemployed and on SNAP benefits before work 
requirements went back into place in 2016. That number dropped 
by 85 percent afterwards, and incomes from those folks went up 
70 percent. So, again, a job is the way out of poverty. There 
is no way that we can provide enough aid to lift anybody out of 
poverty. It will require a job, and the government has got to 
make sure they are not stepping in the way of that for people 
who are not in need of relief, real relief, but rehabilitation 
and development.
    Ms. Letlow. Thank you so much for your answer, Dr. 
Whitford. I yield back my remaining time.
    The Chairwoman. Thank you so much, Ms. Letlow.
    I now recognize the gentlelady from Virginia who is on the 
full Committee, but has waived on to join us today. Welcome to 
our Subcommittee, Ms. Spanberger. If you can unmute and ask 
your questions, please.
    Ms. Spanberger. Thank you so much, Chairwoman Hayes. I 
appreciate you allowing me to waive on to the Subcommittee 
today, and I am grateful for you holding this hearing on the 
future of SNAP.
    I represent Virginia, central Virginia 7th District, and in 
Virginia, nearly 70 percent of SNAP recipients are families 
with children. And for these families, SNAP has been a vital 
source of support to put food on the table for their children 
before and during a global pandemic.
    Unfortunately, we have seen such a demand for food 
assistance that SNAP benefits have been challenged. They are 
not enough, and food banks across my district in central 
Virginia have been working tirelessly to meet the needs of 
hungry Virginians. I have heard from food banks, from state 
officials, and from members of our community about the immense 
relief that SNAP assistance can provide a family. And in 
addition to helping families and children in central Virginia 
and across the country, SNAP is vital to our nation's economic 
recovery. As Dr. Bauer mentioned in her testimony, a $1 
investment in SNAP benefits generates about $1.70 in economic 
activity during an economic downturn, like the one that we find 
ourselves in today. And that is why I was so appreciative of 
our work to ensure that the American Rescue Plan extended 
increased SNAP benefits through September, as well as the 
pandemic EBT program.
    But we all know that the rate of food insecurity is still 
higher now than it was before COVID-19, and I am grateful for 
each of you who are here today to speak with us, and I am so 
grateful for the stories, the experience, and the expertise 
that you have brought to Congress.
    Dr. Bauer, I would like to begin with you. You mentioned 
the SNAP Employment and Training Program, also known as SNAP 
E&T, in your testimony package, and as you know, SNAP 
participants have exclusive access to training and support 
services to help them enter the workforce through the SNAP E&T 
Program.
    I was wondering if you could shed a little light on how 
improving the SNAP E&T Program could potentially help SNAP 
participants find regular employment?
    Dr. Bauer. Certainly. So, I think that there is a lot we 
can do to synchronize and cohere across the workforce 
development programs that are supported by the Federal 
Government, whether it is through SNAP E&T, through programs 
that are run through the Department of Labor, through WIOA, and 
certainly through the TANF Program.
    There are a variety of ways to support work through the 
SNAP Program, as I already said, through the earnings 
disregard, and especially through increasing the EITC and 
making that more generous more permanently for childless 
workers because that is really where we are seeing declines and 
low participation over the long-term.
    In terms of E&T, certainly reforms and investments are 
needed to bulk up the program, especially should work 
requirements be reinstated at some point in the future when the 
economy allows it. Even though I don't think that there is 
evidence to support its continuation, it is certainly helpful 
to able-bodied adults without dependents to have that E&T slot 
to help them maintain access to the program, should there still 
be local area circumstances that limit the number of jobs 
available.
    Ms. Spanberger. Thank you very much. Just one more follow 
up. In your testimony, you mentioned several options for 
strengthening SNAP as an automatic stabilizer. Could you 
explain how automatically increasing benefit levels could help 
ensure that people receive the help they need during a 
recession while having the impact presumably of stabilizing our 
economy?
    Dr. Bauer. Absolutely.
    So, it certainly relates to the point that you made that a 
dollar of SNAP is a very special Federal dollar, because it 
generates so much activity and because it is well targeted and 
spent so quickly. And, when we know the economy is in a 
recession, which we don't always know as quickly as we knew was 
going to happen at the start of the pandemic, increasing SNAP 
benefit levels and reducing barriers to entry to the program 
will catch people as they fall and help slingshot not only the 
economy into a self-sustaining recovery, but also help our most 
vulnerable families when the macro economy is contracting.
    Mr. Spanberger. Thank you.
    Dr. Boynton-Jarrett, from your experience, could you 
comment on the impacts that multiple Federal nutrition programs 
have on a family with SNAP, the School Lunch Program? How do 
these programs work together to serve a family in need of 
support?
    Dr. Boynton-Jarrett. Excellent question, and thank you.
    Children receive \2/3\ of their nutritional daily value 
actually from the meals they receive at school or in early care 
and education. So, it is really like the School Meal Program as 
well as the Summer Meal Program, and those extensions are 
vitally important for continuity of nutritional meals for 
children. So, those are very complementary to the SNAP Program.
    Moreover, the WIC Program, Women, Infants, and Children, 
provides healthy nutrition for women who are expecting or who 
are pregnant. This is critical as well because healthy 
nutrition during pregnancy actually sets the foundation for a 
healthy start in life. So, we actually know that adversities 
that pregnant women face have a longstanding impact on the 
health and development of children as well. And those studies 
have actually shown that SNAP benefits and WIC benefits for 
women who are expecting are associated with reduced risks for 
metabolic conditions such as diabetes and chronic metabolic 
conditions in children. So, we know that the earlier we can 
provide consistency in access to consistent and healthy 
nutritional foods, the better it is for a healthy development, 
growth, and learning for children.
    Ms. Spanberger. Dr. Boynton-Jarrett, thank you so much for 
making that very clear acknowledgment that the support to 
pregnant women is so vitally important to healthy babies and 
supporting babies and young children as they ultimately grow 
older into community members.
    And Madam Chairwoman, thank you for indulging a couple 
moments over, and I yield back.
    The Chairwoman. Thank you, and thank you so much for 
joining us today. We were happy to have you.
    I think that concludes all of our Member questioning. Are 
there any other Members who have not been heard? Okay.
    So, before we adjourn, I invite the Ranking Member to share 
any closing comments he may have.
    Mr. Bacon. Thank you very much. I really appreciate the 
thoughtful conversation. I really appreciate the panelists 
today, especially those who have their personal stories to 
share, and I thought it was just very well done.
    I have to remember the SNAP Program is a supplementary 
program, and it is serving well. So, I wanted to make that 
point. I also realize in the last farm bill that we passed out 
of the House, we did have some provisions that helped with the 
cliff effect but it was taken out during conference. I just 
think we see today from the testimony that we had that there is 
a need for having an eye on this, and to look how we can 
mitigate this cliff effect. We heard repeatedly where this has 
had some impact. So, we have a task in front of us, and there 
is some bipartisan support to do so.
    Finally, just we do need to have an eye for coming out of 
the pandemic. I know we are not quite there yet, but we are on 
the tail side of this. We still see increases in poverty, but 
it has gone down significantly since its peak. We have more 
work to do.
    But we do have to have an eye on the fact that 43 percent 
of our employers are looking to hire, and they are having a 
hard time of this. It is a fact that we have to deal with and 
we have to ensure that government, not just in the SNAP 
Program, but all the other areas that it has been involved with 
over the last 6 months, it is not competing against those jobs. 
Because in the end, getting people back to work is our goal.
    So, with that, Madam Chairwoman, I appreciate your time and 
I appreciate you organizing this today, and I yield back.
    The Chairwoman. Thank you so much, Representative Bacon.
    Before we adjourn, I want to once again thank my colleagues 
for their participation in today's hearing which will help us 
to craft lasting, meaningful legislation on this Subcommittee. 
I especially want to express my sincere thank you to today's 
panel: both doctors who gave incredible testimony that was very 
impactful and really shared with us the research, to Dr. 
Whitford, your perspective and the information that you 
provided, I promise we will get you those questions that you 
were not able to answer. And to both Ms. Wilson and Ms. Davis. 
As the Chairwoman of this Subcommittee, it was very important 
to me that you tell your own stories, that we found people who 
could to share your experiences and your perspective, and in 
essence, rebut the faulty premise that people who can work 
choose not to. You really have shed a tremendous light on this 
issue, and really helped us to redefine the faces of the people 
that we are helping.
    I especially want to express my sincere thank you to this 
panel. Your time and knowledge are extremely valuable, and we 
appreciate the generosity that you have shown today.
    One thing is clear from the testimony today. SNAP has 
absolutely been an essential support throughout this pandemic, 
and will continue to be crucial for economic recovery as we 
climb our way out of it. The work Congress has done to bolster 
the program and to support related nutrition programs has 
provided a vital safety net for people who are working hard so 
that they can support themselves and their family through this 
extremely difficult time.
    We heard from Representative Lawson about the student food 
insecurity, and he and I just introduced a bill to address 
that, H.R. 3100, which I look forward to elevating to this 
Committee as well.
    Ms. Wilson started with something very important, pictures 
of her children. I remind you that many of the people that we 
are talking about who participate in this program are children. 
I was a classroom teacher for 15 years before I came to 
Congress, and the image of children with their heads on the 
desk who could not learn because they didn't have the energy 
because they hadn't eaten is something that I wouldn't wish on 
anyone, and it is something that you will not forget. Those 
images, those children are the ones who drive my work here 
today. We are still in a hunger crisis, and our communities 
still need our help. We have a unique opportunity to take 
action.
    We have heard at times there were no hearings. There was no 
collaboration on these types of issues. Mr. Bacon, I say to 
you, we have the ability to change that. Let's work together. 
Let's use the information that we gathered here today to help 
get people fed before they have to show up at food banks. 
Research has shown that for every one person who is fed by a 
charitable organization, nine families are fed by SNAP. That is 
important information for us to know. Let's feed people before 
they have to stand in line and have the stress of food 
insecurity.
    Thank you again to my colleagues and to the witnesses today 
for participating in this very important hearing.
    I just have some housekeeping things that I have to read. 
Under the Rules of the Committee, the record of today's hearing 
will remain open for 10 calendar days to receive additional 
material and supplementary written responses from the witnesses 
to any questions posed by a Member.
    This hearing of the Subcommittee on Nutrition, Oversight, 
and Department Operations is adjourned.
    [Whereupon, at 2:23 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
 Submitted Article by Hon. Jahana Hayes, a Representative in Congress 
                            from Connecticut
[https://civileats.com/2021/05/26/op-ed-hunger-is-a-political-decision-
we-can-work-to-end-it/]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Civil Eats
Op-Ed: Hunger is a Political Decision. We Can Work to End It.
          Members of the House Agriculture Committee call for a 
        substantive, policy-based conference focused on ending hunger 
        in the U.S. by 2030.

By James McGovern \1\ and Jahana Hayes \2\
---------------------------------------------------------------------------
    \1\ https://civileats.com/author/jmcgovern/.
    \2\ https://civileats.com/author/jahanahayes/.

May 26, 2021
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    New data from the U.S. Census Bureau \3\ shows that while hunger in 
America is still surging far above pre-pandemic levels, Congressional 
aid is making a difference. This is welcome news for a country that has 
seen lines at food banks stretching on for miles and too many families 
going without food.
---------------------------------------------------------------------------
    \3\ https://www.cbpp.org/research/food-assistance/number-of-
families-struggling-to-afford-food-rose-steeply-in-pandemic-and.
    Editor's note: this article is also retained in Committee file.
---------------------------------------------------------------------------
    It is also a reminder that hunger is not inevitable--it's a policy 
choice.
    Even before the pandemic, over 40 million Americans experienced 
food insecurity. While Congress has made significant and important 
progress to address hunger during the COVID pandemic through landmark 
investments \4\ in nutrition programs, we believe it's time to take the 
next step. That's why we are calling for the White House to hold a 
substantive, policy-based conference focused on ending hunger 
throughout the United States by 2030.
---------------------------------------------------------------------------
    \4\ https://frac.org/covid19.
---------------------------------------------------------------------------
    The last and only White House conference on hunger was held in 
1969--the same year we landed a man on the moon.
    While far from perfect, the conference was responsible \5\ for the 
creation and expansion of vital anti-hunger safety net programs like 
the Supplemental Nutrition Assistance Program (SNAP), the Special 
Supplemental Nutrition Program for Women, Infants and Children (WIC), 
and the National School Lunch Program (NSLP).
---------------------------------------------------------------------------
    \5\ https://sites.tufts.edu/foodnutritionandhealth2019/1969-white-
house-conference/.
---------------------------------------------------------------------------
    More than 50 years later, we believe now is the time to think 
holistically and improve our coordination across an array of social 
service programs, bringing into focus both the successes and the 
failures of Federal programs. Who is falling through the cracks? What 
more needs to be done? These are questions we need to address with new 
solutions.
    The pandemic has made the need for Federal programs beyond food 
assistance clearer than ever. Unemployment benefits, housing, 
affordable childcare, healthcare, and tax credits are all critical 
supports for families under stress. Together, these programs and 
policies all help address hunger. The problem though, is that they span 
across many programs, agencies, and levels of government.
    Imagine the progress that could be achieved today if the heads of 
food banks, hospitals, government agencies, nonprofits, educators, and 
the faith-based community all came together at the same table, and 
worked together with the White House to solve our hunger crisis in a 
holistic way. They could develop a real plan with actionable benchmarks 
to help us end the crisis by 2030, as the United Nations has called 
for.\6\
---------------------------------------------------------------------------
    \6\ https://sdgs.un.org/goals/goal2.
---------------------------------------------------------------------------
    This conference should improve on the 1969 conference in one in a 
key way: it should include a diverse group of Americans who have 
experienced hunger firsthand. Such perspective is vital to ensuring our 
policies are centered on the real experiences of everyday people, not 
just numbers and statistics.
    Congress has been doing its part to fight food insecurity. In March 
2020, at the onset of the COVID-19 emergency response, it agreed to 
increase SNAP benefits so families could stock up and prepare for 
quarantine. Then, as the pandemic impact increased, Democrats were able 
to secure an additional 15 percent monthly increase in SNAP benefits 
for the duration of the pandemic.
    Programs like Pandemic EBT, WIC, the Food Distribution Program on 
Indian Reservations, and the Commodity Supplemental Food Program are 
also helping many Americans. Recent legislation has also provided 
additional funding and resources to these programs.
    As chairs in the House, we have been working to make addressing 
hunger a national priority.
    The Subcommittee on Nutrition, Oversight, and Department Operations 
has been playing a vital role ensuring hunger is part of our ongoing 
response to the COVID-19 pandemic and beyond. It has advanced 
investments in the SNAP program, spearheaded expansion of online food 
purchasing, ensured food banks had the resources they needed to meet 
increased demand, and provided oversight as the U.S. Department of 
Agriculture (USDA) has implemented these historic undertakings.
    The House Rules Committee has also begun a series of groundbreaking 
anti-hunger hearings to learn from and uplift a diverse chorus of 
voices so that when the Biden Administration is ready to hold a hunger 
conference, they can hit the ground running to help shape the dialogue.
    But Congress can not end hunger alone. We must bring the full 
weight of the Federal Government to bear.
    Every single person living in this country deserves to wake up each 
day without having to worry about where their next meal will come from. 
We have the food, the knowledge, and the resources to guarantee food 
security for every person in America. A White House conference on 
hunger would help us take a vital step forward in building the 
political will to end this crisis once and for all.
                                 ______
                                 
  Submitted Letter by Hon. Jahana Hayes, a Representative in Congress 
from Connecticut; on Behalf of Hannah Walker, Vice President, Political 

              Affairs, FMI--The Food Industry Association
May 25, 2021

    Hon. Jahana Hayes,
    Chairwoman,
    House Subcommittee on Nutrition, Oversight, and Department 
    Operations,
    Washington, D.C.;

    Hon. Don Bacon,
    Ranking Minority Member,
    House Subcommittee on Nutrition, Oversight, and Department 
    Operations
    Washington, D.C.

    Dear Chairwoman Hayes and Ranking Member Bacon:

    FMI--The Food Industry Association respectfully requests to have 
this letter included in the record for the hearing on May 26, 2021 
entitled, ``The Future of SNAP: Moving Past the Pandemic.'' FMI and our 
members, which include food retailers, wholesalers and manufacturers, 
are committed to building upon the success of the Supplemental 
Nutrition Assistance Program (SNAP) to ensure it continues to serve 
families in need across our country.
    As you know, the grocery industry is the private partner with the 
Federal Government serving as the redemption point for SNAP 
beneficiaries. The program was designed to be able to ramp up quickly 
in times of need and cause almost no disruption in-store, allowing 
families to redeem their benefits where they have traditionally shopped 
for groceries regardless of how they pay. SNAP participation increased 
by over 14%, or six million people, from February 2020 to February 
2021. Congress and USDA took extraordinary efforts to increase and 
maximize benefits for families, and the investment paid off. Of the $78 
billion in SNAP spending last year, over 95% went directly to benefits. 
The program proved to be flexible and extremely efficient even in the 
most challenging of circumstances.
    The work on SNAP did not end with increased participation and 
benefits. The Agency and industry worked closely to improve access 
along the way. Prior to last March, USDA was rolling out a SNAP online 
pilot in a few states. By the end of 2020, 47 states and the District 
of Columbia had enabled SNAP online. While this was great and shows 
quick progress, much work remains on increasing authorized online SNAP 
retailers. The process and technical requirements for a retailer to 
become authorized to accept SNAP online is challenging and complex. 
Retailers have been sharing best practices and lessons learned amongst 
themselves, however, many challenges remain. FMI is looking forward to 
USDA implementing the provisions from the recently signed into law 
American Rescue Plan Act of 2021, which allocates resources for the 
Agency to provide technical assistance to retailers.
    Looking forward, the food industry is keenly focused on finding 
additional opportunities to address hunger and nutrition here in the 
U.S. all while maintaining the efficiencies and successes of SNAP. The 
grocery industry prides itself on transparency and helping the consumer 
make food selections reflective of their individual family needs. The 
food industry provides these services to all their customers regardless 
of how they pay, be it cash, check, SNAP or credit. Over the past 
decade, grocers have hired dietitians, nutritionists, in-store chefs 
and pharmacists to assist customers in making food selections. These 
services are keenly important when a customer is newly diagnosed with 
health conditions and diseases that may require changes to diet. As we 
previously mentioned, SNAP allows the customer to continue shopping at 
their neighborhood store and make choices on foods that meet their 
specific needs.
    Additionally, several FMI members are currently participating in 
the GUSNIP, fruit and vegetable incentives program. GUSNIP is a 
voluntary program that requires significant investment by the retailer 
and is just one of many ways our members serve their customers every 
day while surviving on less than a 3% average annual profit margin.
    FMI firmly believes in finding ways to help all consumers eat well 
and make appropriate choices for their families regardless of how they 
pay. Unfortunately, efforts to further restrict items families can 
purchase with SNAP will only increase retailers' cost to comply and 
accept SNAP, with a possible chilling effect on some, particularly 
smaller grocers' ability to participate in the program. Additionally, 
it would complicate the shopping experience for customers without truly 
addressing or changing eating habits.
    Technology can both help customers in the actual shopping 
experience, but also improve the checkout process. Today, we enjoy a 
ubiquitous SNAP Electronic Benefits Transfer (EBT) system. Retailers 
can accept a SNAP card issued in any state regardless of where they are 
located. This efficiency of scale functions as originally designed 
reflecting both the need for uniformity on behalf of the retailer, and 
access for customers. Any attempt to remove that ubiquity will remove 
all the efficiencies we have worked to gain over the past 3 decades, 
increase the costs of the program and most concerning--threaten access 
for the customer. Instead, FMI advocates for further building on the 
success of the EBT system with a focus on reliability in the processor 
space and innovation to allow for mobile checkout and future 
developments in payments.
    FMI commends the Subcommittee for its interest in and commitment to 
SNAP. Working together, we will succeed in finding new opportunities to 
build on the success of the program and make it stronger moving 
forward.
            Sincerely,
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Hannah Walker,
Vice President, Political Affairs,
FMI--The Food Industry Association.
                                 ______
                                 
  Submitted Statement by Hon. Don Bacon, a Representative in Congress 
                from Nebraska; on Behalf of Inmar, Inc.
Introduction
    Inmar is pleased to submit testimony for today's hearing on the 
future of the Supplemental Nutrition Assistance Program (``SNAP'').
    Inmar believes the challenges posed by the [COVID]-19 pandemic to 
the nation's nutrition safety net have put into stark relief the need 
to modernize the country's nutrition assistance programs as well as 
modernize disaster relief benefit distribution. The current electronic 
benefit transfer (``EBT'') system results in inefficiencies, greater 
opportunities for fraud, and lost opportunities to enhance, and 
stretch, program benefits. By incorporating and leveraging new 
technologies, the programs could enhance efficiency and program 
integrity, reduce fraud, and most importantly expand and maximize 
program benefits for participants.
    As Congress reviews nutrition assistance programs in preparation 
for reauthorization of the next farm bill, we encourage policymakers to 
consider the inclusion of legislative language that would facilitate 
modernization of the programs through the adoption of these new 
technologies. We further encourage policymakers to consider how to 
eliminate barriers to enhanced utilization of technology, and barriers 
to entry by host processors which have the technological capability to 
bring improved program administration to the table. In particular, we 
encourage consideration of four changes: (1) enable all participants in 
the SNAP program to participate using digital platforms, (2) enable 
digital delivery of disaster benefits, (3) eliminate rules, while well-
intentioned, that serve to limit the ability of technologically-capable 
processors to enhance benefits and stretch SNAP dollars, and (4) 
eliminate false barriers to entry for host processors which bring 
innovative consumer and beneficiary-driven solutions to market.
Inmar Overview
    Inmar is a leader in data-driven technology solutions and business 
and government program enablement, bringing more than 35 years of 
private industry solution experience to the public-sector. We develop 
technology and use advanced data analytics to improve outcomes for 
consumers and beneficiaries.
    Beginning with our efforts in the private-sector to help businesses 
operate more efficiently in serving customers, our time-proven 
solutions help organizations of all kinds successfully address critical 
financial, operational, and mission-centric challenges. Government 
departments, agencies and services rely on Inmar to facilitate their 
revenue recovery, inventory management, business analytics and 
consumer-facing technology programs. Of note, this includes 
demonstrably successful and replicable implementation of the SNAP 
program in Louisiana.
    Headquartered in the Wake Forest Innovation Quarter in Winston-
Salem, Inmar employs more than 4,500 associates in North Carolina, 
Pennsylvania, Texas, California, Florida, Louisiana, and New York.
Benefits of a Digital Benefits Delivery Program for SNAP
    Under existing law, the SNAP program functions effectively as an 
EBT program, making the provision of vital benefits for millions of at-
risk Americans reliant on antiquated analogue technology. All SNAP 
beneficiaries should have the option to receive benefits and 
participate in the program through digital technology. This can take 
the form of a phone app that beneficiaries could opt to use instead of 
an analogue card. For those wishing to use them, cards would still be 
honored throughout the program. We believe that use of secure digital 
technology to deliver SNAP benefits provides Federal and state program 
administrators with the means to extend program dollars for 
participants, increase program access, raise nutritional awareness and 
assist with the adoption of healthier eating lifestyles. At the same 
time, it would also reduce fraud and abuse, enhance program integrity, 
and reduce administrative costs. Modern technology also provides 
critical interoperability across public programs that can be configured 
to meet Protected Health Information (PHI) and data security standards. 
Pursuant to proving out this enhanced approach to program 
administration, we encourage Congress to fully fund, and for USDA to 
move quickly to award, mobile technologies demonstration projects 
authorized under Section 7(h)(14) of the Food and Nutrition Act of 2008 
(7 U.S.C.  2016(h)(14)).
    Central to the success of a digitally enabled benefit distribution 
system would be the utilization of an e-wallet by program participants. 
Beneficiaries would use their e-wallet to receive and access their 
monthly benefit dollars, as well as have the option to opt-in to 
receive digital coupons, offered as required under current law. Program 
participants would access their e-wallets by login via PC or mobile 
device, and have immediate access to their benefits balance as well as 
any, and all, coupons available to them. These coupons would be offered 
by a variety of sources including both retailers and manufacturers and, 
potentially, participating states or other government entities.
    Purchases made by SNAP shoppers would be validated against a cloud-
based list at checkout to determine each product's eligibility for 
payment by SNAP. This UPC-level validation happens in real-time, is 
executed in the Cloud, and would help mitigate fraud and reduce costly 
retailer audits. This process, utilizing modern technology versus 
antiquated EBT cards, would provide automatic 100% validation with 
limited man-hours and diminished costs, in contrast to the more labor 
and cost intensive current audit process that audits only a small 
percentage of retailers, and almost certainly fails to fully identify 
fraud and abuse in the program.
    The ready availability of targeted relevant offers would help SNAP 
shoppers stretch their benefit dollars to promote healthier food 
choices moving them towards healthier lifestyles. To redeem these 
coupons, SNAP shoppers would use a card or unique identifier linked to 
their e-wallets at check out which would automatically apply discounts 
to qualified purchases and would activate drawdown of SNAP benefits. 
While healthier food choices are available to SNAP constituents, the 
truth is they often cannot afford, nor are they effectively 
incentivized, to purchase more nutritional food and beverages for 
themselves and their families. At Inmar, we believe that, in order for 
FNS to successfully address this two-fold challenge to better public 
health and nutrition, it is essential that digital technology, 
supported by data analytics and data-driven engagement strategies, be 
deployed to motivate and enable SNAP participants in making healthier 
shopping decisions while effectively providing them additional monthly 
dollars beyond appropriated benefit budgets.
    Appropriate deployment of these capabilities will help SNAP 
recipients stretch their benefit dollars, increase their spending power 
and empower them to make more nutritious food purchases while, at the 
same time, improving the program's security for fraud prevention and 
program efficiency. This enhanced operation would in turn, reduce 
administrative costs at both the Federal and state levels.

    We encourage policymakers to examine ways to modernize the SNAP 
program to facilitate the adoption and leveraging of modern digital 
technology for the benefit of recipients.

    Benefits to USDA and FNS:

  <bullet> Full utilization of program dollars

  <bullet> More efficient validation and administration of programs

    <ctr-circle> 100% SNAP eligibility verification of transactions

    <ctr-circle> 100% fraud-free digital coupons automatically applied 
            to purchases

    <ctr-circle> Ongoing retailer audits with reduced audit costs

    <ctr-circle> Easier retailer validation/investigations to decrease 
            retail trafficking

    <ctr-circle> Automated product eligibility confirmation eliminating 
            retailer error

  <bullet> Data delivery and analysis to assist USDA in realizing 
        healthier outcomes for program participants

  <bullet> Data Analytics to support evidence-based programs and data 
        transparency requirements

  <bullet> Greatly-enhanced prevention and detection of fraud and abuse

  <bullet> Cost savings and enhanced security associated with 
        electronic delivery of D-SNAP benefits

    Benefits to SNAP Recipients:

  <bullet> Fast and easy benefits delivery to SNAP recipients via 
        mobile app

  <bullet> Secure benefits redemption for SNAP recipients without the 
        need for a card

  <bullet> Digital coupons help stretch monthly benefits with the 
        ability to apply savings to healthier food purchases

  <bullet> Additional cost-saving incentives for healthier purchases

  <bullet> No-cost digital account access for balance inquiries and 
        coupon acquisition

  <bullet> Greater nutrition awareness and guidance on healthier 
        purchases through access to engagement tools

  <bullet> Streamlined transactions saving time and effort while also 
        protecting participants' dignity at checkout

  <bullet> Ability to be used by all retail channels including 
        Farmers['] Markets

  <bullet> Relevant shopper engagement to increase SNAP benefit 
        utilization

  <bullet> Immediate access to D-SNAP benefits after disasters 
        eliminating delays associated with card distribution
Electronic Benefit Delivery for D-SNAP
    America is facing a health and economic crisis with rising food 
insecurity due to the pandemic. 43 million Americans are in need of 
nutrition assistance--without a disaster. The number of people needing 
assistance can soar when disaster hits. The pandemic has changed 
behaviors and accelerated e-commerce and digital initiatives. The need 
for this modernization and efficient delivery of benefits is all the 
more urgent when disaster hits a community and state and local 
governments are charged with supporting residents as they rebuild and 
return to normal daily living.
    D-SNAP, which provides temporary food assistance for households 
affected by a natural disaster, is a critical part of a comprehensive 
government response when disaster strikes. Currently, when confronting 
disasters, typical practice is for states to issue plastic cards to 
eligible individuals. Most states set up a remote site and distribute 
cards (if an adequate inventory is available) in person. Depending on 
the type of disaster, this may or may not be possible, and as [COVID] 
has demonstrated, it is often challenging to establish or it might not 
be practical if the disaster could be classified as a pandemic and 
requires the avoidance or minimization of contact among individuals. In 
this case, cards are typically mailed to constituents. This can be a 
challenge for multiple reasons; access to residences may be impossible 
due to damage to access roads, or damage to the facility that would 
assist in the distribution may have been damaged, or roads may be 
inaccessible and require time for clearing. Electronic delivery of 
benefits could provide significant cost savings for site operations as 
well as reduce safety concerns associated with in person registration 
and distribution.
    A digitally enabled D-SNAP benefit distribution system would allow 
beneficiaries to receive and access their D-SNAP benefits without the 
need of a physical card. Program participants would access their e-
wallets by login via PC or mobile device, and have immediate access to 
their benefits balance, eliminating delays associated with EBT card 
distribution as well as provide a direct channel of communication with 
beneficiaries in a disaster situation. Additional benefits of a virtual 
D-SNAP program would be realized with pre-registration of populations 
by zip code. With pre-registration states could push out notifications 
to constituents when disaster in pending. States can also use this 
information to quickly estimate the number of impacted citizens to help 
inform overall disaster recovery planning as well as estimate necessary 
funding based upon a more reliable number of affected citizens. With 
pre-registration, once the state identifies the eligible population, it 
can disperse funds quicker than mail service making benefits available 
immediately after a disaster has been declared. Information is critical 
for effective disaster management. The utilization of electronic 
benefit delivery could be vital for disaster relief and should be 
examined by the funding of pilot programs.
Rules Inadvertently Limiting SNAP Program Enhancement
    While we recognize and appreciate rules and regulations that serve 
to protect SNAP beneficiaries from predatory practices, rules such as 
those that limit coupon availability to beneficiaries need to be re-
examined. Such well-intentioned laws cannot be reconciled with the 
inadvertent impact of preventing retailers and manufacturers and, 
potentially, participating states or other government entities, from 
offering further price reductions on products to beneficiaries in order 
to stretch the SNAP dollar and enhance nutritional outcomes.
    Additionally, current rules and regulations prevent processors and 
other parties from analyzing data generated through administration of 
the SNAP program. These restrictions are designed to protect 
beneficiaries' personal information, which Inmar of course supports. 
However, accessing and analyzing anonymized data would allow processors 
to provide additional benefits to recipients. For example, many SNAP 
recipients live in food deserts or food swamps where healthy and 
affordable SNAP-eligible foods are often limited. A processor would be 
able to inform a SNAP-recipient consumer what other stores may be 
available for them to purchase the same items at better prices, or 
where they might find affordable and healthier options. It would also 
enable processors to leverage relationships with food manufacturers and 
retailers to help meet unmet demand by SNAP recipients for certain 
products, including affordable and healthier options. This would help 
recipients stretch their SNAP dollar and potentially provide a greater 
number of affordable and healthy food options.

    While we appreciate the public policy underpinning these rules, 
they should be re-examined to permit companies and other entities to 
provide enhanced benefits to SNAP recipients through coupons and 
offers, that serve to enhance the SNAP dollar. We also encourage the 
re-examination of other restrictions and limitations that serve to 
limit the ability to leverage modern and proven technology for the 
benefit of recipients. We respectfully encourage Congress and USDA to 
reconsider these restrictions.
Barriers to Entry in Host Processor Market
    Currently, two companies dominate the host processor market. These 
two companies serve as host processors for all but two of fifty states 
(Louisiana, with Inmar serving as host contractor, being one of the two 
exceptions). This lack of competition in the market results in fewer 
options and higher fees for state agencies. It also serves to stifle 
innovation. USDA, under the leadership of Secretary Vilsack, is on 
record as being interested in identifying ways to stimulate increased 
competition in the EBT marketplace and identify procurement or systems 
features that are barriers to new entrants (see Notice; Request for 
Information, 80 Fed. Reg. 35932 (June 23, 2015)).
    With so few companies in the market, technological innovation is 
limited and agencies lack options. As USDA has stated, healthy 
competition in the host processor marketplace helps to control costs, 
ensure a level playing field for businesses who are interested in 
supporting benefit delivery processes, and encourage innovation. As 
USDA further stated, limited competition within the marketplace 
increases the risk for sustainability of the industry over time, and 
limited competition could affect pricing. Inmar echoes those concerns, 
but despite a general consensus that more host processors should be in 
the market, two companies continue to dominate state agency contract 
awards.
    Inmar is confident that its successful and innovative 
administration of the SNAP and TANF programs as host processor for the 
State of Louisiana will further establish it as a market competitor. 
However, companies such as Inmar that are able to bring greater 
efficiencies, enhanced administration, and technological solutions that 
can be leveraged to benefit program recipients are still at an 
artificial market disadvantage. Many state agencies have stated and 
unstated rules giving preference to legacy processors. We encourage 
policymakers to consider whether there might be legislative solutions 
to encourage new entrants to the marketplace. States need not require 
new entrants to have 10 years of service in the analogue EBT program, 
as that says little about their ability to execute in a modern 
environment and provide the benefits of operating on a digital 
platform. We therefore encourage policymakers to consider ways to 
facilitate the elimination of false barriers, designed to protect 
legacy processors, to new innovators and disrupters, who can leverage 
proven technologies to enhance benefits and outcomes for a beneficiary-
focused solution.
Conclusion
    Inmar appreciates the opportunity to submit testimony for today's 
hearing on the future of the SNAP program and we look forward to 
working with the Subcommittee to help effect improvements to USDA's 
nutrition assistance programs. In the best of times, SNAP serves a 
vital lifeline for millions of at-risk Americans. During an 
unprecedented time like the COVID-19 crisis, the program has been a 
vital lifeline connecting America's producers with America's most 
vulnerable populations and leveraging America's unmatched food 
production system to align with the needs of the most vulnerable 
populations.
                                 ______
                                 
Supplementary Material Submitted by James Whitford, D.P.T., Co-Founder 
           and Executive Director, Watered Gardens Ministries
Insert
          Ms. Adams. . . .
          Dr. Whitford, in your testimony you imply that SNAP and 
        Federal assistance programs of charity have no place in 
        government. I respectfully wholly disagree. SNAP and our 
        Federal safety net programs are a hand-up, not a hand-out, and 
        many of us on this Committee once utilized the program.
          So, do you believe that private charities and nonprofits 
        could immediately and effectively provide for the 42 million 
        Americans who are currently supported by SNAP?
          Dr. Whitford. That is a great question.

June 4, 2021

    To the Chair[woman] and Members of the Nutrition, Oversight, and 
Department Operations Subcommittee:

    Again, thank you for the opportunity to share my testimony at the 
recent hearing on May 26, The Future of Snap: Moving Past the Pandemic.
    I'm taking the opportunity to respond to Vice Chair Adams' question 
in writing since her time had expired prior to my response. The 
question was, ``Do you believe that private charities and nonprofits 
could immediately and effectively provide for the 42 million Americans 
who are currently supported by SNAP?''
    Thank you for the question Vice Chair Adams and I'm sorry our time 
didn't allow me to respond while we were together virtually.
    In one regard, the question encourages me--if the number of 
Americans dependent on SNAP were low enough, might you be favorable 
toward such an idea?! If that is indeed the case, then it stands to 
reason you may also be in favor of the program's privatization if there 
were enough private nonprofits and churches who could do the job. We 
should hope!
    Even though I have no doubt of the private-sector's capacity to 
feed the hungry in America, I certainly assert that ``immediately'' and 
``effectively'' are mutually exclusive. We could do so ``immediately 
and chaotically'' but a thoughtful and effective plan would require 
time. That said, I am hopeful we can all agree that one American or 42 
million Americans ``supported by SNAP'' is not optimal and that our 
common ground upon which to rally together is to see as few people as 
possible supported by the government. This reminds me of some words 
written by one of my favorite Presidents, Democrat Grover Cleveland, 
when he vetoed the Texas Seed Bill of 1887:

          ``A prevalent tendency to disregard the limited mission of 
        this [government] power and duty should be steadfastly 
        resisted, to the end that the lesson should be constantly 
        enforced that, though the people support the Government, the 
        Government should not support the people.''

    In further justifying his dissent, he pointed to the great strength 
of American charity, demonstrating his remarkable and beautiful faith 
in the generosity and neighborliness of American citizens. He also 
commented on the risk ``Federal aid'' poses to the bonds between 
people.

          ``The friendliness and charity of our countrymen can always 
        be relied upon to relieve their fellow-citizens in misfortune. 
        This has been repeatedly and quite lately demonstrated. Federal 
        aid in such cases encourages the expectation of paternal care 
        on the part of the government and weakens the sturdiness of our 
        national character, while it prevents the indulgence among our 
        people of that kindly sentiment and conduct which strengthens 
        the bonds of a common brotherhood.''

    There are other great thinkers who saw the danger of people 
``supported'' by government programs. In Alexis de Tocqueville's 
observations of American life in Democracy in America, he recorded his 
amazement of Americans' tendencies to associate. He foresaw the growth 
of government and the threat it would pose to those natural, communal 
relationships, writing:

          ``The task of the governing power will therefore perpetually 
        increase, and its very efforts will extend it every day. The 
        more it stands in the place of associations, the more will 
        individuals, losing the notion of combining together, require 
        its assistance.''

    My intent here is not a history lesson. I simply argue that 
throughout American history, whether a Democrat President or a French 
philosopher, leaders have realized that ``support'' on the Federal 
Government has a myriad of disruptive effects that adversely impact the 
natural affiliations within family and community.
    To continue examining private-sector capacity, I am not able to 
estimate the reduction of SNAP enrollees if effective and empowering 
charity took over. Certainly, without the current and easy path to 
liquidate and abuse the benefit, not to mention the attrition of able-
bodied adults who take advantage of the program unnecessarily, there 
would be a significant reduction representing a more accurate and true 
need for food.
    One church in my city partnered with an organization called the 
Pack Shack who facilitates ``funnel parties.'' The entire church 
assembled on a Sunday and instead of a sermon, they packed 40,000 meals 
during their normal two service times. These meals are dry-stored, 
nutritious and they even taste good. I know--it's a drop in the bucket, 
but it was one church on one Sunday. There are approximately 380,000 
churches in the United States. If half of them did the same just twice 
per year, it would provide a meal to each of those 42 million people 
every day.
    Even my small mission provides more than 60,000 hot meals each year 
and nearly that in additional pounds of food for families in need. Our 
mission is just one of more than 300 in the Citygate Network of 
missions that prepare and serve more than 50 million meals annually.
    I'm sure you're grateful for the hard work of these amazing 
compassionate soldiers fighting for social justice. I also imagine you 
would love to see people fed and cared for by their neighbors, local 
churches and communities. If so, then you would naturally hope SNAP to 
be merely ``supplemental'' to what's being provided by those more 
meaningful sources. Unfortunately, it's not. An unemployed homeless man 
yesterday shared a letter with me sent to him from our state's DSS 
office regarding his SNAP benefits. It reads, ``The amount of benefits 
you will continue to receive are: $234.00 thru 05/2022.'' Certainly, 
you'd agree this amount is more than ``supplemental'' for a man who is 
being fed by the mission where he currently resides. Certainly, this 
indicates the number 42 million is woefully inflated compared to real 
need.
    No less important than my confidence in private charity to meet the 
true need is the assumption I perceive behind the question you asked. 
The use of that overwhelming number, 42 million, causes most minds to 
quickly couple quantity with justification. However, the number of 
people subscribing to any sort of thing does not necessitate its 
justification, regardless of the quantity who subscribe. If it were not 
so, then communism could be justified by the number of communists or 
mob-rule by the quantity of the mob. If we so readily justify USDA's 
SNAP program, we must also toss out, among many other things, those 
valid and thoughtful arguments put forth by a few of our Founders in 
the Federalist Papers as they argued for a Federal Government but 
assured a newly liberated people that it would never grow beyond its 
enumerated powers. In number 41, Madison reassures us:

          For what purpose could the enumeration of particular powers 
        be inserted, if these and all others were meant to be included 
        in the preceding general power? Nothing is more natural nor 
        common than first to use a general phrase, and then to explain 
        and qualify it by a recital of particulars.

    And in number 45:

          The powers delegated by the proposed Constitution to the 
        Federal Government are few and defined. Those which are to 
        remain in the state governments are numerous and indefinite.

    As radical as it may seem to anyone in our culture today, I believe 
more justified than any government program is the expectation that the 
Federal Government should restrain itself to that list of ``few and 
defined'' powers. It is not so much that I argue for diminishing 
government as it is that I desire to magnify people. However, the more 
power the government holds, the less the people are empowered. 
Empowerment does not come by the simple transfer of wealth, but at the 
moment a person realizes he or she can create it for himself. So, the 
more the government grows in its unmerited transfer of wealth to the 
poor, the less the poor person will find the flourishing life and 
freedom for which he or she was created. Certainly, none of us should 
embrace such a perversion of justice.
    I am not asking you to close the SNAP program tomorrow. I only hope 
you'll consider that the involvement of the Federal Government in 
helping people in my community has also brought its share of hurt. At 
least, I ask you to consider the following:

  <bullet> Do not expand the program as our economy regains its 
        footing.

  <bullet> Require work from able-bodied adults without dependents.

  <bullet> Seriously consider how the program could be turned over to 
        the states.

    Last, please remember that the excellence of our nation stems in 
great part from its establishment as a republic. We were never intended 
to, nor should we be a nation ruled by mob nor by an elite aristocracy, 
but by the people. In his letter to John Taylor in 1816, Thomas 
Jefferson wrote;

          ``The further the departure from direct and constant control 
        by the citizens, the less has the government of the ingredient 
        of republicanism.''

    Thank you for working with me to realize a grander America in which 
we have rightfully returned to the citizenry's direct and constant 
control that which it does best; love and care for neighbors in need.
                                 ______
                                 
                          Submitted Questions
Response from Lauren Lowenstein Bauer, Ph.D., Fellow in Economic 
        Studies, The Hamilton Project, Brookings Institution
Question Submitted by Hon. Gregorio Kilili Camacho Sablan, a Delegate 
        in Congress from Northern Mariana Islands
    Question. In your testimony you recommend automatically increasing 
SNAP benefit levels and ensuring the program expands during a recession 
to reduce food insecurity. What are your thoughts on the benefits of 
applying these reforms to the capped nutrition block grant to the 
Marianas by transitioning into SNAP like the fifty states, Guam and the 
Virgin Islands? Shouldn't the same safety net protections be available 
for people in the Marianas as other Americans, including in Guam and 
the Virgin Islands?
    Answer. Current Block Grant Nutrition Assistance Programs (NAP) do 
not expand with changes in the number of households that are eligible. 
Generally, NAP does not allow for expansions or restrictions to 
nutrition assistance because it is not an entitlement program and is 
subject to a yearly budget constraint. Furthermore, any nutrition 
disaster relief response in the U.S. territories must be completed 
through acts of Congress, leading to delays in emergency nutrition 
assistance.
    The responsiveness to changing conditions on the ground is 
important not only for recessions, but in cases when Disaster-SNAP may 
be operative. NAP prevents the necessary quick response to natural 
disaster nutrition assistance that SNAP adequately provides. According 
to a report by the Food and Nutrition Service following Hurricanes Irma 
and Maria in Puerto Rico, ``FNS and the Puerto Rican Government was not 
able to distribute essential disaster nutrition grant funding to 
survivors in Puerto Rico until 6 months after the hurricanes'' (USDA 
2019).\1\ Meanwhile, ``the Virgin Islands, which participates in SNAP 
and can provide assistance through the Disaster SNAP program, was able 
to provide assistance . . . only 47 days after Hurricane Maria'' (CBPP 
2020).\2\
---------------------------------------------------------------------------
    \1\ https://bvirtualogp.pr.gov/ogp/Bvirtual/reogGubernamental/PDF/
Informes y Estudios/277002.pdf.
    Editor's note: citations annotated with  are retained in Committee 
file.
    \2\ https://www.cbpp.org/research/food-assistance/how-does-
household-food-assistance-in-puerto-rico-compare-to-the-rest-of.
---------------------------------------------------------------------------
    NAP covers a much smaller share of eligible households than in the 
fifty states and the District of Columbia and the amount of assistance 
that households receive is also typically smaller in order to stretch 
the budgeted resources. The block grant structure is inadequate to meet 
need at every point in the business cycle. I believe the evidence 
supports transitioning those places currently covered by NAP to SNAP.
Question Submitted by Hon. Salud O. Carbajal, a Representative in 
        Congress from California
    Question. One of the main ways we can make sure SNAP fulfills its 
mission to fight hunger is ensure that the benefit is adequate.
    Often, SNAP recipients still rely on food banks and other supports 
to make ends meet for their families.
    Like much of our country, rural areas of my Central Coast District 
face specific challenges such as costs to travel to get food, or other 
hardships.
    Dr. Bauer, how can we make sure that the SNAP allotment reflects 
the time and financial costs families face to purchase their groceries, 
and what other changes would you recommend to make sure families have a 
benefit adequate to meet their need for food?
    Answer. The goals of safety net programs are to provide insurance 
protection to those who are experiencing poor economic outcomes and to 
support those who are trying to improve their situation. SNAP ensures 
that eligible participants and families have access to food when they 
have no- or low-income. The value of the SNAP benefits that a household 
receives is a function of three factors: how much USDA determines it 
minimally costs to achieve a healthy diet, how much money a household 
has available to purchase groceries, and what share of that available 
money the government expects a household to spend on groceries. The 
maximum SNAP allotment is based on the Thrifty Food Plan (the Thrifty), 
a minimal-cost model food plan for a healthy diet that is based on the 
cost of purchasing foods consumed by the ``reference family,'' a male 
and female aged 19-50, a child aged 6-8, and a child aged 9-11. The 
maximum benefits can be dialed up and down for different household 
sizes. While the lower 48 states have the same maximum benefit, Alaska, 
Hawaii, and the territories that participate in SNAP have different 
maximums. Households with positive net income are expected to 
contribute 30 percent of that income toward groceries. Households that 
have no net income receive the maximum benefit for their household's 
size.
    Because households that have no resources to contribute to the 
purchase of groceries receive the maximum benefit, the maximum benefit, 
i.e., the Thrifty, has to be sufficient to meet their food needs. While 
there is evidence that SNAP is effective across many dimensions--
lifting millions out of poverty, supporting work, economic security, 
and self-sufficiency, reducing food insecurity, and improving health 
and education outcomes--the value of the SNAP maximum benefit is not 
sufficient to provide adequate nutrition assistance for eligible 
households.
    The 2018 Farm Bill states that the Thrifty should be ``based on 
current food prices, food composition data, consumption patterns, and 
dietary guidance.'' It also newly requires a recalculation every 5 
years, adding additional weight to the Congressional prerogative that 
the Thrifty be regularly updated in order to incorporate ``current'' 
inputs.
    The Congressional mandate regarding ``current'' inputs is in 
conflict with an arbitrary administrative rule, the constant cost 
constraint (i.e., the maximum cost allotment for age-gender groups). 
The constant cost constraint distorts the formula in contravention to 
the Congressionally-mandated ``current'' inputs and is not required in 
law as part of the construction of the Thrifty.
    According to the constant cost constraint, the total cost of an 
age-gender market basket must remain constant to the original value of 
the emergency use only Economy Plan and can only be adjusted for 
inflation. Because the constant cost constraint holds the total value 
of The Thrifty constant in real terms, the market baskets are forced to 
skew away from actual consumption patterns to simulated consumption 
patterns far outside norms, making it less likely that participants 
have sufficient resources to purchase and consume a healthy diet.
    Figure 1 illustrates how the constant constraint works. The 
constant cost constraint causes significant and self-evident deviation 
from actual consumption patterns toward the unrealistic consumption of 
particular raw ingredients. In order to satisfy the constant cost 
constraint, the Thrifty requires the consumption of more than 20 pounds 
of orange juice (plus an additional 5 pounds of oranges), 12 pounds of 
potatoes, 28 pounds of milk, and so forth. Models that loosen the 
constant cost constraint reduce these disparities.<SUP>[ii]</SUP> 
Through the review process, the U.S. Department of Agriculture in 
partnership with the Office of Management and Budget may eliminate (or 
relax) the constant cost constraint. Doing so would allow the 
Congressionally-mandated inputs to update to ``current'' the total 
value of the Thrifty.
---------------------------------------------------------------------------
    \[ii]\ Wilde, P.E. and Llobera, J. (2009), Using the Thrifty Food 
Plan to Assess the Cost of a Nutritious Diet. Journal of Consumer 
Affairs, 43: 274-304.
    Editor's note: the response from Dr. Bauer did not include the 
reference [i], it has been reproduced herein as submitted.
---------------------------------------------------------------------------
Figure 1
Average Household Consumption vs. Thrifty Shopping Plan
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: USDA 2000a, 2000b.*
---------------------------------------------------------------------------
    * Editor's note: the graphic comes from the Hamilton Project's 
Policy Brief 2016-06, which is derived from Policy Proposal 2016-06, 
Modernizing SNAP Benefits, by James P. Ziliak, dated May 2016. The 
sources listed are not listed in Dr. Bauer's response to Mr. Carbajal's 
question. However, the sources referenced are listed herein for 
completeness of the record, the policy proposal is retained in 
Committee file, and is available at https://www.hamiltonproject.org/
assets/files/ziliak_modernizing_snap_benefits.pdf:
    U.S. Department of Agriculture (USDA). 2000a. ``Loss-Adjusted Food 
Availability Data.'' Economic Research Service, U.S. Department of 
Agriculture, Washington, D.C.
    ______2000b. ``Recipes and Tips for Healthy, Thrifty Meals.'' CNPP-
11. Center for Nutrition Policy and Promotion, U.S. Department of 
Agriculture, Washington, D.C.
---------------------------------------------------------------------------
          Note: All estimates are based on a household of four with two 
        children. Average household consumption is based on the loss-
        adjusted food availability data series, which is derived from 
        food availability data from USDA's Economic Research Service by 
        adjusting for food spoilage, plate waste, and other losses, to 
        more closely approximate actual intake. The Thrifty Shopping 
        Plan represents Week 1 of the USDA's recipes for the 1999 
        Thrifty Food Plan. One gallon of milk equals 8.6 pounds and 1 
        gallon of orange juice equals 8 pounds.

    A second place where the construction of the Thrifty can be 
improved in a variety of ways is through the ``consumption patterns'' 
input. The last time that the Thrifty was constructed, USDA employed 
National Health and Nutrition Examination Survey (NHANES) and Nielsen 
data: average daily consumption of thousands of food items are 
deconstructed and then reconstituted into more than four dozen food 
categories (and then prices are applied).
    There are numerous reasons to change how this input is measured.
    NHANES data lacks external validity and identifies SNAP 
participation through self-report.<SUP>[iii]</SUP> Only food 
consumption pattern data from low-income households, or households with 
before-tax incomes at or below 130 percent of the U.S. poverty 
threshold, were used in the last calculation of the Thrifty. This 
choice is problematic because lower income `food insufficient' 
households' consumption patterns are proscribed by the resources 
available to them.<SUP>[iv]</SUP> In other words, the choice to match 
on consumption patterns of lower-income individuals (including a 
disproportionate number of people with outlier consumption patterns at 
the very lowest incomes) rather than the SNAP population prejudices the 
calculation away from the actual consumption patterns of SNAP 
households and even farther away from the consumption patterns of food-
secure SNAP households.
---------------------------------------------------------------------------
    \[iii]\ Caswell, J.A., Yaktine, A.L. and National Research Council, 
2013. History, background, and goals of the supplemental nutrition 
assistance program. Supplemental nutrition assistance program: 
Examining the evidence to define benefit adequacy.
    \[iv]\ Dixon, L., Winkleby, M., & Radimer, K. 2001 ``Dietary 
Intakes and Serum Nutrients Differ between Adults from Food-
Insufficient and Food-Sufficient Families: Third National Health and 
Nutrition Examination Survey, 1988-1994.'' The Journal of Nutrition, 
Volume 131, Issue 4, Pages 1232-1246. Leung, C., Ding, E., Catalano, 
P., Villamor, E., Rimm, E., Willett, W. 2012. ``Dietary intake and 
dietary quality of low-income adults in the Supplemental Nutrition 
Assistance Program.'' The American Journal of Clinical Nutrition, 
Volume 96, Issue 5, November 2012, Pages 977-988.
---------------------------------------------------------------------------
    There are several ways to improve the construction of the 
consumption patterns input:

  <bullet> Within NHANES, selecting a population sample that that 
        reflects food-secure SNAP households;

  <bullet> Incorporate time use data from the American Time Use Survey 
        using the same population sample in NHANES as part of the 
        consumption patterns calculation to account for the cost of 
        food preparation time; and/or,

  <bullet> Use the National Household Food Acquisition and Purchase 
        Survey (FoodAPS) data in addition to or in place of Nielsen 
        data.

    These changes would go a long way in ensuring that SNAP households 
receive adequate benefits.
Response from Odessa Davis; on behalf of No Kid Hungry Campaign, Share 
        our Strength
Question Submitted by Hon. Salud O. Carbajal, a Representative in 
        Congress from California
    Question. One of the most crucial changes to SNAP during the 
pandemic was the temporary expansions for college students, allowing 
students who are eligible for work study or have no Expected Family 
Contribution to apply for SNAP if they need help with their groceries.
    The expansion is tied to the public health emergency, but we know 
that students will need help with food so they can learn & complete 
their degrees long after COVID.
    Ms. Davis, what can we do to ensure the SNAP is there to serve low-
income college students?
    Answer. Getting a college education is really important. It is also 
really hard to stay in school when you are juggling working and raising 
a child at the same time and trying to figure out how to pay all your 
bills. Congress can help make it easier for people like me and my 
fellow student parents to graduate by making sure SNAP is available to 
us.
    One way to increase access to SNAP among college students who are 
struggling financially is to continue the eligibility expansions put in 
place during COVID. That would allow students who are eligible for work 
study or whose families don't have resources to help receive SNAP.
    SNAP can be really confusing to figure out. Having colleges hire 
people to help eligible students apply for SNAP and WIC could make a 
big difference.
    Finally, SNAP benefits are really low and it's hard to afford 
healthy food. Increasing the amount of benefits would help everyone on 
SNAP, including college students.
Response from Renee, Boynton-Jarrett, M.D., Sc.D., Associate Professor 
        of Pediatrics, Boston University School of Medicine; 
        Pediatrician, Boston Medical Center; Founder and Executive 
        Director, Vital Village Networks
Question Submitted by Hon. Gregorio Kilili Camacho Sablan, a Delegate 
        in Congress from Northern Mariana Islands
    Question. In your testimony you note that when children lack access 
to necessities like nutritious food, even for a brief period of time--
their health is jeopardized. Last year, our governor removed families 
from nutrition assistance due to lack of funds from the block grant. 
From a health standpoint, would you agree that children in these 
families would be best served under SNAP, where funding isn't capped, 
than the block grant model?
    Answer. I would agree that children are best served under SNAP as 
an entitlement program, where funding is not capped as it would be in a 
block grant.
    Research has consistently shown that household food insecurity has 
a significant and enduring impact on child health and 
development.<SUP>[16]</SUP> Children in food-insecure households are 
more likely to be in poor health, be hospitalized, at-risk of 
developmental delays, and experiencing difficulties learning in 
school.<SUP>[16-18]</SUP> Household food insecurity, even if at 
marginal levels, is associated with adverse childhood developmental and 
behavioral outcomes such as impaired cognitive development, socio-
emotional skills, and poor academic performance.<SUP>[19, 20]</SUP> 
Food insecurity during key developmental periods, such as the first 5 
years of life, can impact child health by disrupting brain growth and 
development, harming physical development and negatively influencing 
parental well-being.<SUP>[20]</SUP>
    SNAP is associated with decreased food insecurity and improved 
health outcomes among children.<SUP>[21, 22]</SUP> After receiving SNAP 
benefits for 6 months food insecurity has been shown to fall by \1/3\ 
in children.<SUP>[23]</SUP> Infants, toddlers and preschoolers were 
less likely to be hospitalized, underweight or at risk for 
developmental delays when in families enrolled in SNAP in comparison to 
those in likely eligible families that did not receive 
SNAP.<SUP>[24]</SUP>
    Rather than guaranteeing that SNAP can meet the needs of all who 
become eligible, a block grant to SNAP sets funding at a fixed amount 
and gives states authority to take actions that may divert funding for 
the original purpose. During times when demand for SNAP is high, such 
as a recession or natural disaster, there would be insufficient funds 
to meet the needs of all experiencing hunger. Funding from the block 
grant could be diverted to fill other budgetary needs. If SNAP funding 
is capped in a block grant, benefits could be reduced or families 
eliminated from the program, as you described, and leave families 
without the nutrition they need to thrive and can have enduring 
consequences on child health and development. Participation in SNAP 
reduces hunger and leads to healthier and more academically successful 
children.
Question Submitted by Hon. Salud O. Carbajal, a Representative in 
        Congress from California
    Question. Nutrition security is critical at all stages of a child's 
development. The patchwork of Federal nutrition programs seeks to 
address childhood malnutrition, yet the prevalence of obesity, a form 
of malnutrition resulting from food insecurity continues to rise, even 
during the pandemic.
    What are some of the barriers families experience in accessing WIC, 
SNAP, free and reduced prices lunches to ensure their children have 
consistent access to balanced nutritious diets?
    Answer. The COVID-19 pandemic and associated restrictions 
significantly disrupted daily routines for children, typical modalities 
for receiving and accessing food, and combined with social and 
environmental stressors related to the pandemic led to changes in 
eating behaviors, physical activity, and stress regulation thereby 
elevating obesity risk.<SUP>[5, 6]</SUP> Research has demonstrated that 
access to SNAP during the prenatal period and in childhood is 
associated with lower rates of obesity and metabolic syndrome in 
adulthood.<SUP>[7]</SUP> Improvements in the nutritional content of the 
WIC package have been associated with improvements in dietary quality 
and nutrient intake during pregnancy <SUP>[8]</SUP> and improved 
distributions of birth weight.<SUP>[9]</SUP> SNAP participation has 
been associated with reduced childhood obesity.<SUP>[10]</SUP>
    In the absence of a resilient and secure food system we cannot 
ensure the nutritional needs of children and families are consistently 
met. Research has shown that families that had abrupt reductions or 
elimination of SNAP benefits resulting from increased income experience 
increased household and child food insecurity.<SUP>[11]</SUP> SNAP 
benefits are too low for families to afford a healthy 
diet.<SUP>[12]</SUP> Expansions in SNAP and the Pandemic Electronic 
Benefit Transfer (P-EBT) program passed in relief packages by Congress 
helped elevate the benefits to a level nearing USDA estimates for a 
nutritious diet.
    Barriers to SNAP participation include misinformation regarding 
eligibility criteria and fears regarding repercussions (child removal, 
penalties, payback obligations), particularly among immigrant 
households as public charge criteria changed.<SUP>[13]</SUP> 
Facilitators of SNAP participation include the treatment of recipients 
with dignity and autonomy to make purchasing decisions consistent with 
household needs.<SUP>[14]</SUP> Further, addressing barriers that 
farmers experience to accepting SNAP, such as internet access 
challenges,<SUP>[15]</SUP> would help increase the availability of 
healthy food options for SNAP recipients.
Question Submitted by Hon. Jimmy Panetta, a Representative in Congress 
        from California
    Question. SNAP does not currently allow program participants to use 
their benefits to purchase home-delivered meals that are tailored to 
health care needs and chronic conditions, which can help so many people 
stay healthy at home. Given the health benefits of these types of 
meals, in your view, should the SNAP Online Purchasing Pilot Program be 
expanded to include smaller, independent retail partners, including 
organizations that provide medically-tailored meals delivered directly 
to the homes of low-income vulnerable populations, like seniors, 
nationwide?
    Answer. The ability to engage organizations that provide medically-
tailored meals and independent retail partners that can deliver food to 
homes would provide a needed health benefit to an underserved 
population: children and adults with chronic and medically complex 
health conditions who are recipients of SNAP. The delivery of medically 
tailored meals to medically and socially complex adults has been 
associated with reduced hospital and nursing facility 
admissions.<SUP>[1]</SUP> The delivery of medically-tailored meals can 
also promote family meals which are associated with healthy nutritional 
outcomes for children and address challenges to meal 
preparation.<SUP>[2]</SUP>
    The COVID-19 pandemic has highlighted the potential value of online 
purchasing options. State policymakers should evaluate the benefits of 
online purchasing pilot and other innovative delivery methods. Delivery 
systems should reduce stigma and maximize participation of diverse 
retailers that offer high quality of nutritional foods.<SUP>[3]</SUP> 
Presently there are a limited number of online retailers available in 
the SNAP Online Purchasing Pilot Program. Next, efforts are needed to 
ensure equity for online purchasing, including broadband internet 
access and delivery access. Finally, meaningful engagement of SNAP 
recipients and research is needed to better understand barriers and 
motivators for online food shopping.<SUP>[4]</SUP>
 
 
                               References
 
    [1]  Berkowitz, S.A., et al., Association between receipt of a
 medically tailored meal program and health care use. * JAMA Internal
 Medicine, 2019. 179(6): p. 786-793.
* Editor's note: entries annotated with  are retained in Committee
 file.
    [2]  Dwyer, L., et al., Promoting family meals: a review of existing
 interventions and opportunities for future research. Adolesc. Health
 Med. Ther., 2015. 6: p. 115-31.
    [3]  Paysour, M., Expansion of SNAP Online Purchasing Pilot to local
 food systems: An equity-focused policy brief. 2020.
    [4]  Martinez, O., et al., EBT Payment for Online Grocery Orders: a
 Mixed-Methods Study to Understand Its Uptake among SNAP Recipients and
 the Barriers to and Motivators for Its Use. J. Nutr. Educ. Behav.,
 2018. 50(4): p. 396-402.e1.
    [5]  Stavridou, A., et al., Obesity in Children and Adolescents
 during COVID-19 Pandemic. Children, 2021. 8(2): p. 135.
    [6]  Browne, N.T., et al., When pandemics collide: the impact of
 COVID-19 on childhood obesity. Journal of Pediatric Nursing, 2021. 56:
 p. 90.
    [7]  Hoynes, H., D.W. Schanzenbach, and D. Almond, Long-run impacts
 of childhood access to the safety net. American Economic Review, 2016.
 106(4): p. 903-34.
    [8]  Hamad, R., et al., The Impact of the Revised WIC Food Package
 on Maternal Nutrition During Pregnancy and Postpartum. Am. J.
 Epidemiol., 2019. 188(8): p. 1493-1502.
    [9]  Hamad, R., et al., Association of Revised WIC Food Package With
 Perinatal and Birth Outcomes: A Quasi-Experimental Study. JAMA
 Pediatr., 2019. 173(9): p. 845-852.
    [10] Burgstahler, R., C. Gundersen, and S. Garasky, The supplemental
 nutrition assistance program, financial stress, and childhood obesity.
 Agricultural and Resource Economics Review, 2012. 41(1): p. 29-42.
    [11] Ettinger de Cuba, S., et al., Loss Of SNAP Is Associated With
 Food Insecurity And Poor Health In Working Families With Young
 Children. Health Aff. (Millwood), 2019. 38(5): p. 765-773.
    [12] Council, N.R., Supplemental nutrition assistance program:
 examining the evidence to define benefit adequacy. 2013.
    [13] Pelto, D.J., et al., The Nutrition Benefits Participation Gap:
 Barriers to Uptake of SNAP and WIC Among Latinx American Immigrant
 Families. Journal of Community Health, 2020. 45(3): p. 488-491.
    [14] Gundersen, C., Ensuring the dignity and autonomy of SNAP
 recipients. Physiology & Behavior, 2020. 221: p. 112909.
    [15] Kellegrew, K., et al., Evaluating barriers to SNAP/EBT
 acceptance in farmers markets: A survey of farmers. Journal of
 Agriculture, Food Systems, and Community Development, 2018. 8(1): p.
 133-146.
    [16] de Oliveira, K.H.D., et al., Household food insecurity and
 early childhood development: Systematic review and meta-analysis.
 Matern. Child Nutr., 2020. 16(3): p. e12967.
    [17] Pai, S. and K. Bahadur, The Impact of Food Insecurity on Child
 Health. Pediatr. Clin. North Am., 2020. 67(2): p. 387-396.
    [18] Drennen, C.R., et al., Food Insecurity, Health, and Development
 in Children Under Age Four Years. Pediatrics, 2019. 144(4): p.
 e20190824.
    [19] Shankar, P., R. Chung, and D.A. Frank, Association of Food
 Insecurity with Children's Behavioral, Emotional, and Academic
 Outcomes: A Systematic Review. J. Dev. Behav. Pediatr., 2017. 38(2):
 p. 135-150.
    [20] Johnson, A.D. and A.J. Markowitz, Associations Between
 Household Food Insecurity in Early Childhood and Children's
 Kindergarten Skills. Child Dev., 2018. 89(2): p. e1-e17.
    [21] Mabli, J. and J. Ohls, Supplemental Nutrition Assistance
 Program participation is associated with an increase in household food
 security in a national evaluation. The Journal of Nutrition, 2015.
 145(2): p. 344-351.
    [22] Mabli, J. and J. Worthington, Supplemental Nutrition Assistance
 Program participation and child food security. Pediatrics, 2014.
 133(4): p. 610-619.
    [23] White House Council of Economic Advisers, ``Long-Term Benefits
 of the Supplemental Nutrition Assistance Program,''  2015.
    [24] Schmidt, L., L. Shore-Sheppard, and T. Watson, The effect of
 safety-net programs on food insecurity. Journal of Human Resources,
 2016. 51(3): p. 589-614.
 
                                  [all]
</pre></body></html>
